<html>
<title> - DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE JUDICIARY, AND RELATED AGENCIES APPROPRIATIONS FOR 2004</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                                                                      
 
                 DEPARTMENTS OF COMMERCE, JUSTICE, AND

                   STATE, THE JUDICIARY, AND RELATED

                    AGENCIES APPROPRIATIONS FOR 2004

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED EIGHTH CONGRESS
                              FIRST SESSION
                                ________
  SUBCOMMITTEE ON THE DEPARTMENTS OF COMMERCE, JUSTICE, AND STATE, THE 
                    JUDICIARY, AND RELATED AGENCIES

                    FRANK R. WOLF, Virginia, Chairman

 HAROLD ROGERS, Kentucky              JOSE E. SERRANO, New York
 JIM KOLBE, Arizona                   ALAN B. MOLLOHAN, West Virginia
 CHARLES H. TAYLOR, North Carolina    ROBERT E. ``BUD'' CRAMER, Jr., 
 RALPH REGULA, Ohio                   Alabama
 DAVID VITTER, Louisiana              PATRICK J. KENNEDY, Rhode Island
 JOHN E. SWEENEY, New York            MARTIN OLAV SABO, Minnesota      
 MARK STEVEN KIRK, Illinois         
                                                                                                                                                
                                    
 NOTE: Under Committee Rules, Mr. Young, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
   Mike Ringler, Christine Kojac, Leslie Albright, and John F. Martens
                           Subcommittee Staff
                                ________
                                 PART 7

                                                                   Page
 Secretary of State...............................................    1
 Administration of Foreign Affairs................................   69

                                   

                                ________
         Printed for the use of the Committee on Appropriations
                                ________
                     U.S. GOVERNMENT PRINTING OFFICE
 90-849                     WASHINGTON : 2004



                  COMMITTEE ON APPROPRIATIONS

                   C. W. BILL YOUNG, Florida, Chairman

 RALPH REGULA, Ohio                      DAVID R. OBEY, Wisconsin
 JERRY LEWIS, California                 JOHN P. MURTHA, Pennsylvania
 HAROLD ROGERS, Kentucky                 NORMAN D. DICKS, Washington
 FRANK R. WOLF, Virginia                 MARTIN OLAV SABO, Minnesota
 JIM KOLBE, Arizona                      STENY H. HOYER, Maryland
 JAMES T. WALSH, New York                ALAN B. MOLLOHAN, West Virginia
 CHARLES H. TAYLOR, North Carolina       MARCY KAPTUR, Ohio
 DAVID L. HOBSON, Ohio                   PETER J. VISCLOSKY, Indiana
 ERNEST J. ISTOOK, Jr., Oklahoma         NITA M. LOWEY, New York
 HENRY BONILLA, Texas                    JOSE E. SERRANO, New York
 JOE KNOLLENBERG, Michigan               ROSA L. DeLAURO, Connecticut
 JACK KINGSTON, Georgia                  JAMES P. MORAN, Virginia
 RODNEY P. FRELINGHUYSEN, New Jersey     JOHN W. OLVER, Massachusetts
 ROGER F. WICKER, Mississippi            ED PASTOR, Arizona
 GEORGE R. NETHERCUTT, Jr.,              DAVID E. PRICE, North Carolina
Washington                               CHET EDWARDS, Texas
 RANDY ``DUKE'' CUNNINGHAM,              ROBERT E. ``BUD'' CRAMER, Jr., 
California                               Alabama
 TODD TIAHRT, Kansas                     PATRICK J. KENNEDY, Rhode Island
 ZACH WAMP, Tennessee                    JAMES E. CLYBURN, South Carolina
 TOM LATHAM, Iowa                        MAURICE D. HINCHEY, New York
 ANNE M. NORTHUP, Kentucky               LUCILLE ROYBAL-ALLARD, California
 ROBERT B. ADERHOLT, Alabama             SAM FARR, California
 JO ANN EMERSON, Missouri                JESSE L. JACKSON, Jr., Illinois
 KAY GRANGER, Texas                      CAROLYN C. KILPATRICK, Michigan
 JOHN E. PETERSON, Pennsylvania          ALLEN BOYD, Florida
 VIRGIL H. GOODE, Jr., Virginia          CHAKA FATTAH, Pennsylvania
 JOHN T. DOOLITTLE, California           STEVEN R. ROTHMAN, New Jersey
 RAY LaHOOD, Illinois                    SANFORD D. BISHOP, Jr., Georgia
 JOHN E. SWEENEY, New York               MARION BERRY, Arkansas            
 DAVID VITTER, Louisiana
 DON SHERWOOD, Pennsylvania
 DAVE WELDON, Florida
 MICHAEL K. SIMPSON, Idaho
 JOHN ABNEY CULBERSON, Texas
 MARK STEVEN KIRK, Illinois
 ANDER CRENSHAW, Florida  
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                         
                                                                                                            
                                    
                                                                                                                                               
                 James W. Dyer, Clerk and Staff Director

                                  (ii)


DEPARTMENTS OF COMMERCE, JUSTICE AND STATE, THE JUDICIARY, AND RELATED 
                    AGENCIES APPROPRIATIONS FOR 2004

                              ----------                              

                                         Wednesday, March 26, 2003.

                          THE STATE DEPARTMENT

                                WITNESS

COLIN L. POWELL, U.S. SECRETARY OF STATE

                   Opening Statement of Chairman Wolf

    Mr. Wolf [presiding]. Mr. Secretary, we want to welcome you 
to the committee. We are honored to have you before us today, 
the secretary of state, Colin Powell, for his third appearance 
before the subcommittee.
    Last year, I made the comment that your tenure so far has 
been a trial by fire and it has not become any easier. We are 
now engaged in a war that has required and will continue to 
require your extraordinary diplomatic efforts. At the same 
time, we are facing serious issues that in other times would be 
dominating the foreign policy agenda: nuclear weapons 
development in North Korea and Iran, the continuing effort of 
Al Qaida and the famine in Africa, on which you and the 
administration have done an excellent job. You have handled 
your duties admirably and with great skill, and as have the 
other members of your team. And we are fortunate to have 
someone with your abilities as Secretary during these difficult 
times.
    Today you are testifying regarding the fiscal year 2004 
budget request for the operations of the department and the 
assessed contributions of the United States for the United 
Nations and other international organizations.
    The centerpiece of your request for 2004 is the third and 
final installment of a large-scale personnel increase to 
improve diplomatic readiness. In addition, your request 
includes new staffing increases for embassy security and border 
security. The request includes funding for a total of 641 new 
positions. If enacted, this will represent a historic increase 
of almost 2,200 American employees during your tenure as 
secretary of state.
    It is our intention to ensure that during this dramatic 
expansion, the department also advances significant reforms and 
long overdue management improvements, including right-sizing of 
our overseas presence, modernization of technology and creating 
an interagency framework to expedite the building of secure 
overseas facilities.
    We are pleased to see your budget request continues the 
funding stream the Congress and the administration have 
established to improve embassy security. Since the embassy 
bombings in Africa, the committee has provided over $5.6 
billion to improve embassy security. And we are interested in 
hearing your views on how this effort is proceeding.
    Another issue that I am very concerned about, and that we 
will have some questions about, is the coordination and 
execution of public diplomacy. The Congress provided 
significant funding increases for public diplomacy activities 
in the Arab and Muslim world in both fiscal year 2002 
supplemental and fiscal year 2003. I expect it is not too early 
to look to the results of those programs and draw some 
conclusions. We hope you can comment.
    Personally speaking and not for the committee, but for 
myself, I think the effort has become more critical today after 
our nation is engaged with a coalition fighting to rid Iraq of 
Saddam Hussein. Mr. Secretary, how can we make certain that the 
world knows that while we engage in military operations to 
topple Saddam Hussein's regime our overriding humanitarian 
concern has been and is to protect the Iraqi people? The 
National Journal reported this week about what it called our 
humanitarian map of what not to hit with bombs in Iraq in an 
effort to protect--to protect--the Iraqi people and as much of 
the infrastructure as possible to aid in a post-war effort to 
give back to the Iraqi people a country with a sustainable 
economy.
    Joint Chiefs Chairman Richard Myers, General Myers, on 
Tuesday morning told ABC's ``Good Morning America'' that, 
``protecting Iraqi civilians is a very high priority, and 
sometimes it is difficult to find a balance between protecting 
them and achieving military objectives.'' To quote him, he said 
in another quote, ``we are more likely to take a bit more risk 
ourselves than to bring the population in harm's way. But that 
is a conscious calculation.'' This is a military man saying, 
``We are going to protect the civilians.'' And I think you and 
the administration ought to be given credit for doing that.
    Yesterday, Richard Cohen wrote in The Washington Post about 
how he is struck with the images that he has seen on TV that, 
``The lights were on in Baghdad and cars could be seen 
scurrying to and fro. That is a war against the regime,'' he 
said, ``a war different from past wars.''
    He acknowledged that in war things go wrong, and as hard as 
we try some innocents may be wounded or killed. But rightly so, 
the United States has drawn a bright line of distinction 
between civilian and military targets, putting at risk--at 
risk--coalition forces and at an apparent cost of American 
lives.
    We are fighting a different war in a different way from the 
way Saddam Hussein fights his wars. We do not use civilians as 
human shields, or dress our soldiers in street clothes and hide 
them among the Iraqi people, or use poison gas against our 
civilians. We use smart bombs with incredible precision to take 
out Saddam Hussein's military apparatus, holding the protection 
of the Iraqi people as a top priority.
    Mr. Cohen wrote in The Post: ``I hope the world notices. I 
hope that throughout the Arab world it was noticed how American 
military briefers took questions from Arab media outlets, 
treating them no differently than reporters from the mightiest 
of American networks.'' He went on to say, ``Some of their 
questions were obnoxious, a kind of backhanded homage to 
American values.'' He said, ``I hope the anti-American 
demonstrators throughout the Muslim world we saw today inSyria 
and places like that that they could never speak out, that there is not 
the freedom of the press.'' He went on to say that, ``Throughout the 
world that their own governments would invite such scrutiny and respond 
with such apparent candor, even permit their troops to be interviewed 
on the battlefield and confess to being afraid.'' I hope a little bit 
of this sinks in.
    Mr. Secretary, this is a story the world really needs to 
know about. The nonstop propaganda images broadcast through the 
Arab world and people in Europe and around the globe by Al 
Jazeera are not--are not--the real story of this war. I even 
heard that Al Jazeera has been embedded--embedded--in with 
American forces. They are not telling the honest story with 
regard to the American men and women that are fighting over 
there.
    I would like to hear your comments about how the United 
States can let the world know that we are decent, a 
compassionate and a caring people with the overriding concern 
to protect the people of Iraq, to liberate them from 
oppression, to give them the opportunity to enjoy the kind of 
freedom our country has shared and kept over the last two 
centuries.
    I do not know if that is going to be in your prepared 
statement. I would like to hear you talk about that, because it 
is important that we do something through public diplomacy 
whereby the decency of the American people and what we are 
doing is known throughout the Middle East and throughout the 
world.
    With that, I recognize Mr. Serrano.

              Opening Statement of Ranking Member Serrano

    Mr. Serrano. Thank you, Mr. Chairman.
    Welcome, Secretary Powell.
    It is with deep sadness about our world situation that I 
welcome you here, Secretary Powell, to this subcommittee.
    Secretary Powell, I know that you are here today to talk 
about the State Department's budget for fiscal year 2004. 
However, I find myself in a difficult situation to speak about 
the budget when our nation is at war, to focus on anything but 
the situation in which we find ourselves today. So I have 
thrown out my original statement which focused on your budget 
to take a brief moment of your time to comment on the fact that 
our nation is at war and that I am so deeply troubled.
    I know that you are doing the best to serve our nation 
during a time of war. And you have my respect and admiration, 
and you know that that is the truth.
    However, I must take a moment to tell you that I disagree 
strongly with the fact that we are at war. This is a war in 
which our soldiers and innocent Iraqi civilians are dying, that 
is being waged without the support of the U.N. and more of our 
allies. I know that you have worked hard and spent many hours 
at the U.N., but despite your best efforts the fact remains 
that our nation is at war.
    No one, however, should mistake my or our opposition for 
the decision to go to war with my concern about the safety of 
our troops and strong support for these brave men and women. 
Once our troops are in harm's way, my support for them should 
never be questioned. People who support the war should not 
assume that those who oppose the war do not support our troops 
as they fight in battle.
    This is a war that is opposed by many of our traditional 
allies, and that is causing demonstrations and strong anti-
American feelings worldwide. We must make sure that our State 
Department personnel are protected as they face this new and 
dangerous world where America is viewed by many as an enemy.
    Secretary Powell, we will all pray for the safety of our 
soldiers and our diplomats and for a quick end to the 
hostilities. I must say that as our nation moves from war to 
peace, there is no one I would rather see at the table 
rebuilding Iraq, helping its people and repairing our relations 
with our allies than you.
    Let me state again, Mr. Secretary, that you have my deepest 
respect, especially during this difficult time for our nation. 
You can be sure that I will work closely with Chairman Wolf to 
provide the necessary funding so that the State Department, 
during this time of war and the peace that will follow, will 
have the resources that are required to successfully perform 
its important services both here and abroad.
    Our nation is depending on you and our diplomats to bring 
us through these hostilities to a time of peace in which the 
United States and its people are respected as friends who share 
their talents and generous spirits with the other nations who 
inhabit our world. I look forward to that time of peace. And I 
know that because you are in a position of leadership, we will 
reach it soon.
    On a personal note, I can never go two minutes without 
reminding us that we grew up in the same neighborhood in the 
South Bronx. You are our most famous and proudest son. I, along 
with the Yankees, root for you. And you know that my comments 
today are not just a statement; I am a big Colin Powell 
supporter. And, General, you have my utmost respect even when 
we disagree on some of the issues.
    Thank you, Mr. Chairman.
    Mr. Wolf. Thank you, Mr. Serrano.
    Mr. Secretary, you can proceed. Your full statement will 
appear in the record.
    [The statement of Secretary Powell follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
        
                 Statement of Secretary of State Powell

    Secretary Powell. Thank you, Mr. Chairman.
    I did have a statement, and thank you for putting it in the 
record.
    What I think I would like to do Mr. Chairman is summarize 
that statement so at least I can get my position down with 
respect to the 2004 budget. Then, I will be more than happy to 
respond to the specific points that you and Mr. Serrano and, I 
am sure, other members of the committee will make.
    Mr. Chairman, we are at war. I know that each and every one 
of us here today, as we watch this war, our prayers and our 
thoughts are with those young men and women who are prosecuting 
it for us on behalf of the nation and the American people. Once 
again, as you watch them in the deserts of Iraq, if you watch 
how they go about their work of fighting and as you watch how 
they go about their work of taking care of people and 
distributing humanitarian supplies, we should all be very proud 
that we have such young men and women who are willing to 
volunteer to serve their nation. And they are not just from the 
United States, United Kingdom, Australia, and Spain. Many other 
nations are with us. I will speak more about this a little 
later on in my remarks.
    Mr. Chairman, members of the subcommittee, funding 
requested for 2004 for the Department of State, USAID and other 
foreign affairs agencies is $28.5 billion. I ask for your 
support of that amount.
    I might say at this point that I want to express my thanks 
to you, Mr. Chairman and to the members of the subcommittee and 
the full committee for the great support you have given me over 
the last two-plus years. We have seen a lot of improvements in 
the department which would not have been possible without your 
strong efforts and support, as well as your nudging, your 
advice and criticism from time to time that keeps us on track. 
I am deeply appreciative of that.
    The President's budget will allow the United States to, 
first, target security and economic assistance to sustain key 
countries supporting us in the war on terrorism and helping us 
stem the proliferation of weapons of mass destruction. The 
budget will help us launch the Millennium Challenge Account, a 
new partnership providing support to those countries that will 
justly invest in their people and which encourage economic 
freedom; will also strengthen the U.S. and global commitment to 
fighting HIV/AIDS and alleviating humanitarian hardships; will 
also permit us to combat illegal drugs in the Andean region of 
South America, as well as bolster democracy in one of that 
region's important countries and most threatened countries, 
Colombia. Finally, the budget will reinforce America's world-
class diplomatic force, focusing on the people, places and 
tools needed to promote our foreign policies around the world.
    I am particularly proud of that last goal, Mr. Chairman. 
For the past two years I have concentrated not just on foreign 
policy and being the primary foreign policy advisor of the 
President, but also on being the chief executive officer of the 
State Department.
    Under my CEO hat, we are asking for $8.5 billion in the 
State operations budget to run the department. Since the CEO 
responsibilities are this subcommittee's particular 
jurisdiction, let me give you some highlights of what these 
funds are for.
    First, as you noted earlier, we have been reinforcing our 
diplomatic troops for two years, and we will continue to do so 
in 2004. We will hire 399 more professionals in the foreign and 
civil service to help the President carry out the nation's 
foreign policy. In addition, of course, to the security 
personnel that you made reference to.
    This hiring will bring us to the 1,100-plus new foreign and 
civil service officers we set out to hire during the first 
three years of this administration to bring the department's 
personnel levels back in line with the workload. Moreover, 
completion of these hires will allow us the flexibility to 
train and educate all of our officers as they should be trained 
and educated. We will have a little bit of flexibility in the 
system so that people can go up and get the kind of training 
that they need.
    I can tell you, Mr. Chairman, what an impact this is 
having. You go out and visit embassies now and suddenly people 
are showing up to help them with their workload, vacancies are 
being filled. These youngsters are now coming down the pipeline 
and out into the field, and it is making a real difference.
    Mr. Chairman, one day I hope to have you down at the 
department when we swear in one of these new classes of junior 
officers. It will just turn you on when you see the motivation 
in their eyes, when you see the enthusiasm that they bring to 
the new jobs as members of the Department of State family.
    I also promised, Mr. Chairman, that I would bring state-of-
the-art communications capabilities to the department. We are 
in a world of instantaneous communication, instantaneous media. 
I have to have a department where every single member in that 
department is wired to every other member of the department 
around the world, secured and unsecured, so that we have access 
to this marvelous resource called the Internet where we can get 
the information we need and pass intelligence.
    When the President gives a speech, as he did earlier today 
down at Central Command Headquarters in Tampa, I want it piped 
all over the department, every mission, instantaneously 
translated as fast as possible. When the President gives a 
major address, when I give a major address, when something 
happens in Washington, we can no longer sit around typing up 
cables. Electronically it has to be distributed. Electronically 
you have to be able to hear back from all the embassies. 
Electronically they have to be able to talk to each other 
across embassies around the world.
    As a result of the support that you have been giving that 
program in the form of financial support, we have really, 
really improved over the last couple of years.
    For that reason I am asking for another $157 million 
allocation so that we can get where we need to be in these 
first three years.
    Finally, I want to sweep the slate clean and completely 
revamp the way we construct our embassies and other overseas 
buildings. You touched on this a moment ago, Mr. Chairman, and, 
as you know, this is a long-term task, an almost never-ending 
one, particularly in this time of heightened terrorist 
activities. But we are well on our way to implementing both the 
construction and security tasks in a better, less expensive way 
and in a way that future CEOs can continue and improve upon.
    General Williams--whom you know well--you know what he has 
been doing, Mr. Chairman. I think it is just a solid 
successstory of bringing this program under professional management.
    Our embassies are coming up now, and they are being rebuilt 
rapidly, and under budget. We have been able to reduce the 
overall costs of our embassy facilities from regional 
estimates, and I am very proud of what we have been able to do 
in our overseas construction activities.
    Mr. Chairman, as principal foreign policy adviser, I have 
other priorities which are described in my prepared statement. 
Our number one priority is to fight and win the global war on 
terrorism.
    The foreign operations budget furthers this goal by 
providing economic, military and democracy assistance to key 
foreign partners and allies, including $4.7 billion to 
countries that have joined us in the war on terrorism.
    Of this amount, the budget provides $657 million for 
Afghanistan, $460 million for Jordan, $395 million for 
Pakistan, $255 million for Turkey, $136 million for Indonesia 
and $87 million for the Philippines.
    I also want to emphasize our efforts to decrease the 
threats posed by terrorist groups, rogue states and other non-
state actors with regard to weapons of mass destruction and 
related technology. To achieve this goal we must strengthen 
partnerships with countries that share our views in dealing 
with the threat of terrorism and resolving regional conflicts.
    The 2004 budget request supports the Non-Proliferation and 
Disarmament Fund. It increases funding for overseas export 
controls and border security and supports additional funding 
for science centers and bio-chemical redirection programs.
    Funding increases requested for these programs will help us 
prevent weapons of mass destruction from falling into the hands 
of terrorist groups or states by preventing their movement 
across borders, and by destroying or safeguarding known 
quantities of weapons or source material.
    The budget also promotes international peace and prosperity 
by launching what is the most innovative approach to U.S. 
foreign assistance in more than 40 years. The new Millennium 
Challenge Account, an independent government corporation 
supervised by a board of directors that I will chair, and 
funded at $1.3 billion, will redefine development aid.
    As President Bush told Africa leaders meeting in Mauritius 
earlier this year, this aid will go to those nations that 
encourage economic freedom, that weed out corruption, that 
respect the rights of their people and have put in place the 
rule of law, have transparency in their systems and are fully 
committed to democracy.
    Beyond the Millennium Challenge Account, the President's 
budget request offers hope and a helping hand to countries that 
are facing health catastrophes, poverty and despair, and 
humanitarian disasters. The budget includes more than $1 
billion to meet the needs of refugees and internally displaced 
persons.
    The budget also requests more than $1.4 billion to combat 
the global HIV/AIDS epidemic. The President's total budget for 
HIV/AIDS is over $2 billion, which includes the first year's 
funding for the new emergency plan for HIV/AIDS relief, 
announced by the President in his State of the Union address. 
These funds will target 14 of the hardest-hit countries in 
Africa and the Caribbean.
    The budget also includes almost half a billion dollars for 
Colombia to support President Uribe's unified campaign against 
terrorists and the drug traffic that fuels the activities of 
these terrorists. The end is to secure democracy, extend 
security and restore economic prosperity to Colombia.
    Our total Andean Counter-Drug Initiative, going beyond 
Colombia to the other nations in the Andean region, is $731 
million. Included in that are funds to resume the Air Bridge 
Denial Program.
    I also want to touch on the issue of hunger, famine and 
food aid, an issue, Mr. Chairman, I know that is of particular 
interest to you. Historically and continuing into the future, 
America has been the largest donor of assistance for victims of 
famine and food emergencies. Thanks to the help of the 
Appropriations Committees, Congress provided $1.44 billion in 
urgently needed PL-480, Title 2 food aid for 2003.
    Our 2004 food aid request of $1.19 billion will be 
complemented with a new Famine Fund Initiative of $200 million. 
This initiative will provide emergency food grants or other 
support to meet crisis situations on a case-by-case need, 
giving us much more flexibility to respond to these crises as 
they arise and not just robbing Peter to pay Paul.
    Mr. Chairman, that ends my opening remarks on the budget 
for 2004, but let me say a few words about the supplemental 
request that the President submitted to the Congress yesterday.
    The supplemental request totals $74.7 billion. This request 
includes approximately $7.8 billion for State Department and 
foreign operations programs. The funding is critically needed 
to support our coalition partners, provide relief and new 
construction assistance to the people of Iraq, and to ensure 
the safety of all Americans in the region.
    The foreign operations part of the supplemental will 
provide approximately $4 billion to assist our coalition 
partners who are standing steadfastly with us in Operation 
Iraqi Freedom. This includes Israel, Jordan, Turkey, Bahrain, 
Oman, and key critical and Eastern European allies.
    It will provide $2.7 billion for Iraqi relief and 
reconstruction, including assistance to refugees and internally 
displaced persons; food and its distribution; water and 
sanitation; emergency infrastructure needs, such as emergency 
housing, public security and restoration of electricity, health 
care, education and road and bridge networks.
    Of the $2.7 billion, $410 million is to pay back 2003 
funding that has been used to preposition a relief and 
reconstruction support base to help the liberated Iraqi people.
    Another $626 million is urgently needed to support the war 
on terrorism in Afghanistan, the Philippines, Pakistan and 
Colombia.
    And finally, $150 million is for unanticipated 
contingencies. This is not a slush fund. It really is an 
emergency fund. On so many occasions over the last two years my 
staff has come to me and said, ``We have a problem in such and 
such a place. What are we going to do about it?'' Invariably, 
we have to take the money from somewhere else in need to deal 
with that problem. This reserve, I think, is a proper 
management tool to give to the Secretary of State and to my 
colleagues in the department to deal with these crises as they 
come along.
    But I can assure you, Mr. Chairman, we will share what we 
do with this subcommittee and provide full transparency and the 
usual oversight to the use of such funds.
    The State operations part of the supplemental request will 
provide $65.5 million to cover the estimated costs associated 
with the evacuation of State Department employees and their 
dependents due to the increased threat of violence and 
terrorism; $35 million for immediate consular and overseas 
response requirements, including fulfilling our responsibility 
to protect Americans around the globe and to assist in post 
evacuations; $15.6 million for emergency and medical supplies, 
chemical and biological warfare antidotes, the anthrax and 
smallpox vaccine programs, and medical services' emergency 
preparedness staffing; $10 million to enhance security at 
overseas posts, including increased security personnel and 
equipment; $5 million for increased task force and surge 
operations, including additional deployments of foreign 
emergency support teams and additional communications costs; 
and $55.8 million for standing up, staffing, operating and 
securing our new mission in Baghdad.
    Mr. Chairman, that is just the thumbnail sketch of the 
President's supplemental request for State and foreign 
operations for 2003.
    Let me now, Mr. Chairman, before opening myself up to 
questions from the committee, touch on a couple of the points 
that you made and were made by Mr. Serrano.
    Let me go first to public diplomacy. Mr. Chairman, you 
could not be more correct in saying that we have to do all we 
can to change the tone in the world with respect to what we are 
doing. We need to talk to the Arab media and to the Arab 
public.
    Just two hours ago, Mr. Chairman, I sat down and I did a 
round robin series of television interviews. The first one was 
to Al Jazeera. The second one was to Abu Dhabi Television. The 
third one was to an Indian channel. The fourth one was to an 
Egyptian television channel. Taking our message to the people 
of the world, but especially the people in the Arab world that 
this is a conflict that we did not ask for nor did we seek, we 
did not want, we did everything to avoid. This was a conflict 
that was brought to the world community by Saddam Hussein and 
his 12-year record of disobedience of one U.N. resolution after 
another.
    We are going to Iraq not as conquerors. This battle is not 
about conquering the Iraqi people. It is about putting down a 
dictatorial regime that for all these years has been developing 
and using weapons of mass destruction against its own people, 
against its neighbors.
    It is about using the wealth of Iraq, its oil, to benefit 
its people, to provide wherewithal for the people in the south 
who have been so deprived by Saddam Hussein over the years.
    It is about freeing people from a dictator who has 
massacred them, who has kept them under the worst kind of 
subjugation, who has tortured them, who has been guilty of the 
worst sorts of crimes, and who has invaded his neighbors.
    Once this regime is now gone, we can get the weapons of 
mass destruction totally ripped out of the military and 
civilian infrastructure of Iraq. We can put in place a 
government that will be responsive to its people, that will 
represent its people. We can use the wealth of Iraq, channeled 
through their new government, with their new government having 
responsibility for the use of that wealth. We will help get 
this government up and started.
    Initially our military forces will have to bring security 
and stability to Iraq. But as soon as possible, and working 
with the United Nations, and getting international support from 
the United Nations and other agencies, we will help bring up an 
interim authority in Iraq which can then grow into a full 
government, a government responsive and representative of its 
people, to use the wealth of Iraq.
    We have to get that message out. We have to do a better job 
of it.
    As this war continues to its conclusion--and it will be 
concluded successfully, I have no doubt about the ability of 
coalition forces to prosecute this conflict to a successful 
conclusion--you will see more and more pictures of the type we 
saw this morning, not only of battle, but slowly but surely 
humanitarian aid coming into the country, water being restored 
in places like Basra, rations being delivered to people in 
need.
    When people realize that those young men and women in their 
camouflage uniforms are not there to destroy, but to build, I 
think you will see attitudes change quickly. As people around 
the Arab world, people around the world recognize the nature of 
this regime that is being eliminated and what coalition forces 
and the international community is coming in to do, I think 
attitudes will begin to change.
    From this success, when people see that this 
administration--President Bush personally--is committed to 
doing something to move the Middle East peace process along, 
with the delivery of a Roadmap to the new Palestinian Prime 
Minister when he has been confirmed and to the Israeli 
government, then the two sides can engage, in a more sustained 
way, with sustained American involvement and the involvement of 
the other members of the so-called Quartet, to get this process 
moving along. To end violence, to put in place responsible 
governments on the Palestinian side, with a new Prime Minister, 
and to also put obligations on the Israeli side to open up the 
territories again, so people can get back and forth to work, so 
that new security organizations under responsible leadership 
can start to do their job, to do something about the settlement 
activity that is under way that must be brought to an end in 
order for there to be a solution. The President is as committed 
today as he was when he gave his speech last June to a 
Palestinian state living side-by-side in peace and in security 
with Israel, and that is our commitment.
    The point was made about we are not doing this with the 
support of allies and we are not doing this with U.N. 
authority. We very much are doing it with U.N. authority. All 
last fall we fought for and obtained a U.N. resolution that 
followed from the President's speech of 12 September, where he 
challenged the U.N.
    We did not go off unilaterally and say, ``We are just going 
to invade Iraq.'' We brought the problem to the United Nations 
where it belonged. It is the United Nations' will that is being 
thwarted by the actions of Saddam Hussein.
    The President took it to the U.N. After seven weeks of 
tough negotiations we got U.N. Resolution 1441. It was a 
diplomatic success on the part of the United States and the 
part of every member of the Security Council that participated 
in that debate and got a 15-0 unanimous vote.
    There was no question about what we were voting for. We 
were voting for a resolution that said Saddam Hussein is in 
violation of his obligations, he is guilty; not, ``Let's find 
out if he is guilty,'' ``He is guilty,'' the resolution said.
    It then said there was a way for him to end this problem, 
by changing what he has been doing, changing the nature of his 
regime, cooperating fully, complying fully, immediately, 
unconditionally, fully, right now, not nine months from now 
when inspectors are prowling around, not two years from now and 
then they report back to the U.N., but now, immediately, 
unconditionally, fully and actively cooperating with 
inspectors.
    The inspectors went in for the purpose of helping him 
comply, not for the purpose of searching the countryside to 
find out that which was hidden, but to verify that which he 
would bring out into the open.
    We said, ``Let the inspectors go in and see if he is 
willing to obey this time,'' and almost from the get-go we knew 
that he was not going to do it. He reluctantly accepted the 
resolution a week later, as he was required to do. Thirty days 
later he filed a totally false declaration that not one member 
of the council, not even his associates and friends in the 
council, would come forward and say, ``This is an accurate 
declaration.''
    The inspectors should be congratulated for being such 
dedicated international servants, and they did get some 
cooperation from the Iraqis on process and some things were 
turned over. But they constantly found themselves notgetting 
answers to their questions, not getting gaps filled that were in the 
declaration. They constantly found themselves being deterred and 
deceived.
    The United States and its partners in this finally said, 
``Enough. We have now come to New York every week for about 
four weeks and heard the reports of the inspectors, and what is 
clear is that even though there has been some progress with 
respect to process, there has been no fundamental change, no 
strategic change on the part of Saddam Hussein. He is not in 
compliance of this resolution. Therefore the serious 
consequences anticipated and built into this resolution are now 
ready to be applied against Saddam Hussein.''
    At that point, a debate broke out. Some members of the 
council said, ``No, let the inspectors keep going. We do not 
want to see this noncompliance, and we agree with anything that 
comes before us.''
    The United States did not feel it needed another 
resolution, but in order to go that extra step and also to help 
some of our closest friends--the United Kingdom, Australia, 
Italy, Spain and others--as well as to show the American people 
that we had gone the extra step, we tried to get a second 
resolution, not one we needed. We tried anyway. We fought hard 
for it. But we were not able to achieve success, because there 
was a hanging veto threat. No matter how many members were 
ready for vote for it, it was going to be vetoed.
    It put people, members of the council, especially members 
of the elected 10, in a difficult situation. We elected not to 
take it for a vote because we had more than enough authority.
    That was a disappointment to many people. But remember, if 
that resolution had been passed, it said it was Saddam 
Hussein's last chance also, and he would have missed that last 
chance, and a conflict was coming anyway.
    Without that resolution nonetheless Prime Minister Blair 
went before his Parliament, without the resolution that he 
needed and felt it would be very helpful to have. He made a 
powerful case so that his Parliament nevertheless voted and 
voted with a clear understanding that the legal authority is 
there for the forces of the United Kingdom to participate. The 
same thing happened in other nations that are part of this 
coalition.
    The point was made that we do not have some of our 
traditional allies and friends with us. Well, we have a lot of 
our traditional allies and friends with us. Not all of them, 
but a lot of them. We have the United Kingdom and Australia. We 
have Italy, we have Spain. We have some new allies and friends 
who want to be a part of this.
    Many of them are small countries. They cannot make a major 
military contribution, but they made a political contribution 
of enormous importance when they stood up and said, ``We are 
standing with what is right. We are standing with what the U.N. 
required. We are standing with the United States and its other 
coalition partners. Even though we cannot send one soldier in 
the face of public opinion that does not want war.'' No public 
opinion tends to want war.
    I have been through this many times. It is only when people 
understand that you are ready to choose success, and that there 
is a good reason that you entered into this conflict, and you 
have made the case, unfortunately occasionally by the force of 
arms, then you get the support you need.
    But in the absence of that support, these little countries 
with strong political leaders who knew what right was, even 
being threatened by other nations on the European continent--
``You do not want to do this, you do not want to stand with 
them, you will have to pay a price later''--they nevertheless 
stood with us.
    Now it is a willing coalition of 47 nations who are willing 
to stand up and say, ``We are a part of this,'' and a number of 
other nations who are cooperating and are willing but for one 
reason or another cannot say it out loud yet. But they will in 
due course. I think we should be proud that so many nations are 
standing firm with us.
    Mr. Chairman, you also asked about embassy security, and, 
Mr. Serrano, you made a reference to it I think, sir. We are 
deeply concerned about the security of all our missions 
overseas. Our diplomats are in harm's way just as our soldiers 
are.
    We are pleased that some of the disturbances we have seen 
around the world not become as severe as they might have. We 
are doing everything to protect our people. We have brought a 
number of people home to reduce our risk and vulnerability and 
part of our supplemental request is to pay for that.
    We will continue to take our public case to the world. I 
think as more and more people see what we are doing, as we take 
our case, through leaflets and through radio broadcasts and new 
ways of communicating with the world, and especially the Arab 
world, as these efforts gin up as a result of your strong 
support of our public diplomacy effort, I think we can get on 
top of this.
    There is a lot of anti-Americanism out there, but it is due 
to a large extent to the Iraq situation and the Middle East 
peace process. When we fix Iraq and when we show progress with 
the Middle East program and people can see that this is a 
nation that is not against any religion, especially not the 
religion of Islam, people will see that it is America that is 
fueled by values. We want to help people achieve a better life. 
We want to help people find a way to participate in this 21st 
century economic globalized world that we have. I think we can 
turn public opinion around in due course.
    Thank you, Mr. Chairman.

                        EMBASSY IN BAGHDAD COSTS

    Mr. Wolf. I thank you, Mr. Secretary. I appreciate your 
testimony. I have a number of questions we will try to go 
through quickly, so everyone has an opportunity.
    Along with Congressmen Hall and Pitts, I was in the first 
delegation to Afghanistan. The three of us went to Kabul in 
January a year ago. We spent some time in Kabul, then toured 
the embassy. This committee then came back and gave you $120 
million to stand up diplomatic missions in Afghanistan and 
Tajikistan.
    In the supplemental you are only asking $55 million to 
reestablish the diplomatic presence in Baghdad. It clearly will 
not be enough. Why only $55 million? That will not do it. You 
do not have an embassy. You had an embassy in Kabul. It was in 
relatively bad shape, but it could operate. You do not have an 
embassy now in Baghdad, and how will you do it with only $55 
million?
    Secretary Powell. Well, I do not know that I can answer 
that question, Mr. Chairman.
    Mr. Wolf. Maybe that should be increased.
    Secretary Powell. Perhaps. I have to stick with $55 
million----
    Mr. Wolf. I understand.
    Secretary Powell [continuing]. Until I get with General 
Williams and our Diplomatic Security people to see whether 
there is something we have not considered and to get more 
fidelity into the plan that they have in mind.
    Mr. Wolf. How many people will that bring you in Baghdad?
    Secretary Powell. I do not know, Mr. Chairman. I will have 
to provide that for the record.
    [The information follows:]

    The amount requested in the Iraq War Supplemental to 
reestablish a diplomatic presence in Baghdad is $55 million. At 
this time, initial plans for that would be to use $20 million 
for initial preparation of a facility. The Department's initial 
request is to lease and prepare an immediate temporary facility 
with space available for 200 US and 300 FSN's. The $20 million 
would provide funding for approximately 120 days, including 
cost of preparing the facility and lease of space for 500 total 
staff.
    There would be $17.9 million for post operations. This 
amount includes funds for 54 TDY staff for initial post 
operations (during Phases I and II--the first nine months), but 
would not include funding for projected American staff who 
would eventually replace them on a permanent basis. Funding 
also includes 30 Foreign Service Nationals during Phase I (the 
first three months) and 130 Foreign Service Nationals during 
Phase II (the next six months).
    Finally, $17.9 million for Diplomatic Security. Initial 
staffing includes in this amount for Phase I was approximately 
43 TDY staff. During Phase II, approximately 33 TDY staff would 
be required.
    In summary, the total projected staff level covered by the 
$55 million was approximately 127 during Phase I and 217 during 
Phase II, as indicated in the following table:

----------------------------------------------------------------------------------------------------------------
                                                                  TDY          TDY
                                                               Americans     Security       FSNs        Total
----------------------------------------------------------------------------------------------------------------
Phase I.....................................................           54           43           30          127
Phase II....................................................           54           33          130          217
----------------------------------------------------------------------------------------------------------------

    Mr. Wolf. I do not think that is going to really be----
    Secretary Powell. The $55 million assumes initially a 
leasing of a facility for $20 million while we determine what 
our permanent needs are, and then $35 million for staff and 
security.
    Mr. Wolf. Well, $35 million will not do it.
    Secretary Powell. All generosity will be greatly 
appreciated, Mr. Chairman. [Laughter.]

                      PUBLIC DIPLOMACY COMMISSION

    Mr. Wolf. On the public diplomacy issue, I would like to 
see the administration put together a national commission, 
perhaps made up of 12 people, three from the administration and 
nine from outside, some of the best minds, as to what do we do 
with regard to public diplomacy around the world in order to 
tell the world--not to improve our image; we have a good 
image--to tell the world of the mission of America and why we 
are good.
    As you may or may not know, 51 percent of all of the food 
that is going to feed the poor in Ethiopia and in Eritrea and 
in Zimbabwe and in North Korea, 51 percent of the food is 
coming from the people of the United States. Only 27 percent is 
coming from the EU. Quite frankly, not to say anything negative 
about France, but France is not doing a very good job with 
regard to feeding the poor and the hungry.
    In order to get the word out, why would we, why would the 
administration not set up this commission? And if the 
administration does not do it, perhaps we should do it in 
Congress. You could be the chairman or bring somebody that you 
have confidence, but bring the best minds in the country to how 
we improve our public diplomacy around the world.
    Secretary Powell. Let me take it under consideration, Mr. 
Chairman. We have had conversations on this before, and I think 
it is worth taking a look at. We have a number of groups that 
provide us advice with respect to public diplomacy.
    On the food issue, we hammer it over and over and over, 
make the point at every one of the international organizational 
meetings I go to. I think it is something that is understood, 
but we do not get enough credit for it.

               SPECIAL ENVOY FOR FAMINE AND HUNGER RELIEF

    Mr. Wolf. Well, good. I would hope that you could do that.
    I wrote Kofi Annan last week asking him to appoint a 
special envoy for hunger. We have hunger of Biblical 
proportions; 30 million people in Africa are going through a 
famine, ready to starve to death.
    Could you speak to this? I know there is so much going on, 
but these people are also dying at this time. Could you speak 
to ask him to appoint--he has a special envoy for AIDS--to do 
the same thing with regard to world hunger for about a year, 
operate out of Rome, use the World Food Programme as the base, 
to go around to other nations asking them to give more?
    Secretary Powell. I will talk to Secretary General Annan 
about it. As you know, I am absolutely in sync with you. I 
would ask for additional money for this famine program so that 
I have greater flexibility to respond to these catastrophes 
that come along.
    Between HIV/AIDS and famine around the world, the two of 
them play into each other, and it is one of the greatest 
catastrophes facing the world right now.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
                       INFORMATION CENTER IN IRAQ

    Mr. Wolf. You are right. I should put HIV/AIDS over the 
famine.
    If you could, do that, and ask him to do this quickly, 
because even though Iraq is going and North Korea, these people 
are still dying daily.
    On the war in Afghanistan, the department had an 
information center in Islamabad, which we visited, Tony and I, 
when we were there. You had a good person out there doing a 
good job, meeting with the Arab press.
    Are you doing the same thing? How are you dealing with the 
Iraqi situation? Is there anything in the supplemental to have 
an operation like you had in Islamabad for the Afghanistan war? 
Do you have somebody picked out to go over there as soon as 
this thing is over to begin to make the cases, tell the points?
    Secretary Powell. We are in the process of staffing up a 
full and very, very large team to deal with each of the 
ministries in the new Iraqi government as it is slowly stood 
up. We would be right there with the new Iraqi ministry when it 
is created, and we will also be putting in our own people to 
take our case to the Iraqi people and to the world as to what 
we are doing.
    Mr. Wolf. Have you selected a spokesman yet?
    Secretary Powell. Not yet.
    Mr. Wolf. What you did in Islamabad worked very, very well.
    Secretary Powell. Yes. We did not have centers. We have a 
center in London and----
    Mr. Wolf. But London just does not----
    Secretary Powell. It is just we are not there yet; that is 
the principal reason. But we will get there.
    What we have been doing in London and elsewhere is designed 
to catch the time zones as we go around the world every day. We 
intend to create that capacity and that kind of facility will 
be established in Baghdad.

             SUDAN AND THE U.N. COMMISSION ON HUMAN RIGHTS

    Mr. Wolf. Two last questions, then Mr. Serrano. We got a 
call, and I sent you a letter today. We heard that Libya and 
the French were working to take Sudan off of the violation of 
human rights list, in the Human Rights Commission.
    Are you aware of that, and could not you speak to Kofi 
Annan?
    Secretary Powell. I have heard that.
    Mr. Wolf. To do that now----
    Secretary Powell. I have heard that report, I cannot 
confirm it, but when I did get word of it I spoke to Secretary 
General Annan yesterday and said that even though we see some 
progress in our efforts to solve the situation in the Sudan, 
this is not the time to take the pressure off. And especially 
to make sure that we keep a U.N. special rapporteur----
    Mr. Wolf. That is right.
    Secretary Powell [continuing]. In place for Sudan. And he 
and I had this conversation yesterday morning.
    Mr. Wolf. Well, I am worried about the EU. I think it is 
important for your people in Geneva to speak to our European 
friends, because I understand they may be joining with Libya 
and we would be outvoted, and that might undo all the good that 
is being done with regard to Special Envoy Danforth.
    If you could have somebody let me know----
    Secretary Powell. I will. We will get word back to you, Mr. 
Chairman. I am sure I will be speaking to Foreign Minister 
George Papandreou of Greece, who currently has the presidency 
of the EU, to make sure that we do not have slippage there.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
                       CONGRESS' ROLE TOWARD U.N.

    Mr. Wolf. Thank you.
    Mr. Serrano.
    Mr. Serrano. Thank you, Mr. Chairman.
    Secretary Powell, when I first joined this subcommittee, 
Chairman Rogers and I confronted head-on, and then later 
Chairman Wolf, the issue that many Members, especially in the 
majority party, were not happy with the U.N. and were not happy 
with the idea of paying dues to the U.N.
    In view of what has happened recently, I suspect when this 
thing settles down that that may even grow to a new fervor, and 
perhaps on both sides of the aisle.
    You, however, have been quoted as saying that you still 
believe in the ability of the U.N. to play a major role. So 
what would you hope is Congress' role in our behavior toward 
the U.N.?
    Secretary Powell. I will be supporting our request for the 
U.N., and I would encourage Congress to keep supporting the 
U.N. We have finally gotten our arrears cleared up, the 
President made a decision to rejoin UNESCO, the U.N. has 
important work ongoing around the world, whether it is peace 
keeping, famine relief, or so many other things that the U.N. 
does. It is the United Nations that passed the Security Council 
resolution under which we went into Iraq, 1441.
    Now, it does not mean that they will come into agreement on 
every issue. If you look at the history of the Security Council 
over the years, there have been many instances, as recently as 
1998 in Kosovo, where you could not get the U.N. to approve an 
action.
    We should not throw out the U.N. because of some 
disappointment with the second resolution, which we did not 
really need in the first place, or some of the theatrics that 
took place in the Security Council.
    The U.N. will also have a role to play in the future of 
Iraq as we go forward. We are in close consultation with 
Secretary General Annan on that and his colleagues within the 
council.

                U.N. AND U.S. FOREIGN POLICY OBJECTIVES

    Mr. Serrano. What role do you see, Mr. Secretary, for the 
U.N. in securing U.S. foreign policy objectives in the future? 
Has this been damaged to a point where it needs major repair, 
or do you think, because of your comment on 1441, that there 
might have been a problem with individual members, but not with 
the organization?
    Secretary Powell. No, the U.N. is a body, and when it is 
doing work in the Security Council there are 15 nations in the 
council, each bringing different equities.
    When you look at the composition of the council as it 
existed in the fall of last year when we were debating 1441, 
there was an Arab nation, Syria, that we have on our list of 
terrorist-sponsoring states, and there were three permanent 
members that in 1998 had abstained on the inspections regime in 
the first place: France, Russia and China.
    This time, as the result of the strong debate, we got a 
strong resolution that put in place a strong inspection regime 
that was supposed to help Saddam Hussein comply.
    They all voted for it, 15 to zero, with no misunderstanding 
about what the nature of that resolution was or what it 
provided for.
    Now, subsequently and for the second vote, the second 
resolution, views widely diverged. Some felt, ``No, no, maybe 
he has not complied but it is good enough for now, let's keep 
the inspections going.''
    We saw that as a way that he was using to get out of the 
box that he was in and to get away from compliance, and that is 
when we said, ``No, let's remember what we came here for.''
    I think that the U.N. can still be very useful with respect 
to the pursuit of U.S. foreign policy objectives, but we cannot 
expect the U.N. to be a rubber stamp of U.S. foreign policy 
objectives. We have to go there, and we have to fight for what 
we believe in, stand by our principles and hope to persuade 
others.

                    IRAN AND U.S. NATIONAL SECURITY

    Mr. Serrano. Let me ask you a question, Mr. Secretary, that 
will take you back to the early 1990s.
    There are a number of countries in the Middle East that 
could be considered threats to American national security. An 
example would be Iran with its nuclear potential. It is my 
recollection that the last time we were fighting in Iraq, one 
of the many reasons why we did not decisively defeat Iraq, or 
we did defeat but did not move on to where we were supposed to, 
or some people think we should have, was because of our concern 
that Iran might become a major problem in the region once Iraq 
was defeated.
    Does Iran still present this kind of a foe to us, and how 
do you suggest that we handle that in case they do?
    Secretary Powell. Iran was a problem then, Iran is a 
problem now.
    We are concerned that Iran continues to pursue nuclear 
weapons development. It continues to build up its military 
capability. It continues to support terrorist activities.
    But there is a great deal of turmoil occurring in Iran now 
as the very young population of Iran is demanding a better 
life, not nuclear weapons or support of terrorist activities. I 
think the forces within Iran, the President and the ayatollahs 
and the religious leaders, are struggling to find out how to 
deal with the aspirations and desires of the Iranian people.
    We will encourage the Iranian people to continue to press 
their leadership to lead them toward a better life and not 
toward weapons that will do nothing but bring turmoil to the 
region and no better life for the people of Iran.
    At the time of the Gulf War, a conscious decision was made 
that the mission of the coalition forces was to eject the Iraqi 
army from Kuwait. The decision not to go to Baghdad was never a 
decision that was before the war council or the coalition. It 
was never under consideration during the preparation for the 
conflict. The decision to eject the Iraqi army from Kuwait was 
made before the war started. It was a political judgment and a 
military judgment made by President Bush 41, by all of his 
civilian advisers and military advisers. It was the basis of 
the U.N. resolution, and it was the basis of the resolution 
that passed in the Congress by just a few votes in both 
chambers.
    The suggestion that at the end of the war we had failed in 
our objective of going to Baghdad is wrong. We never went into 
Baghdad. You could argue as to whether we should have fought 
another day or two, and that is a legitimate argument. It is 
not a legitimate argument to say we did not go to Baghdad when 
we were supposed to. We were not supposed to; we did not go.
    We also fought that war recognizing that Iran and Iraq had 
just recently, three years earlier, completed an eight-year war 
between the two of them. We did not want to leave the Iraqi 
army so devastated that it could be a total pushover if Iran 
started that war up again. We cut the Iraqi army down to size 
for the purpose of self-defense and not as a threat to its 
immediate neighbors, but with enough capability to defend 
itself from Iran. I think we did that well.
    Mr. Serrano. Now, is that issue still a concern about 
destroying their army or will the occupation prevent Iran from 
trying anything funny?
    Secretary Powell. Iraq will need a military. It will be a 
nation that lies in a troubled neighborhood. It will need a 
military. We will help with rebuilding the right military.
    But it will be a military that is committed to defending 
itself, protecting its people, preserving its institutions and 
fully under civilian control. There will not be a military that 
will have the mission, the capability of invading its 
neighbors.
    Mr. Serrano. Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Rogers.

                           U.S. AID TO TURKEY

    Mr. Rogers. Thank you, Mr. Chairman.
    Mr. Secretary, good to see you. It is good to have you here 
and it is good to have you there, because I do not know of 
anyone that we have that could approach the job that you are 
doing at State.
    You may have, however, a need for a little of your 
persuasive powers in the Congress on the $1 billion for Turkey. 
Would you like to give us 15 seconds worth of that?
    Secretary Powell. I would be very happy to, Mr. Rogers.
    Turkey is a good friend of the United States and has been 
for many years. As we entered into this crisis situation with 
Iraq, we asked for a number of things from Turkey. We were 
asking for access agreements and the ability to do things in 
Turkey at a time when their government was changing. A new 
Prime Minister was on the way in, but not in. We put quite a 
request before the Turkish leaders.
    Because they are such good friends of ours, in spite of 
public opposition, the Prime Minister coming in, Mr. Erdogan, 
put it before the Turkish parliament on March 1st. Initially, 
we thought it had passed, but it turned out not to have passed 
due to parliamentary maneuvering. It was a loss for him, even 
before he would become the Prime Minister.
    After he became the Prime Minister, we reviewed the 
package. We reviewed the bidding. In the course of our 
discussions, we had, of course, said to them that we would 
compensate them for any losses and help them with their 
economic problems.
    We were unable to get the entire package. It did not make 
political sense to go for the whole package. The window, 
frankly, had closed. The needs of our military were such that 
if we could not use the full package in a timely manner, part 
of the package was not relevant, and it went away, as did the 
$6 billion commitment.
    We did get overflights last week. Our troops are now using 
that overflight authority to support our efforts in Iraq, and 
we are very pleased with that. Even if we did not get the 
package that would have led to a $6 billion support effort for 
the Turks, we felt that in light of Turkish potential needs in 
the future, in light of the fact that with or without their 
support we should be positioned to assist them economically if 
they have a need for such economic assistance as this conflict 
unfolds.
    It was for that reason we thought it would be wise to put 
into the supplemental the $1 billion that you made reference 
to, and put it before the Congress. Let the Congress debate it 
and, hopefully, approve it, so that we have it available should 
a need arise that suggests it would be helpful to help the 
Turkish economy with that amount or some part of that amount.

                         ADMINISTRATION OF IRAQ

    Mr. Rogers. Now, on Iraq, let's say that Saddam collapses 
today or tomorrow and the coalition forces enter and establish 
peace. What do you see in the way of the short-term post-
liberation administration of the country pending the long-term 
solution?
    Secretary Powell. Initially, the military commander, 
General Franks and his commanders, has a responsibility, as the 
occupying power, to stabilize this situation throughout the 
country, to make sure that weapons of mass destruction have 
been found, to make sure the army is now under control and 
those leaders who had allegiance to Saddam Hussein are gone, 
and we start to turn the Iraqi army to productive pursuits in 
the immediate future, reconstruction and other things they can 
do to help secure the country. That will be the responsibility 
of the military commanders.
    But almost at the same time, we would put in place what we 
are calling an Iraqi interim administration; start to bring 
together Iraqis who have been outside the country and those 
inside the country into some kind of an organization that would 
provide a nucleus of a new government, and will begin to exert 
authority over various functions of the emerging Iraqi 
government.
    We would do this with full understanding of the 
international community and with U.N. presence in the form of a 
U.N. special coordinator, although the name and title has not 
been finally decided upon, but with U.N. recognition of what we 
are doing and some level of endorsement in the form of a new 
U.N. resolution.
    As the situation stabilizes itself, we would transfer 
normal responsibility from our military and coalition military 
leaders over to the interim authority and to civilians that we 
would bring in. The coalition would bring in a civilian group, 
which has been formed under the leadership of retired 
Lieutenant General Jay Garner. They would assist the Iraqi 
interim authority and the remaining institutions in Iraq to 
start to integrate themselves into a new Iraq, making sure we 
have purged the regime of those who were committed to weapons 
of mass destruction and the oppression of the people of Iraq.
    Then over time, slowly but surely we hope, it is our 
expectation that we prepare for a full transition back to an 
Iraqi government that has been legitimately put in place by the 
Iraqi people themselves, that is up and functioning and can 
manage this diverse country of 24 million people with a number 
of different tribal groupings and fundamentally different 
population groupings that have to be kept together in one 
single state. We want to do this as fast as possible.
    The United States does not come as sovereign to take over 
Iraq. We come as a leader of a coalition to put down this 
regime since it would not put down its commitment to weapons of 
mass destruction, and as soon as we can, startsubstituting 
military leadership with civilian leadership initially from our group, 
and then move into the interim authority and the interim authority 
growing into a new government that will reflect the will of its people.

                     AFGHANISTAN AND IRAQ COMPARED

    Mr. Rogers. Would you say what happened in Afghanistan is a 
rough model of what might occur here?
    Secretary Powell. In the broadest sense. I do not think you 
can make a direct parallel case. But it is illustrative of what 
one can do.
    In Afghanistan, we put out the former regime, began 
rebuilding institutions, worked with the international 
community, started to secure the population. U.S. troops are 
still there. But there is now a president with a functioning 
government. He has been endorsed by a loyal jirga. And 
hopefully in about a year from now he or some other individual 
will be elected, in a fully democratic manner, president of 
Afghanistan. We should be very proud of what we have 
accomplished.
    Now, will it unfold exactly that way in Iraq? I think not. 
It is a different country, a different set of needs.
    One thing you have to remember when you talk about the 
reconstruction of Iraq, it is not reconstructing it from damage 
we are doing during this war. The damage we are doing will be 
pretty minimal. It is reconstructing it from the damage that 
Saddam Hussein has done to it over the last 20-plus years.
    We are also not dealing with a country that is devastated 
and has no economic wherewithal, such as Afghanistan. We are 
dealing with a country that has a revenue flow of $20 billion a 
year, an educated population and a functioning civil service. 
They are marvelous bureaucrats through 5,000 years of 
Mesopotamian record-keeping. We are working with the foundation 
here, as opposed to the more difficult task that Afghanistan 
presented.

                           THE FUTURE OF IRAQ

    Mr. Rogers. Mr. Secretary, briefly with what time I have 
left here, if you could talk directly to the people in Iraq, 
those people who have been suppressed by a brutal dictator for 
these decades, living in abject poverty and sickness and 
domination in the middle of the dust and the dirt and the 
grime, and now this war that has befallen them, if you could 
speak to them about what may lay in store for them as people, 
as individuals, what would you say?
    Secretary Powell. I would say to the people of Iraq, ``A 
better life awaits you. I know you are afraid. I know you are 
anxious. Some of you may well be terrified by what is happening 
around you. I know you have been told for decades that the 
United States and the other coalition nations that are now on 
the way to Baghdad are your enemies, and we mean you ill.''
    I would say to them that, ``This is not the case. We come 
in a time of war to prepare for a time of peace, a time when we 
can make Iraq what it once was, a prosperous nation, a nation 
that had the GDP of a number of Western European nations just 
20 years ago.
    ``We will leave you without the burden of paying for 
weapons of mass destruction and making yourselves the pariah of 
the rest of the world. We will help you with your educational 
institutions. We will help you with your health care 
institutions. We will help you rebuild your economy so that 
your children can look forward to a better life.
    ``Sixty percent of you are now receiving food as charity. 
We will try to recreate an economy where each of you can go out 
and earn your daily keep and bring your daily keep in and show 
your family dignity because you are able to do that.
    ``You will no longer be a pariah in the world. You will be 
welcomed back into a family of nations that is committed to 
peace and committed to living in peace with your neighbors.
    ``Help and hope are on the way. You will have a brighter 
future.''
    Mr. Rogers. Thank you, Mr. Secretary.
    Mr. Wolf. Mr. Cramer.

                    DIPLOMATIC READINESS INITIATIVE

    Mr. Cramer. Thank you, Mr. Chairman.
    Mr. Secretary, welcome back before this subcommittee. We 
appreciate your presence, especially today, with the 
circumstances surrounding what is happening there in Iraq.
    And, as well, I want to say that I appreciated your 
leadership on behalf of this country.
    I have in the past engaged you in a dialogue about our 
foreign service personnel, and you have indicated to me that it 
was your goal to make sure that we expanded the hiring process, 
that we open the hiring process. So I want to direct your 
attention to your Diplomatic Readiness Initiative.
    I see that the budget request this year is for $97 million 
to complete that and that you will hire an additional 399 
foreign affairs professionals. And our foreign policy, as you 
have stated in your statement, is carried out through our 
people, so I am very interested in how that readiness program 
is going.
    You also say that you will provide a total of 1,158 new 
staff at the Department of State. Does that include the 399 
additional foreign affairs professionals? Could you give me a 
little more information?
    Secretary Powell. The 399 are foreign service and civil 
service professionals. Then there are a number of other hires 
in Diplomatic Security and supporting efforts, if I am not 
mistaken.

                      FOREIGN SERVICE EXAM PROCESS

    Mr. Cramer. And would you tell me then, in the past you 
talked about streamlining the hiring process to get the best 
people, and the issue was that not enough people were coming 
into the diplomatic corps. How is the exam process going? Have 
any changes been made? Are more people taking and more people 
passing it?
    Secretary Powell. Oh, yes. We have been too successful. We 
have been incredibly successful.
    When I came into the department I discovered that for a 
couple of years in the previous administration they did no 
hiring, they were not even giving the exam, which was 
disastrous for an organization that is trying to grow and have, 
you know, lifeblood coursing through its veins.
    We really went to work on this, as you know, sir. The 
number of people coming forward to take the foreign service 
exam has been absolutely overwhelming. For the last exam I 
think 36,000 people applied, and we expect at least half of 
those will show up. We will have 19,000, 20,000 people per 
exam.
    I would guess off the top of my head--and I can give you 
the figures for the record--that in my two years and a couple 
of months over 100,000 Americans have applied to take the exam.
    What is exciting is that so many minority Americans are 
applying to take the exam. For the most recent exam before this 
one, the pass rate was a good pass rate, and some 38 percent of 
those who passed the exam were minorities.
    We are taking advantage of the Rangel fellowship program, 
the Serrano fellowship program, and a number of other programs 
such as these, to get more and more youngsters of minority 
background into the department so we can look like not just 
America, but also so we can look like the rest of the world.
    I think we have been very successful at that. Just keep 
giving me the support.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Cramer. Well, congratulations there.
    Secretary Powell. If I can make one more point----
    Mr. Cramer. I wish you would.
    Secretary Powell [continuing]. Also when I came in, it was 
taking about two to three years to access somebody, to get them 
into the department. We sliced that in half, and I will not be 
satisfied until we got it down to nine months.
    My problem is I cannot hire all these great Americans, even 
with what you have done for me; 399 a year does not tap into 
the pool that I have of quality Americans who want to serve 
their country.
    But that also is the reason I will be coming back in next 
year's budget to start it all over again.

                    FOREIGN SERVICE FAMILIES AT POST

    Mr. Cramer. Well, we will be ready to receive you then, as 
well.
    As I have a limited opportunity to visit with our personnel 
in the State Department at our embassies around the world, I am 
always incredibly impressed by who is there and how our country 
is represented, so it is a people issue.
    But I am also impressed with the number of families. You 
have a husband, wife, spouse, spouses. And how are we doing 
there with regard to recruitment? Because sometimes that seems 
to be a problem, that is, that you have a husband-wife team, 
but one is qualified to do certain things and the other is not.
    Secretary Powell. We work hard to try to keep our families 
together. It is not always possible. I had the same difficulty 
in the military. As they become more senior it becomes even 
more difficult to find two compatible assignments at the same 
post, and so you do see some separations. But we work hard at 
it.
    We are trying to expand the opportunities for family 
members to work at our various posts around the world. We also 
have right now in the service married ambassadors, one couple. 
Both of them are accredited to embassies. So it is the third 
time in our history where we have had a couple serving as 
ambassadors in two different countries at the same time.
    Mr. Cramer. Thank you.
    Secretary Powell. We could not let them both be the--never 
mind. You understand. [Laughter.]
    Mr. Wolf. Mr. Taylor.

                             AID TO TURKEY

    Mr. Taylor. Mr. Secretary, I certainly support what you 
have done for our nation, from the days when I first came to 
Congress, the first Gulf War, and then, of course, your service 
as Secretary of State.
    I share Mr. Rogers' concern about money for Turkey. I think 
that will be a hard sell, but I can understand.
    Is there any money in the supplemental for France? 
[Laughter.]
    Secretary Powell. No.

                     HUMANITARIAN AID AND IRAQ OIL

    Mr. Taylor. I just wondered, though, since Reuters had said 
that the $1 billion for Turkey was to cushion Turkey's shock 
from the war with Iraq and I know France took it pretty hard. I 
just wondered if there was additional aid for France.
    What about the Iraqi oil? I know it is our intention that 
the oil from Iraq will be utilized in a way to rebuild Iraq, to 
use it in a way that does not add to the totalitarian 
government Iraqis have had, but instead builds schools and 
hospitals and things of that nature, which a nation would have.
    I know we have humanitarian aid coming, we have a cost of 
the war coming and we have the cost of the development of Iraq. 
Will those funds from Iraqi oil be used for all three of those 
efforts or will they be limited in use? Could you tell me that?
    Secretary Powell. The oil of Iraq belongs to the people of 
Iraq. As we re-establish control over the country, we are 
making plans as to how that asset can be protected and used to 
benefit the people of Iraq. Certainly, it will be used for the 
kinds of things you mentioned, Mr. Taylor, schools and what-
not. But it is the source of revenue to run the country.
    To the extent that humanitarian needs exist in the country, 
then that revenue should be used for the purpose of satisfying 
those humanitarian needs.
    Under our international obligations and international rules 
with respect to conflicts, that is how we would have to use 
that money. It would be inappropriate to start using it, say, 
to pay for the weapons or pay for the cost of the war itself.

                    RUSSIAN SALES TO IRAQ AND VISAS

    Mr. Taylor. I thought it would be good to make that clear. 
I appreciate that.
    You mentioned that we want to strengthen our ties with 
countries that share our views, and I agree with that. You and 
I have had conversations before the Committee about Russia, and 
I know there is some question about whether Russia's supplying 
equipment and so forth to Iraq. Mr. Putin, to his credit, has 
said if he finds that to be true, he will prosecute those 
involved or see to it that they are prosecuted. I can certainly 
take his word on that.
    We still have a visa arrangement with Russia that makes it 
very difficult for Russians to travel to America or for 
Americans to travel to Russia. Would it be asking too much to 
suggest your office enter into negotiations with the Russian 
Foreign Ministry to see if we can correct that? We do not have 
a visa requirement with France, or Germany or other parts of 
Europe, and I would like to see us, if possible, put some time 
into that effort.
    Secretary Powell. On the first point, with respect to the 
equipment that we believe was sold by a Russian company either 
with or without the knowledge of the Russian government to 
Iraq, we have been in almost daily conversation with the 
Russians. We had pointed it out to them some months ago, and 
they did not see this as a basis for our concerns.
    But every day this week so far I have spoken to the Russian 
foreign minister about this problem, and he and I spoke just a 
few hours ago. We have given him some very, very recent and 
fresh information that underlines our concerns. He assured me 
that this new information was interesting, and they would run 
it to ground. They did not want this to be an irritant in our 
relationship. They are hard at work on it. I hope they will 
find out what we know to be the case and deal with it.
    On the visa situation with Russia, as a result of 9/11and 
the creation of the new Homeland Security Department, we are reviewing 
all of our visa requirements around the world, looking at those 
countries that are under the Visa Waiver Program, to see if that is 
still the appropriate mix. Should other countries be under it, should 
some of the countries under it be removed from it? In the course of our 
deliberations, we can certainly look at the manner in which we handle 
visas with respect to Russia.
    I spent a lot of time with Mr. Ivanov talking about 
occasional visa problems that come along, and even special 
cases that come along. I certainly want to look at that.
    As you know, under the new Homeland Security Department, 
policy issues with respect to visas now belong to Secretary 
Ridge, and I am essentially the operating officer for Secretary 
Ridge with respect to those kinds of policy; I have significant 
foreign policy input to the judgment, but overall policy on 
visa admission will rest with Homeland Security.
    Mr. Taylor. Well, I thank you for your past and future 
efforts in this area, and thank you for the job you are doing.
    Mr. Wolf. Mr. Sabo.

                   STUDENT EXCHANGES AND VISA PROCESS

    Mr. Sabo. Thank you, Mr. Chairman.
    Mr. Secretary, welcome to the committee.
    Let me go a little bit to the visa question. I am new on 
this committee and also involved in the Homeland Security 
Committee. And one of the things I am trying to understand is 
how we deal with people coming into the country at our borders. 
And I do have some concerns.
    Clearly keeping people out who should not be in and would 
want to harm us is the top priority. On the other hand, we have 
thousands of people from other countries who come to this 
country to study. We have within your budget specific programs 
to encourage that.
    But I am increasingly hearing from academic institutions 
that the number of students who are coming are down, simply 
because of problems of getting visas, and that schools that 
were actively pursuing students from other countries are, sort 
of, backing down because of all the difficulty involved.
    And I do not know the answer, but somehow I would hope we 
would find that proper balance of making sure that we have 
oversight to keep people out who should not be coming. But we 
do not want to, sort of, clam up and keep other people out. 
That is one of our great strengths, and has been traditionally 
that we try and encourage by all kinds of programs, including 
the ones in your budget.
    And so anything you can do to help make sure that we get 
the maximum number of students here to be part of our society, 
I think would be a great plus.
    Secretary Powell. Sir, I could not agree with you more.
    After 9/11, we realized that we did not have adequate 
control over who was coming into the country and who was here 
and did not leave. We really had to take some extraordinary 
steps to get control of that situation.
    We also discovered that when we tried to check somebody to 
see whether we should be concerned about giving them a visa, 
there were databases everywhere, and they were not all talking 
to each other, they were not all connected. We have worked very 
hard to improve that situation and bring all the databases 
together. There are now 13 million names in one of our 
databases alone. We want to link it all in a way that an 
officer out in one of our visa-issuing or visa-checking places, 
no matter where, can instantaneously pulse this database and 
quickly get an answer, so we do not send people away and say, 
``Come back in six months.''
    We shocked the system pretty good, and we lost students. We 
lost health care workers. We lost doctors and nurses from 
places like Pakistan and India who were going to work in the 
Midwest on these exchange programs. We lost visitors to Disney 
World and Disneyland. We took a big economic hit on this issue.
    We have been working hard to find the right balance. And 
Governor Ridge and Attorney General Ashcroft and I have spent a 
lot of time on it. We are putting in place a new program that 
essentially says: Secure our borders, open our doors. We have 
to let people come into this country.
    Regarding the problem that was mentioned earlier by the 
Chairman about public diplomacy, I can never win the public 
diplomacy argument if people think we do not want them to come 
to our country because they are Muslim. We want to make sure 
when we say, ``No. We just want to know who is coming here.'' 
That is not unreasonable. Most nations in the world have 
programs already that know who is in the country, and when you 
have left. They register in hotels. They have ID cards. All 
sorts of things take place.
    We just need to know who is coming into our country. Then, 
we want to be as welcoming a nation as we can be. We have to 
put in place systems that will do this quickly.
    It has hurt us in a number of ways. Our health care 
industry has taken a hit. People do not want to come to some of 
our great clinics and hospitals because of the hassles, so they 
will go somewhere else: to Great Britain or France or 
Australia, places like that. We do not want that.
    Airline pilots of Arab nations have suddenly discovered it 
is too hard to be an Arab pilot and get into this country for 
reasons that are obvious. They will do their refresher training 
in some other country. We want them to come here to get that 
refresher training. We want them to get the best to meet the 
highest standards; they are going to be flying into our 
country. We have to be sensible about this and find the 
balance.
    Some American companies, for example, doing business in 
Southeast Asia, in some instances, have had to shut down their 
company because they cannot get their local workers to the 
United States to get updated on the work to go back and forth 
to conduct business without the hassle of visa delays.
    We will fix this. We will find the right balance between 
securing our borders and keeping our doors open.

            ECONOMIC IMPACT ON TURKEY FROM PERSIAN GULF WAR

    Mr. Sabo. Mr. Chairman, if I might, just maybe another 
short comment, and then a question.
    I was one who did not support the policy that got us into 
the conflict in Iraq. But I would often observe that one of my 
concerns was both the short term and the long term. And I would 
observe to some people, I expect that those of us who oppose 
the policy would probably have to end up being the votes for 
the necessary policy in post-conflict.
    And I would simply say I am one who is sympathetic toward 
your request for Turkey. And my question would be, what type of 
economic impact was there on Turkey from the first Persian Gulf 
War of 1991?
    Secretary Powell. It was enormous. It was in the tens of 
billions. I can give you a more precise number for the record.
    It was for that reason that the Turks were nervous and 
uneasy about this time when we were looking for political 
expressions of support and, frankly, economic support if 
theyneeded it. They have an economic problem that we have tried to help 
them with not only with financial aid, but taking their case to 
international financial institutions. It was for that reason that we 
wanted to be seen as being forthcoming this time around.
    Now, I do not think the economic impact will be as great if 
we have a reasonably short conflict and we are able to keep 
that flood of refugees that went to Turkey last time from doing 
the same thing this time. We have been successful in that 
regard. I just hope the impact will not be as great.
    Frankly, with Iraq as a threatening regime gone, certain 
stability should return to the region that will encourage 
travel, that will encourage economic activity and that will 
regularize commerce in that part of the world.
    Mr. Wolf. Mr. Regula.

                        TRANS-ATLANTIC RELATIONS

    Mr. Regula. Thank you, Mr. Chairman.
    And I want to say at the outset, Mr. Secretary, I have 
great confidence in your stewardship of the agency. I think you 
have done a terrific job. And I think all Americans would feel 
that way.
    One question, regarding our trans-Atlantic relations. In 
your responsibility you have to think long term, as well as 
short term. And one of the dangers, I think, of the existing 
situation in the world is that we will deal with short term 
concerns and forget the long term.
    Trans-Atlantic relations, historically post-World War II, 
have been good in many respects. Right now, it is a little 
dicey in some instances. But do you think we can restore this 
historic Atlantic partnership after we get over some of the 
more immediate hurdles?
    Secretary Powell. I am quite confident of it, Mr. Regula. I 
have seen this kind of stress in the trans-Atlantic 
partnerships before.
    I remember the deployment of ground-launched cruise 
missiles and Pershings back in the mid-1980s that caused a 
great deal of stress. I remember at the beginning of the 1990s, 
the debate was do we need NATO any more now that the Soviet 
Union is gone?
    Lo and behold, rather than NATO going away, we keep getting 
these membership applications from people who want to join this 
fraternity.
    Why? Because it is a fraternity of freedom-loving people, 
it is the basis of security in Europe, and it is the linkage 
they have to North America and, in turn, the United States, 
especially.
    That trumps the problems that come along. There are 
stresses in the current trans-Atlantic alliance between 
ourselves and, to be candid, our French friends and our German 
colleagues.
    We will work our way through this. We are not fighting on 
every issue. We had fundamental disagreement on Iraq, 
fundamental agreement on expanding NATO, fundamental agreement 
on expanding the European Union, fundamental agreement on 
working together in Afghanistan, fundamental agreement in 
Bosnia, on Kosovo, on Macedonia. On issue after issue there is 
fundamental agreement.
    As I once remarked somewhat jovially, you know, the United 
States and France we have been in marriage counseling for 225 
years. [Laughter.]
    But guess what? The marriage is there. And it will be 
there.

                 EXCHANGE PROGRAMS TO MUSLIM COUNTRIES

    Mr. Regula. That's a good way to put it. I was pleased to 
note that the FSA and CED programs had been transferred from 
foreign operations to your department. I was interested that in 
funding exchange programs, there seems to be an emphasis on 
Russia and central and southeastern Europe.
    I am wondering whether you are going to change that focus a 
little bit to the Muslim countries, because it seems like these 
countries will be an area of tension, prospectively?
    Secretary Powell. I think that is an excellent point, Mr. 
Regula, and I have not looked at the allocation or what we are 
planning for the upcoming year, but I think it is worth taking 
a look at. You are quite right.
    But Eastern Europe I would still say we need, there is a 
lot to do.
    Mr. Regula. Yes, I understand.
    Secretary Powell. I would love to expand all of these 
programs, and not short anybody.
    Mr. Regula. Well, I have been a big fan of the exchange 
programs, and I think probably there ought to be some emphasis 
added to, not by subtracting from Eastern Europe, but added to 
in terms of the Muslim countries for the long term.
    And I would hope that would be the direction the department 
will take.
    Secretary Powell. I certainly agree, and you will find in 
our request money for the Middle East Partnership Initiative, 
where we are working with Arab countries on educating their 
young people and instructing their teachers and bringing some 
of them over here to learn more about our country and take that 
message back.
    Mr. Regula. Well, I think from your earlier statements you 
are very strongly in support of rebuilding or enhancing the 
exchange programs.
    Secretary Powell. In the 2003 appropriation there is $245 
million for such programs, $14 million to the Near East region, 
and another $8 million to South Asia.
    But that might be worth looking at again. In this 2004 
program we have added $100 million, an increase from $245 
million to $345 million.
    Mr. Regula. I noticed that.
    Secretary Powell. That delta increase ensures that I 
certainly will take a hard look to see how much of that should 
be allocated to the Middle East and South Asia.

                              INMAN REPORT

    Mr. Regula. With regard to recommendations of the Inman 
Report, which was issued some time ago, have you been fairly 
successful in completing the recommendations of that 
commission?
    Secretary Powell. I think so, and I think we have had 
considerable success in building facilities that are modern, 
that are very representative of our country and blend in well, 
but are also secure.
    We have just reopened the embassy in Tanzania. I am very 
pleased with the construction program in the embassy in Kenya, 
and I am very satisfied with our progress toward accomplishment 
of the Inman objectives.

                    STATE DEPARTMENT LIAISON OFFICE

    Mr. Regula. One last question. Is the liaison office 
working well on the Hill, because as we hopefully expand the 
contacts once again with our friends in other parts of the 
world, members can often times use the services of this office.
    Secretary Powell. I am so glad you asked, Mr. Regula. I am 
very pleased that the House granted us a small closet--no, it 
is really a very nice room----
    [Laughter.]
    Secetary Powell [continuing]. It is a very nice room for us 
to have a liaison officer up on the Hill, two of them, and I 
have been by to see them and ask them about their work, and 
they are charged-up to be up here.
    I encourage all members of the House to take advantage of 
that liaison office for member services, constituent services, 
visa problems, anything they need, because they are your little 
State Department up on the House side.
    Now, I am having a little bit of trouble with my Senate 
colleagues, and I made the same offer to them. They seem to be 
short of space, and they have not been able to find a place for 
me yet.
    But I think we are close to getting it. I think we are 
about to get it consummated. I have to make one or two more 
phone calls, and we will be there. [Laughter.]
    Feel free to invite your Senate colleagues to come over and 
use the House office.
    Mr. Regula. We will remember that.
    Mr. Wolf. We have trouble with the Senate, too. [Laughter.]
    Mr. Serrano. I wanted you to elaborate on that cutting 
part. [Laughter.]
    Secretary Powell. Cutting a deal, Jose. You know what I 
mean.
    Mr. Serrano. That is against the rules.

                        U.S. AND GERMAN RELATIONS

    Mr. Wolf. Before I recognize Mr. Kennedy, I just want to 
agree with everything that Mr. Regula said. I am not into 
retribution and I think friends ought to be candid with 
friends.
    For instance, with regard to Germany, I am half German. My 
grandparents were German immigrants. I still have family in 
Germany. But I think we should tell the Germans that we are 
disappointed.
    Not in anger. When Mr. Regula was talking it just triggered 
it, the Berlin Airlift, there is a statue there, the number of 
men, American men that died in the Berlin Airlift to feed 
relatives of mine, if you will.
    They should remember the Berlin Brigade, Checkpoint 
Charlie. The soldiers, and if my memory serves me, the Fulda 
Gap, the cold snow coming down when they are standing there 
looking across, the young soldiers away from their home. The 
last American killed was Major Nicholson, I think, from 
Springfield, Virginia.
    Secretary Powell. Yes.
    Mr. Wolf. And so I think we ought to tell the Germans. So 
I, as half-German, would say to my German friends, if you will, 
``We are a little disappointed, because we have been there all 
the time.''
    Now, I guess one of the strengths is we created democracy. 
But I do think they have taken a little bit of advantage of us.
    I think friends, good friends--and the Germans are our good 
friends, and my grandfather went to a Lutheran church service 
in German, went to the early service, because he spoke German--
and so I think I can say it. But we are a little surprised and 
a little disappointed.
    It is fair for us to say we were a little bit surprised, a 
little bit hurt, a little bit disappointed, and both of us have 
to work together to bring that relationship back.
    But there is a long history of Americans who have served 
for freedom, whereby the Germans would have that right to have 
a democracy, and do. And so I think when we rebuild that 
relationship, as I hope and I think, Mr. Regula, it is fair to 
say to the Germans, ``We are a little hurt, we are a little 
disappointed and hopefully this will not happen again.''
    Secretary Powell. If I may, Mr. Chairman, there is no 
mistaking that message. The Germans know it. They fully 
understand it. They know that we are greatly disappointed. We 
believe that the issue was misused in their campaign last year.
    My German colleague, Joschka Fischer, and I talk about it a 
lot. He knows that I started my Army career guarding the Fulda 
Gap as a second lieutenant, and I ended the operational part of 
my Army career as a commander of the 5th Corps, the corps that 
is now in the deserts of Iraq approaching Baghdad.
    I know exactly the monument you speak of. It is at Rhein-
Main, one end of it. The other end is in Berlin. I have 
reminded Mr. Fischer of what our relationship with Germany has 
been over the years and the sacrifices we have made. They know 
how disappointed we are.
    But we also know that we do many things together with our--
--
    Mr. Wolf. Of course.
    Secretary Powell [continuing]. German friends, and we have 
to get over this, but we are not going to just ignore it and 
forget about it right away.
    Mr. Wolf. Well, thank you. I appreciate it.
    Mr. Kennedy.

                       WEAPONS OF MASS DESTRUCTION

    Mr. Kennedy. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary of State. And I want to join with my 
colleagues in thanking you for your service to our country.
    I wanted to ask you to talk a little bit about the threat 
of weapons of mass destruction as we go forward. You know, we 
heard the other day Secretary Rumsfeld say it was the single 
greatest threat to our security going forward, that in this new 
war on terrorism this is what we need to worry about, these 
weapons getting into the hands of terrorists.
    And so I wanted to ask, how are we working with our allies 
to develop a global monitoring system so that we have the 
equivalent of a Nunn-Lugar situation in every country?
    And can you give us as a backdrop and context how many 
countries that we know now have chemical and biological weapons 
and what are we doing? Give us a little update on the chemical 
weapons treaty and where that stands, if you would.
    Secretary Powell. I certainly agree with my colleague, Don 
Rumsfeld, that these weapons of mass destruction, as they are 
called, chemical, biological and nuclear, are a grave danger to 
us and to the world, because they can inflict such large 
numbers of casualties. In the case of chemical and biological 
weapons, rather cheaper and rather surreptitiously and rather 
easily.
    Now, they are not simple weapons to create and use; some 
sophistication is required. You have to make sure you protect 
yourself while you are working with this material and getting 
ready to use it and using it. What has particularly concerned 
us, and especially in the case of Iraq, is when you have a 
sophisticated potential supplier, a state like Iraq, that is 
developing these weapons, weapons that could get into the hands 
of a terrorist. What we are worried about is not necessarily 
Iraq attacking us, but Iraq providing the wherewithal of 
somebody else to attack us in a way that would not be traceable 
back to that state. That is what makes these weapons so 
terrible.
    Nuclear programs are a little easier to detect. This is not 
something you can do in an average civilian chemistry lab or 
chemical facility or a drug company that suddenly stops making 
a drug for health care and is making a biological weapon. 
Nuclear programs are a little more visible, although we have 
also learned they can be kept hidden for a long time before 
they become visible, such as in North Korea and other places.
    Nunn-Lugar programs and similar programs are important 
because they get rid of these weapons and material for these 
weapons in a systematic, accountable way, and that is why we 
are working so hard with the Russian Federation, not only on 
Nunn-Lugar but other programs, such as the 10-plus-10 program, 
where we and our European colleagues and our Japanese 
colleagues provide more money to the Russian Federation to get 
rid of this stuff that they developed over the years.
    The danger in these weapons, of course, is that I am 
notsure you can have a total international world monitoring system, 
since in many cases you can develop a chemical weapon in any moderately 
well-equipped facility that does some other kind of chemical activity. 
I have not been able to think through the feasibility of creating an 
international monitoring system. We can have an international 
monitoring system with respect to precursor chemicals----
    Mr. Kennedy. Right.
    Secretary Powell [continuing]. Or things of that nature, 
and that is worth examining and looking at. But we should not 
underestimate the ease with which it can be done, the ease with 
which both biological and chemical agents can be made and would 
be hard to capture in an international monitoring system.
    In light of what we have seen, though, the President has 
tasked us, the State Department, Defense Department, the 
National Security Council, to examine putting in place a more 
comprehensive nonproliferation system for the world than we 
currently now have with the NPT and the Chemical Weapons 
Convention.
    Mr. Kennedy. How many countries currently have them, and do 
we have a pretty good sense of keeping track of those that they 
do have.
    Secretary Powell. I have a general idea of how many. I 
would like to verify that number in my mind for the record and 
make sure I am not giving away anything that is classified. But 
it is certainly a dozen, two dozen, something in that order of 
magnitude.
    No, I cannot say that we do have a way of telling you how 
much each one of these countries have. Unless they have 
declared it, and you believe that declaration under some 
convention or agreement, but it is easy to hide.

                     DEMOCRACY IN THE MUSLIM WORLD

    Mr. Kennedy. Could you describe for us in the post-war 
environment the policy of kind of a garden of democracy in a 
sea of discord and totalitarianism?
    And how do we see the post-Iraq world, post-Saddam world, 
contributing to peace in the Middle East--showing our Western 
values, if you will, and showing that, you know, Islam and the 
Western values of democracy and freedom do not have to be 
incompatible?
    Secretary Powell. I think you make an important point, Mr. 
Kennedy. We do not believe they are incompatible. Why shouldn't 
people in the Arab world or people in the Muslim world live 
under democracy? The second-largest Muslim nation in the world 
is India, also the largest Hindu nation. They have been a 
functioning democracy for 50-odd years. There is nothing 
incompatible with democracy and political system and religion 
and faith.
    If you took a country, like Iraq, that has no democratic 
experience and put in place a functioning representative 
system--let me call it that, rather than think it is American-
Jeffersonian democracy--but some system where the people 
determine who will govern them and can vote those people out of 
office if they do not like them and vote new ones in. That is 
what we are looking for--responsible leadership that cannot 
thwart or take over or defeat the will of the people. That is 
what we are looking for.
    If such a nation is living in a non-threatening way with 
its neighbors, particularly in a troubled area like the Persian 
Gulf-Middle East area, I think that is a powerful example. It 
is not the imposition of an American system or western values. 
It is taking a concept of politics, democracy and saying to 
them, ``Why shouldn't you be able to choose your leaders? 
Demand it. Expect it. Hold your leaders to account.'' This in 
no way violates anybody's faith.

                 NORTH KOREA, IRAN AND NUCLEAR WEAPONS

    Mr. Kennedy. Finally, Mr. Secretary, I am often asked the 
following question, and I have been supportive of the war and 
supported the resolutions that we passed in this Congress to 
provide the President the authority, which ultimately led to 
1441, and I believe in retrospect it was the right vote because 
of that opportunity.
    When people ask about North Korea and when they ask about 
Iran having possibility of manufacturing nuclear weapons and 
what our policy is going to be in those other axis of evil 
countries, could you describe for us how our policy is going to 
jell toward those two threats?
    Secretary Powell. I usually get the question, Mr. Kennedy--
--
    Mr. Kennedy. I am sure all the time.
    Secretary Powell [continuing]. Probably like you get. If we 
are doing this in Iraq, why aren't we doing the same thing in 
North Korea or Iran?
    The answer is that, not one size fits all. The President 
has a full range of tools available to him to deal with these 
problems. In the case of Iraq, we had 12 years of failed 
resolution after resolution, and it finally was brought to a 
head. Iraq has an established history of using these weapons 
against its neighbors and invading its neighbors.
    Mr. Kennedy. Right.
    Secretary Powell. With respect to a country, such as North 
Korea, we are just as concerned about the proliferation of 
nuclear technology in North Korea and how it might spread 
outside of North Korea. But in this we are joined by powerful 
friends and regional partners. The Chinese leadership has stood 
up candidly and forcefully, and said: We do not support a 
nuclearized North Korea or a nuclearized Korean Peninsula. That 
is their biggest friend and neighbor in the region. Japan has 
said the same thing; South Korea, Russia. We have partners to 
work with that are all united with us in not having a 
nuclearized peninsula.
    That is powerful diplomatic and political currency in our 
bank that we can use. We do not have to start talking about 
invasion. We never take any option off the table. But I am 
still confident that a diplomatic solution can be found, and we 
are fully engaged on that effort as recently as an hour and a 
half ago. So we are working hard.

                       U.S. TROOPS IN SOUTH KOREA

    Mr. Kennedy. How far are we from withdrawing our troops in 
South Korea?
    Secretary Powell. Oh, we do not want to do that. We have 
been a source of stability for that part of Asia for many 
years. That is not to say we should not look at the numbers of 
such troops and how they are disposed within South Korea and 
the region. We have begun discussions with our South Korean 
friends. We have to do it in total coordination and in 
transparency with our South Korean allies before we make these 
kinds of adjustments. We have reassured them that that is what 
we would do.
    In Iran, that is yet another situation that is somewhat 
different. There is a lot of turmoil there. They have 
secularists fighting the presidency. We are appealing to the 
Iranian people to place a demand on the political system, to 
stop putting their treasure into weapons of massdestruction and 
to start providing a better life for this young Iranian population that 
wants to participate in the economic activity of the world, not just 
the economic activity within Iran, which is not adequate to the needs 
of this young population.
    Mr. Kennedy. Thank you, Mr. Secretary.
    Mr. Wolf. Thank you, Mr. Kennedy.
    Mr. Vitter.

                       U.N. ROLE IN POST-WAR IRAQ

    Mr. Vitter. Thank you, Mr. Chairman.
    By the way, Mr. Chairman, I am half German by background, 
too. The problem is that is the good news, because the other 
half is French. [Laughter.]
    Thank you, Mr. Secretary, for being here and for all your 
leadership. And I want to salute that leadership, particularly 
over the last six months, I really do appreciate it.
    We are all focused and praying for our troops as they win 
the war, but we are also beginning to focus on winning the 
peace. And I wanted to ask you a few questions with that in 
mind.
    I am concerned, quite frankly, by some statements I have 
heard out of the government suggesting that we are going to 
basically rush as soon as the war is over to get the U.N. and 
other members of the United Nations who have been particularly 
unhelpful in the middle of the postwar Iraq situation. And I am 
concerned about that not because I think we need to do 
otherwise to punish them, but because I think they have proven 
over the last several months that at best they do not get it, 
in terms of what will truly bring peace and stability to Iraq; 
and, at worse, I think some of them would continue to want to 
see us fail in the peace process after we have won the war.
    Can you respond to those concerns?
    Secretary Powell. Yes, sir. I think there is a role for the 
United Nations. I think that we do need an international 
chapeau over this effort. But in my conversations with U.N. 
officials and my conversation with Kofi Annan, there is no 
desire so far on the part of the U.N. to become essentially the 
owner of Iraq.
    They want to work with us. They want to help us. We want to 
put in place appropriate authorities. But we understand our 
responsibility to help the people of Iraq move quickly to a new 
governing arrangement and to work with the interim authority 
that we will create in Iraq and stand it up ultimately to be 
the government of a new Iraq.
    The U.N. has a role to play. Let me give you an example of 
why the U.N. has a role to play. If we want to get help from 
other nations, and we ask these nations to get funds from their 
parliaments or their legislatures, it makes it a lot easier for 
them to get those funds and to contribute those funds through 
the reconstruction, redevelopment effort if it has an 
international standing, if I can put it that way, as opposed to 
just giving money to give to the Americans. That will not work.
    There are a number of advantages to having a U.N. role in 
this effort. But believe me, sir, I fully understand the point 
you are making that we did not take on this huge burden with 
our coalition partners not to be able to have significant, 
dominating control over how it unfolds in the future.
    Mr. Vitter. Let me ask it another way, and I think I 
understand what you are saying, but I want to nail it down.
    Can you assure us that, in fact, the coalition led by us 
that will win this war will remain the center of gravity in 
post-war Iraq until the Iraqis are able to truly be on their 
own. And while groups like the U.N. may be involved, they will 
not be that center of gravity.
    Secretary Powell. I think that is an accurate statement. We 
would want to go from a military-oriented center of gravity 
rapidly to a civilian-oriented center of gravity. Then the 
center of gravity will shift to the Iraqis, who are governing 
themselves and starting to demonstrate their capacity to 
govern. We will be there for as long as it is necessary until 
they are stable.
    The worst thing we could do is essentially say, `` Well, we 
finished this and we are going to leave time certain.'' And 
whatever is there is there. I think we would take on a greater 
obligation, and that is to make sure there is a functioning 
Iraqi government that is supported by the coalition--the center 
of gravity remaining with the coalition, military and 
civilian--that is great utility in having the U.N. play a role. 
Now, the exact nature of that role and what we will be asking 
for in the resolutions that will be coming before the council 
remains to be determined.
    The President will have good conversations this evening 
with Prime Minister Blair on the subject. I will be meeting 
with Foreign Secretary Straw tonight. Then we will all be at 
Camp David tomorrow for a more extended conversation on the 
subject. I met with my Spanish colleague, Prime Minister 
Palacio, last night on the subject. There is a great deal of 
conversation taking place. Dr. Rice met with Kofi Annan 
yesterday. I had a couple of conversations with him on the 
phone. We are hard at work on this issue.

                    FUTURE U.N. RESOLUTIONS AND IRAQ

    Mr. Vitter. All right. Well, you mentioned something that 
is closely related, which is any future U.N. resolutions and 
what they are about. It seems to me it is one thing for there 
to be a future U.N. resolution about a role for the U.N., 
particularly humanitarian. But it would be another thing for 
the U.N. resolution to lay out some road map for post-war Iraq 
in such a way that it would basically grab that decision-making 
and control from the coalition that got us there to the very 
group that refused to face reality.
    Can you give us some assurance that whatever U.N. 
resolutions are in the future will not do that?
    Secretary Powell. I do not even see a possibility of that 
right now. There may be some that think it should go that far, 
but we would not support an effort as precise as the one you 
described. You are essentially handing everything over to the 
U.N. for someone designated by the U.N. to suddenly become in 
charge of this whole operation.
    Mr. Vitter. And, quite frankly, even if it does not do that 
that explicitly, I would be concerned about a resolution that 
is so broad about the progression of post-war Iraq that it 
suggests that sort of center of gravity moving to the U.N.
    Secretary Powell. I would too, sir.

                        RUSSIAN SUPPLIES TO IRAQ

    Mr. Vitter. Okay, thank you.
    I am specifically very concerned, as I know the 
administration is, about the idea, the accusation that the 
Russians are allowing Russian companies to supply the Saddam 
Hussein regime with capability and technology that is being 
used directly against us.
    What is being done beyond words to make it clear that that 
is completely unacceptable?
    Secretary Powell. As I mentioned earlier, we have for 
anumber of months been making this case to the Russians. Within the 
last few days. Since the conflict started, we have had even more direct 
evidence of the presence of such equipment. We have been on the phone 
constantly with the Russians. Not just on the phone to chat about it, 
but to give them the information that we believe can be taken to the 
source of this.
    In my conversation with Prime Minister Ivanov earlier 
today, he thanked me for the information I provided. They are 
following-up with their intelligence and other services to get 
to the bottom of it. I believe we have given them pretty good 
information, and I hope they will find what I think they will 
find.
    Mr. Vitter. And if they do not change their position based 
on that opportunity----
    Secretary Powell. That would be a problem in our 
relationship, and they understand that.
    Mr. Vitter. And, again, if they do not change their 
position or their actions under that circumstance, which 
hopefully will not develop, but under that circumstance, why 
should they have any role in the future of Iraq?
    Secretary Powell. It will definitely be a great hindrance. 
It would be very hard to explain that with knowledge of this 
kind of product in the hands of the Iraqis--that they did not 
know about it before but they know about it now, and they have 
not acted on it--it seems to me that would be a major 
difficulty in our relationship, and it would affect the future 
of Iraq as well.
    Mr. Vitter. I took the White House statement to mean that 
significant people in the Russian government did know about it.
    What is your understanding of the facts?
    Secretary Powell. Some senior people in the Russian 
government were aware of our concerns, and we did not say it 
was the Russian government doing it. We believe they were 
private companies, and we thought we had given them sufficient 
information to ascertain the correctness of our information.
    Their inquiries have not turned up the same information; 
they did not agree with us. But when the war began, and we got 
more information of higher fidelity, I arranged to have that 
information treated in a way, then changed in a way that we 
could make it available to the Russians.
    My ambassador, Sandy Vershbow, presented it to the Russians 
yesterday morning, and I talked to Mr. Ivanov yesterday and 
again today about how to use that information and he is 
following up.

                     NORTH KOREA AND U.S. RELATIONS

    Mr. Vitter. Okay, thank you.
    Final, quick question about North Korea, another obvious 
area of concern. One thing I found sort of amazing in the whole 
debate about North Korea is the very same people at the U.N. 
and elsewhere who have blasted us as ``Unilateralists'' are 
basically demanding that we be unilateralists with North Korea.
    I mean, has this irony been pointed out to them?
    Secretary Powell. Yes. [Laughter.]
    No, I find it, not only an irony, but I find it, to be 
blunt, Mr. Vitter, terribly annoying. When I am constantly 
being accused of being unilateralist, or my administration, 
President Bush and all of us are accused of being 
unilateralist, and when we try to expand this particular 
problem into a multilateral setting, we are criticized.
    We are criticized for not immediately reaching out and 
talking to the North Koreans, and consummating another deal 
like the last deal which got us into this problem in the first 
place.
    I just read a report of a commission of very distinguished 
Americans who know Korea, well, just lambasting us because we 
have not entered into direct discussions.
    But the last direct discussions gave us the Agreed 
Framework, and the Agreed Framework succeeded in capping 
Yongbyon for eight years so that no more weapons or weapons-
grade plutonium came out of it. But it just capped it, it did 
not remove it.
    Meanwhile, as soon as the documents were signed and agreed 
to, and before the ink was dry, the North Koreans started 
developing nuclear weapons technology, enriched uranium.
    There were fatal flaws in that agreement, and at the same 
time I give credit to the previous administration for having 
capped it for eight years.
    But when we discovered this other technology and said, 
``Hey, wait a minute fellas, this is not what the Agreed 
Framework was all about, and all of the other obligations--the 
North-South Agreement with the South Koreans that there would 
not be nuclear developments on the peninsula, and all of your 
other international obligations--that we are not going to turn 
away from this,'' and we called them on it; They said, ``You 
got us, we are doing it. So what?''
    They said, ``Now let's have a nice bilateral dialogue to 
talk about it.'' And we said, ``thank you very much, no. This 
is now a problem not just between you and the United States, it 
is between you and your neighbors and the international 
community, so we will have to find a way to broaden this out.''
    In broadening it out we will find a solution that deals 
with the problem, and we also recognize that the authorities in 
Pyongyang are uneasy. They believe that we mean them no good.
    We have tried to make it clear to them that we have no 
invasion plans for North Korea. They want a security agreement. 
That is why they decided they have to keep developing these 
kinds of weapons.
    There is a solution set, and we are hard at work finding a 
way to that solution set, and I am still confident we can do it 
diplomatically and peacefully using diplomatic and political 
means, and using the nations in the region that have an 
interest.
    I specifically want to highlight Japan and South Korea and 
Russia, but especially China, which is one of the greatest 
supporters in North Korea in terms of economic aid, in terms of 
energy assistance. China has made it absolutely clear, over and 
over, that it does not support nuclearization of the Korean 
Peninsula, and that is a very strong statement on the part of 
the Chinese leadership.
    We are working with all of our partners in the region to do 
this on a multilateral basis and solve this once and for all.
    Mr. Vitter. What progress, specifically, has been made with 
the anti-unilateralists for them to drop the unilateralist 
demand on this issue?
    Secretary Powell. Not much. They keep pounding away on it, 
and we keep saying that we understand the argument you are 
making, but we are not going to go down that road.
    We have to expand this beyond just North Korea and the 
United States. The Agreed Framework was done without an 
enormous consultation with our friends in South Korea and other 
nations in the region.
    This one has to be done in the strongest possible 
consultation with our friends in the region, and we will find a 
way to expand this beyond the two and to move on.
    Mr. Vitter. Thank you, Mr. Secretary. Thank you, Mr. 
Chairman.
    Mr. Wolf. Mr. Sweeney.

                 RUSSIAN AND FRENCH TECHNOLOGY TO IRAQ

    Mr. Sweeney. Thank you, Mr. Chairman. Welcome, Mr. 
Secretary. Let me join my colleagues in first thanking you for 
your service to the country, both past and present.
    And in the immediate present your work on relieving the 
world of famine and starvation and your work on combating AIDS 
and this administration's really unprecedented, historic 
commitment to combat African AIDS. I think it speaks volumes 
about what America is all about and what you bring to the table 
as secretary of state.
    I am one who supported your efforts in the United Nations 
and applaud your great victory, for lack of a better term, in 
securing a unanimous vote on 1441. And I support the 
administration's policy in terms of the use of military 
intervention in Iraq.
    In that context, and not to be one, as Chairman Wolf 
pointed out, not to be one who wants to develop policies that 
simply seek retribution for our disappointments in other places 
and not to overstate the case that Mr. Vitter just made, in an 
attempt to, more than anything else, emphasize the American 
interest at play, I would like to ask you, would it not have 
great impact and effect on your thinking in terms of post-war 
Iraq and the United Nations involvement; and, more 
specifically, nations within the United Nations or on the 
Security Council who may at some subsequent point be found to 
have been in violation of resolutions in terms of their 
providing technologies, be they through their governments or 
through private corporations or companies, especially in light 
of the work that you are doing with the Russian government in 
pointing out their problems and their potential involvement in 
such activity.
    Would that not have a very significant impact, a 
detrimental impact, in terms of their involvement in making any 
decisions on post-war Iraq?
    Secretary Powell. Yes, because in fact if these kinds of 
transfers were taking place with the knowledge and support of 
the government or from government organizations, it would be in 
violation of the very sanctions that the Security Council put 
in place. It seems to me that would affect attitudes with 
respect to post-war activities.
    Mr. Sweeney. And, for example, if we were to find out, as 
some suspect and are concerned about, that the French 
government continued to be involved, either through private 
corporations or through the government, in the proliferation of 
technologies that could be used?
    Secretary Powell. It would be violative of their 
obligations under the sanctions, and I think it should be taken 
into account.

                           SUPPORT FOR TURKEY

    Mr. Sweeney. In that vein, I am one who recognizes the 
strategic importance of Turkey, and even some of the 
contributions that I suspect they have been able to provide us 
in this current undertaking. A concern that many members have 
as it relates to the $255 million you asked for in your budget 
for support for Turkey, or the $1 billion request for funds to 
remain available for grants in Turkey. And I think it is 
reflective of a lot of our constituents and some things that 
are being said in America.
    Could you assess what additional costs, expenses will the 
coalition incur by virtue of our inability to use Turkey to 
establish a stronger presence in the north of Iraq? And 
essentially what I am asking is could we quantify that?
    Secretary Powell. I could not, Mr. Sweeney. Perhaps my 
colleagues at the Pentagon could, but I think it would be a 
hard calculation to make.
    We now are moving forces that might have gone across Turkey 
down and around, which is an added expense. But they will also 
land at a port now as opposed to having to traverse all of 
Turkey. They will be used in a different way. I do not know if 
those costs would wash out or balance out. But I think it is a 
question you need to put to the Department of Defense.

                          STABILITY IN TURKEY

    Mr. Sweeney. How concerned are you with the political 
climate in Turkey at this point?
    I heard your earlier statement. It seems to me we are 
putting a lot of trust in one individual or his administration. 
And given the significant Muslim population and the concerns 
that they have, generally.
    In a post-war Iraq, I presume you believe Turkey will be a 
more stable place, both economically and politically. My 
question is, how stable are they today?
    Secretary Powell. I think they will be living in a more 
stable neighborhood after Iraq. I think they are stable at the 
moment. They are having some economic difficulties as this 
issue has rolled around over the last couple of months, and we 
are sensitive to that.
    I have met with Mr. Erdogan twice now, the new prime 
minister. I have spoken to him on the phone regularly, three 
times, I think, in the last week. I stay in very close touch 
with my foreign minister colleague, who used to be the prime 
minister, Mr. Gul.
    They are a new government. It will take them some time to 
get their sea legs, so to speak, and get some experience in 
governing. There has been a shift to a political leadership, a 
party that has an Islamic orientation to it, more so than 
previous parties.
    But I sense from my conversations with Prime Minister 
Erdogan and Prime Minister Gul that they understand the 
importance of the relationship they have with the United 
States. They understand that we are all allies in NATO; that we 
have a unique strategic partnership between the United States 
and Turkey. I see no reason to believe that they will not work 
as hard as we will to make that partnership strong.

                            ROLE OF THE U.N.

    Mr. Sweeney. Well, we have had that strategic alliance for 
many years and it has been used, I think, as great leverage for 
the government of Turkey. We cannot get the government of 
Turkey to recognize and acknowledge past acts as it relates to 
Armenian genocide and things because we are afraid of the 
fragile nature. So for some of us this is a little bit much to 
swallow.
    Let me ask you a question about the United Nations. And I 
am one who fluctuates back and forth in terms of its vitality.
    And, frankly, you have great influence, both with myself 
and I think with all of America in not just throwing our hands 
up in disgust and walking away.
    Considering the recent past history but what do we do with 
a body that is going to have the government of Iraq sitting as 
the chair in the U.N. conference on disarmament and has Libya 
sitting overseeing human rights issues and concerns?
    What do we do with that entity, and how do we develop any 
confidence that that body can serve a useful role? I am 
interested in your thoughts.
    Because, structurally, it seems to me this is beyond the 
political concerns of any individual nation, this is deeper 
than that.
    Secretary Powell. Let me just stick with Iraq. Iraq saw the 
wisdom of not taking its seat in the rotation.
    The United Nations is an organization of 191 nations now, 
and with 191 nations you get every flavor, and it is five times 
Old Howard Johnson's. More than five times Old Howard 
Johnson's. You get every imaginable point of view.
    Mr. Sweeney. A lot less palatable at times, too.
    Secretary Powell. But, nevertheless, they are all nations 
with points of view and different political perspectives and 
different political systems.
    The United Nations was created to bring all of us together 
and see if in this grand body of nations problemscould be 
solved and issues could be dealt with that could not be dealt with 
without such an organization.
    And in my many years or government service, as Chairman of 
the Joint Chiefs of Staff, now Secretary of State, as National 
Security Adviser, I have seen the United Nations solve a lot of 
thorny, difficult problems. It was not always clean; it was not 
always neat.
    My good friend Kofi Annan, you know, has to get consensus 
out of this organization. But I saw them bring a cease-fire to 
the Iran-Iraq War. I saw them deal with East Timor. I saw them 
deal with Cambodia.
    I saw how helpful they could be in the first Gulf War with 
respect to the support we got for what we are doing. The U.N. 
resolution that supported the first Gulf War.
    I saw 1441 in this current crisis. But we should not think 
that they are just going to sit around waiting for the United 
States to tell them what we want them to do.
    They are sovereign nations that bring 191 sovereign 
opinions to the table. Some of them outrageous, some of them 
drive me, you know, to distraction or despair, in want of a 
more colorful word.
    To think that Libya is sitting as the chair of the Human 
Rights Commission this session is appalling. But we are back on 
the Human Rights Commission, and we will work as hard as we can 
to make sure that the rights of human beings around the world 
are looked after by that commission, sometimes with success, 
sometimes without success.
    But when you have that kind of body, there has to be some 
kind of rotational scheme so every region has an opportunity, 
and every nation ultimately has an opportunity to sit in the 
chair.
    But it is distasteful, and we tried to see if there was a 
way to keep Libya from occupying that chair. But the caucus 
that it belongs to was not willing to do that. We expressed our 
displeasure, we called for an open vote, and Libya prevailed in 
that vote.
    We do not like it, and we express concern. We say, this is 
absurd to have such a nation in the chair. But it is one of the 
costs that come with a complex body of 191 nations.

          FOREIGN MILITARY FINANCING AND SUPPLEMENTAL REQUEST

    Mr. Sweeney. There is a recognition, I think, in particular 
given the coverage in the last week with the war in Iraq that 
there is a great void, you know. We are going to try to good 
things in the world with a balance between strength and forms 
of political diplomacy, as Chairman Wolf pointed out.
    And what I think America has come to know is that in the 
Arab world in particular there is a tremendous void now, and so 
what I would say is--I am going to ask a question but also make 
a statement, and say that as much as we can encourage 
expansions of the Voice of America--and I note this conference, 
given all the concern about Turkey, the conferees last year 
decided to station our Voice of America capacities in Turkey.
    Another benefit to that government and its folks, but as 
much as we can get our messages out and present that 
perspective we will need to do that.
    The president's supplemental request includes a little over 
$2 billion for foreign military financing. I would like an 
assessment from you on our allies and their current military 
capability, how effective they are, and I know we are going to 
have specific attention paid to the supplemental, but I would 
like to get your sense of our allies' military capabilities 
and----
    Secretary Powell. Did you have particular ones in mind?
    Mr. Sweeney. Well, actually, yes, in the supplemental: 
Where is it going, who is it for, what is its role?
    Secretary Powell. If I may, Mr. Sweeney, I need to give you 
an individual breakdown by country, and in that breakdown, for 
the record, I will give you an assessment of their current 
state of need.
    Mr. Sweeney. That would be great. The overriding sense is 
that we and the Brits are kind of it, and I am trying to get 
into that.
    Secretary Powell. No, I mean, we have overwhelming military 
power. There is no nation on the face of the Earth that can 
match ours. I think that is good. I think that is good for 
peace. I think that is good for security in the world.
    The British are exceptionally competent. They are a First 
World force. There are others: Australia, France, Germany and 
others. There are others that have forces that are nowhere near 
the capability or size of ours, but would not be considered 
basket cases either.
    But nobody invests in their security and their military 
force the way we do; a possible exception being Israel, in its 
own unique way. We should keep it that way and make that 
investment.
    Mr. Sweeney. I have some other questions I will work with 
your folks on. I will make this final statement that--as it 
relates to the Indian, Colombian counter-drug initiatives, I am 
fully supportive. And while we have focus in a lot of other 
places, we cannot lose focus there as well.
    Secretary Powell. Thank you, Mr. Sweeney.
    Mr. Sweeney. Thank you, Secretary.
    Thank you, Mr. Chairman.
    Mr. Wolf. Mr. Kirk.

                        IRAQI NATIONAL CONGRESS

    Mr. Kirk. Mr. Secretary, thank you, applaud your courageous 
stand on aid to France. I think you are drawing a line in the 
brie here.
    I also want to thank your troops. We should be rightfully 
proud of men and women in uniform. But foreign service officers 
serving in very dangerous places need to be thanked as well. In 
many ways, facing a more hidden danger.
    I want to raise the issue of the Iraqi opposition. We have 
approximately $8 million available in economic support funds 
for the Iraqi National Congress that is now located in Northern 
Iraq. I just talked to their leadership this morning who said 
that they are out of money, cannot pay the satellite phone bill 
and are in desperate need of a SOMS-B, two Humvee, AM/FM/TV 
printing facility that would allow them to get the opposition 
message out from Northern Iraq.
    I understand that Secretary Armitage is holding up 
assistance for the Iraqi opposition. Does not make a lot of 
sense.
    Can you tell me what your thinking is on that?
    Secretary Powell. I am not aware of the specifics, but I am 
heading back to the department now, and I will ask Deputy 
Secretary Armitage about it right away.

                          GERMAN SALES TO IRAQ

    Mr. Kirk. Yes, thank you very much.
    Just to echo other concerns, Dr. Christine Gosden, of the 
Liverpool medical establishment, talked about a massive 
purchase of silica particles five weeks ago from Germany, 
silica particles being the essential ingredient in the dusty VX 
that the Iraqis have pioneered. And so we are just veryworried 
about continued commercial relations between Germany and Iraq, 
especially for silica particles supporting the dusty VX program. So I 
just want to raise that concern with you.
    Secretary Powell. I have not heard about it; I will look at 
it. But I am sure that in the near future when this conflict is 
over, it is probably an order that is going to be canceled if 
it exists.

                         NORTH KOREAN REFUGEES

    Mr. Kirk. That is very good news.
    On the North Korea situation--talked before about the 
plight of refugees--200,000 refugees in Manchuria. I have 
talked about what I would call a 90-5-5 solution: 90 percent of 
refugees processed in northern China and going to South Korea, 
5 percent going to their relatives in Europe, 5 percent coming 
to North America. When you talk to the Chinese local officials, 
Manchurian governors and city officials, they love that idea 
because it takes the refugee situation off their hands.
    It seems like we could work Beijing from both sides: Local 
officials saying, ``We want to take these refugees off your 
hands and bring them to freedom, mainly in South Korea.'' And 
obviously, our wishes and needs to help out. Wondering, what is 
your current thinking on the North Korean refugee problem as it 
exists in northern China?
    Secretary Powell. It is a real problem and a growing 
problem. We have been looking for creative solutions that would 
sell in the region. This is one that I would like to take a 
harder look at and pursue with our Chinese colleagues.

               MACHINE READABLE VISA FEES AND BIOMETRICS

    Mr. Kirk. Yes, if you talk to Yanbian Autonomous Province, 
2 million ethnic Korean speakers in China there, they would 
love to have these refugees off their hands. And they will say, 
``Foreign ministry, Beijing is overruling us.''
    And I think this could be a win-win where we establish a 
small UNHC office. And maybe the international community could 
promise, ``Hey, within two weeks of the refugee registering 
with us, they are out of there and in freedom in South Korea, 
et cetera.''
    We charge to gain entry into the United States, the MRV 
fees. It was a substantial income source to the State 
Department. And after September 11th, of course, we shut down 
the processing. Do you have a sense of what that has done to 
your budget? It used to be a big boon to the State Department; 
now really declining. Obviously, when international travel 
resumes it will be a boost again. How has that whipsawed your 
own budget?
    Secretary Powell. It has had an effect, obviously. It is a 
user fee that we use to fund the whole program. It goes up and 
down in accordance with the demand. It dropped after 9/11 
significantly, and then it started to come back. I think the 
current crisis has dampened travel for any purpose. So it will 
effect our revenues again.
    But at the same time, there is also a decrease in demand 
for the service. There is an offsetting element to it as well.
    But I would have to give you for the record what the fund 
flow actually has been over the last--shall we say?--year and a 
half.
    Mr. Kirk. I know we have a unique strain right now because 
we were making a lot of money off this that was helping the 
department. And every American is very reassured that you are 
bringing the retinal scan on board so that someone has that 
picture of the back of their eyeball before entering the United 
States. That is very promising technology; the MRV program was 
helping to pay for that.
    Secretary Powell. Paid for it, yes, right.

                          PEACEKEEPING IN IRAQ

    Mr. Kirk. And now we have had low travel. So we want to 
make sure that that retinal scan program stays on track.
    Last thing: One long-term issue, to follow up on my 
colleague from New York, we talk about problems with the U.N. I 
am very pro-U.N. I think the moment we have victory in Iraq 
there will be a great pressure to bring Americans home. Having 
them quickly replaced with peacekeepers from other countries I 
think is a very laudable goal, even if it is German and French 
peacekeepers.
    And so I sense that the pressure on you is going to 
whipsaw. Right now it is everything anti-French. The moment we 
win, we are going to want to bring these folks home and 
replacing them with French troops would be a good thing.
    Secretary Powell. We have always left ourselves open to the 
possibility that, depending on how long one needs a 
peacekeeping or stabilization presence in Iraq, will clearly 
lead to the desire to bring others into the game. It is not 
just the United States armed forces.
    The last thing we want to do is leave our Army there for 
some indefinite period of time where they are not honing their 
skills, they are not doing anything but standing around.
    To the extent that other nations can contribute to that, 
and as long as they are committed to the goals that we have and 
the objectives for the purpose of the conflict in the first 
place, then one should consider other contributions. Now, 
whether they would be French and Germans remains another issue.
    Mr. Kirk. Well, you formed a coalition of the willing. 
Hopefully we will have peacekeeping of the willing. But each 
one of those foreign peacekeepers coming in will be replacing 
one of our soldiers and that will be bringing them home and 
that is a good thing.
    We performed a number of small groups in the United 
Nations, small island states, G-77. Just one long-term issue to 
throw out there: Boy would it be great to see the United States 
forming a democracy caucus in the United Nations so that we 
always gather together only governments which are responsible 
to the elected representatives and meet regularly. And we have 
all these other subgroups. I think that would give enhanced 
legitimacy to our viewpoint.
    It certainly would not solve the French problem, because 
they are a democracy, but having the U.S. lead a subgroup of 
democracies in the U.N. may give a real impetus to our message 
and what we are doing. And democracies certainly do seem to see 
a lot of issues in the same way.
    Secretary Powell. That is very interesting.
    Mr. Kirk. Right, same idea.
    Thank you, Mr. Chairman.

                  Concluding Remarks of Chairman Wolf

    Mr. Wolf. I thank you, Mr. Kirk.
    Mr. Secretary, we are going to, kind of bring this to a 
close. There was a briefing that started at 4 o'clock on the 
floor with Secretary Rumsfeld.
    In closing, just to make a couple of comments, I agree with 
what Mr. Kirk said, and on that idea, also, with regard to the 
U.N., the U.N. does a lot of good things. The World Food 
Programme, UNICEF, WHO. But maybe you ought to get some of the 
best minds together, the people that are supportive of the U.N.
    Every organization after a period of time has to be 
reformed. No organization cannot. And maybe you might want to 
get some of the better minds together to come up with ideas, 
thinkers from all over the world, on what should the U.N. be 
like. Because this last couple of months was very difficult and 
maybe what Mr. Kirk said may not be a bad idea.
    We need the U.N. If it was not for the World Food 
Programme, the number of people dying would be unbelievable. 
But I think every organization can be reformed. And no one 
reaches the pinnacle of perfection and stays there.
    The other thing I want to just, kind of, comment on is this 
issue of Korea. I think we ought to consider sending someone to 
Korea, not to talk about nuclear weapons, but to talk about 
some of these humanitarian issues, the issues that Mr. Kirk 
speaks about with the refugees. There are brutal camps where 
people are in basically gulags, like Perm Camp 35.
    And I think you could send a humanitarian, not to discuss 
nuclear issues, but to discuss the issues of food monitoring. 
Does the food get to the people? Is all the food going to the 
army? What is taking place with regard to the refugees? And 
that would almost be a confidence-building measure that does 
not get into the nuclear weapons, but it begins the confidence-
building.
    And quite frankly on the issue of refugees, it is very 
painful when you listen to the German doctor who came back and 
talked about it.
    So I think these are issues on which the world would want 
to be engaged. We would. And I would send someone anywhere to 
talk about human rights, religious freedom, persecution, hunger 
and starvation. And I think you could almost bridge the gap of 
those who say, ``Unilateral,'' those who say, ``Bilateral,'' 
those who say, ``Send somebody,'' to send someone to focus on 
the humanitarian and the food and the refugee issue as a 
confidence-building measure, which may very well could possibly 
spill over.
    On the issue of the U.N. Human Rights Commission too, I 
hope you will call--Kofi Annan on that special envoy for 
hunger. Let them be based with Jim Morrison's operation in 
Rome. He or she could travel the world; frankly, you could put 
in CatherineBertini--who did a beautiful, wonderful job as head 
of the World Food Programme, to go out back and, only for a 
year, reporting to him, similar to the AIDS person does, to go 
to some of the nations who may very well be interested in 
helping him, but maybe they have not been asked. It is like in 
politics: If you are not asked, sometimes you do not help.
    And if you can raise that issue and also raise the issue of 
that special rapporteur for Sudan, if you would personally 
commit to staying engaged on bringing peace. Two million people 
have died, mainly Christians. Osama bin Laden lived in Sudan 
from 1991 to 1996.
    I believe what the Bush administration is doing may very 
well be bringing us very close. There has been tremendous 
suffering. I have been in southern Sudan four different times, 
tremendous suffering. Two generations have been lost.
    Quite frankly, I think if we are able to have this peace 
agreement signed, I think you ought to do it at the State 
Department or have it at the White House lawn.
    And quite frankly, I think if this works, I think President 
Bush, you, Senator Danforth, Kansteiner ought to be, quite 
frankly, nominated for the Nobel Peace Prize. I think this 
would be an unbelievable peace to end the suffering and the 
agony and the pain that has gone on to those people in the 
south.
    So I know you have other things on your mind, but Osama bin 
Laden started here. Terrorism started here. The people that 
killed Aidid got weapons out of here. They went back in. The 
people that tried to kill President Mubarak left Sudan and went 
into Egypt.
    But your personal involvement in doing this, to bring 
this--because we may very well be close--would be very, very 
important.
    I do not know that we can go above what the administration 
asked for. I guess we always could. I do not think you are 
asking enough on the embassy. I can assure you almost that you 
are not.
    And with all the effort, the loss of life and everything 
else that has gone into this, you want to have the men and 
woman that can fill in the gap once the time will come.
    In closing--and we welcome you here as a constituent. Since 
the lines were changed, I now represent your area. I do not 
know who you voted for; I do not really care. [Laughter.]
    But I am glad to have you there. Although it was my effort 
that widened the G.W. Parkway that gets you in to work. And it 
was my effort to add that new lane on the T.R. Bridge so you 
can sleep in 10 to 15 minutes later----
    [Laughter.]
    Mr. Serrano. He voted for you, Mr. Chairman.
    Secretary Powell. Mr. Serrano still claims me, though, Mr. 
Chairman. [Laughter.]
    Mr. Serrano. Oh, I still claim him. He voted for you. We 
had a long talk and I convinced him that you were the right 
candidate. [Laughter.]
    Mr. Wolf. I want to end by just making a personal comment. 
One, I appreciate your service. And, you know, I support what 
President Bush and what our administration is doing. I think 
the cause is just, I think, to bring about peace and democracy. 
And I think we should be using the word. It may not be a 
democracy to the way that we would like it, but democracy in 
Iraq.
    I also want to go on record supporting the troops. When you 
watch it, you are very proud. And the families. We appreciate 
Great Britain because I think Tony Blair is modeling himself 
after Winston Churchill. And I think future generations will 
think that he has done the right thing.
    I guess one last word I would say is, as we go about 
liberating Iraq, and the cause is just, there is a passage in 
Luke about ``He who humbles himself will be exalted and he who 
exalts himself will be humbled.'' And so I think with an 
element of humility, though, as we go about doing this, I think 
will be the right approach.
    And so with that, I just thank you for your service and for 
the service of the men and women at the Department. And with 
that, the hearing is adjourned.
    Secretary Powell. Thank you, Mr. Chairman.
    Thank you, Mr. Serrano.
                                           Thursday, April 3, 2003.

                          THE STATE DEPARTMENT

                               WITNESSES

 RICHARD ARMITAGE, DEPUTY SECRETARY OF STATE
 GRANT S. GREEN, JR., UNDER SECRETARY OF STATE FOR MANAGEMENT

                   Opening Statement of Chairman Wolf

    Mr. Wolf [presiding]. Good morning.
    We want to welcome both of you to the hearing today, and 
the hearing will begin.
    It is a pleasure to have before us today the Deputy 
Secretary of State, Richard Armitage, and the Under Secretary 
of State for Management, Grant Green, for their third 
appearance before the subcommittee. Let me just say, I 
personally appreciate the great cooperation that we have had 
from both of you and others in the State Department, and I 
thank you for your service not only here, but your previous 
service to the country.
    We will hear your testimony today regarding the fiscal year 
2004 budget request for the operations of the department, 
including the cost of improving the security of our employees 
overseas and other management improvement initiatives. This 
budget request includes funding to conclude your efforts to 
significantly increase staffing, both overseas and 
domestically.
    You are seeking funding for 677 new positions. If this 
funding is enacted, it will represent a historic increase of 
almost 2,200 American employees in a three-year period. And 
during some pretty tight budget times, too.
    In order for such an investment to pay dividends, we would 
hope and intend to insure--the subcommittee does--that the 
department is also advancing significant reforms and long 
overdue management improvements. We expect to hear today about 
the progress you have made on right-sizing our overseas 
presence, modernization of the department's technology 
infrastructure and a significant new proposal to accelerate the 
embassy security construction program through interagency cost-
sharing.
    I will also be asking today for your thoughts on the 
department's public diplomacy effort. I think this is so, so 
important. I think you will agree there is an urgent need for 
us to communicate more effectively, particularly to the Arab 
and Muslim world, but to the entire world, the values and the 
intentions and the objectives that underline our policy. What 
we are doing now with regard to public diplomacy clearly is not 
succeeding. Our policies are succeeding, but public diplomacy 
is not.
    First, I believe we have an outstanding story to tell and 
at this moment in history improving our ability to tell that 
story deserves our immediate attention and commitment. The 
world is watching our actions and our comments closely and will 
continue to do so in the post-Saddam Iraq. We must make certain 
that our voice is heard clearly and convincingly.
    Secondly, we must make sure not only that we are 
communicating effectively, but our actions are above reproach 
as we do that. We have to continue to hold to the highest 
ethical standards and, likewise, if the foreign press is 
reporting negative and inaccurate stories about U.S. actions, 
we must immediately and persuasively correct them. The nonstop 
sensationalist image is broadcast to the Arab world and people 
in Europe and around the globe by Al Jazeera are not the real 
story of this war.
    We must let the world know that we are a decent, 
compassionate and caring people whose overriding concern has 
been to protect the people of Iraq, to liberate them from 
oppression and to give them the opportunity to enjoy the kind 
of freedom our country has shed blood for to protect for over 
two centuries.
    Third, I believe we need to make a strong commitment to 
establishing a road map to bring about a lasting peace between 
the Israelis and the Palestinians. After we defeat Saddam, we 
should have a team assembled and ready to go. We should seize 
the opportunity to demonstrate our leadership on this thorny 
issue.
    And I would say to both of you, there may never be a better 
opportunity to bring about peace in the Middle East in the 
Arab-Israeli issue than immediately after the defeat of Saddam 
Hussein. It will show that America has been willing to lead on 
tough issues and be successful, but America is also willing to 
lead on this issue of bringing about a peace in the Middle 
East.
    There is probably nothing that we could do more that would 
help in the area of public diplomacy than to tell the wonderful 
story of America and its young men and women who are fighting 
so valiantly over there, but also to bring about and settle 
this peace with regard to what is taking place in the Middle 
East.
    And I would hope that you would have an individual, and a 
team, ready to go to take advantage. It is almost like when you 
are surfing. The wave comes up and if you miss the wave, 
sometimes you just lay out there and you never get another 
wave. This will be an opportunity. And I think by doing that 
can bring about peace in the Middle East and demonstrate the 
goodness of our country.
    I have included language in the supplemental, which will be 
up today, to establish an advisory body on public diplomacy. 
The gap between the required effective communications America 
needs and the uncoordinated and inadequate program we currently 
have is so great that I believe a body of experts, experts on 
the Middle East, on Islam and on public relations and 
communications, should review the entire field and propose the 
necessary changes.
    I mentioned this to the secretary last week, and we would 
like to hear your thoughts about this. My sense is we ought to 
have a panel; three people from the government that are 
appointed by the president or the secretary, nine from outside, 
give them maybe 60 or 90 days--this is not a long term thing--
and really come up with some creative ideas, and if that is one 
one track as you deal with the Arab-Israeli issue, I think 
there are some unbelievable opportunities.
    Before I recognize Mr. Serrano, there is another issue 
which I wanted to raise with you, and then perhaps you may want 
to address it. I would like to hear your comments. It is about 
this issue of the sale of Global Crossing.
    Global Crossing was guilty of malfeasance clearly, which I 
believe rivaled Enron and resulted in 10,000 employees or more 
losing their jobs, their health, and their life savings, 
including the losses to investors totaling $54 billion. This is 
now under investigation by the SEC and by our government, so I 
am not asking you to comment on the allegedly corrupt 
activities of Global Crossing.
    But even more disturbing is the disclosure in the press 
that there is an effort underway to help overcome U.S. Defense 
Department resistance to its proposed sale to co-bidders--
Hutchinson Whampoa Ltd., and the Singapore Technologies 
Telemedia.
    As you know, Mr. Secretary, Hutchinson Whampoa, Ltd. is not 
your run-of-mill Hong Kong conglomerate. According to 
declassified--and we have seen classified--but according to 
declassified DOD intelligence reports, the billionaire ownerof 
Hutchinson Whampoa, Li Ka-shing, is directly and I quote, is directly 
connected to Beijing and willing to use his business influence to 
further the aims of the Chinese government.
    The reason why that link is so disturbing is that Global 
Crossing's telecommunications clients include the U.S. 
military, your own State Department and other government 
agencies.
    In addition, Global Crossing controls approximately 15 
percent of the fiber optic lines connecting the U.S. with 
Europe, 23 percent with Asia, and 25 percent with Latin 
America.
    They are the same communication lines used by the U.S. 
military and other U.S. agencies as well as NATO. You may be 
aware in 1996 a subsidiary of Hutchinson Port Holdings was 
awarded the rights to operate two ports in Panama at opposite 
ends of the Panama Canal; Cristobal on the Caribbean side, and 
the Balboa on the Pacific side.
    The nexus to China is of great concern to me because China 
is one of the worst violators of human rights. There are now 
approximately 14 Catholic bishops that are in prison today, the 
number could be up or could be down, but roughly it is about 
14, who are in prison today in China, the last one for serving 
Holy Communion to Congressman Chris Smith. Serving Holy 
Communion to an individual is not an offense that ought to get 
you to go to jail.
    This is the same Chinese government that has persecuted 
thousands of Muslims in that western portion of the country. 
This is the same Chinese government that plundered and 
continues to plunder Tibet. They have 250 evangelical pastors 
that are in jail. China continues the crackdown on the North 
Korean refugees that are not only repatriated back to North 
Korea in direct violation of the convention, but we understand 
that there are bounties put on their head to hunt them down.
    China has sold missiles and chemical weapons and technology 
to Iran, missile-related components to Syria and advanced 
missile and nuclear weapons technology to Pakistan, and it will 
be interesting to go in to look at those records to see what 
China has sold with regard to Saddam Hussein.
    The other night when I was watching television and the 
missile attack on the shopping center in Kuwait, one of the 
reporters said that the missile had Chinese markings. So I just 
think for this company to be able to purchase Global Crossing 
would not be good when I think of the sacrifice that many of 
our young people are making in the Gulf.
    I would like you to comment on that, and it would be my 
hope that the administration would not approve this sale. I am 
going to send a letter to the Secretary of State and also to 
the Attorney General and to the other members of that panel 
asking that this sale not be approved.
    With that, again, I want to thank both of you for your 
service and for your cooperation and for the good job I think 
both of you have done.
    With that I recognize Mr. Serrano.

              Opening Statement of Ranking Member Serrano

    Mr. Serrano. Thank you, Mr. Chairman. Thank you for giving 
me the opportunity to once again welcome Deputy Secretary of 
State Richard Armitage and Undersecretary of State for 
Management Grant Green.
    You come before this subcommittee today during a time of 
sadness, while our nation is at war and during a time of many 
challenges for our State Department. It is a time when our 
State Department personnel are facing many new threats in the 
world that often views Americans as an enemy.
    It is a time when we must be particularly vigilant about 
the protection of our State Department personnel and the 
buildings where they work. With our State Department at the 
forefront of all that is happening in the world, you can be 
sure that I will work hard with Chairman Wolf to make sure that 
you have the resources that you need in fiscal 2004 to manage 
and conduct our nation's foreign policy both here and abroad.
    Let me just say before we begin the hearing that you are 
not on the list of agencies that I give a hard time to. 
[Laughter.]
    You do not kick immigrants out of the country for no reason 
at all. I would venture to say that you are not the ones most 
advising the administration to go into this war. That is my 
comment; you do not have to comment on that. In fact, for your 
sake and my sake, you should not comment on that. But after 
this is over, you will be in charge of the peace. It is 
interesting, someone else, another group now is really in 
conducting the war. But after the war is over, you will be in 
charge of putting in place the peace, how we are seen, how we 
are looked at by different countries, what we do. Those will be 
difficult times.
    I hope that your side wins in convincing the administration 
that the reconstruction of Iraq and the so-called occupation 
will be one that involves the U.N. and involves other people in 
a coalition. For me, that time will be difficult.
    Just to be brief but to the point, right before 
redistricting, I had a congressional district that had changed 
quite a bit in the last 10 years for the better, economically, 
housing, stock wise and so on. And in order to do those things 
that redistricting does, a good third of my district was given 
to another member, and I lost a few homeowners that I had and a 
few co-op owners that I had, and some of the folks had moved 
from one area to the other. All that to say that my district 
remains probably the poorest district in the nation, which it 
also was 10 years ago.
    With that in mind, if you think it is difficult for me to 
accept the monetary--the fiscal cost of the war, you can 
imagine how I am going to feel when I start to see hundreds of 
billions of dollars in rebuilding a place that we bombed while 
some bombed out places right here in this country do not see a 
penny.
    Nevertheless, I support your efforts. I support the fact 
that you always do everything you can, your State Department, 
and you personally, both of you, to make us look good 
throughout the world. And I believe that it is your intent to 
bring peace and to put the peace in place.
    I do have some concerns. I have concerns, as you know, 
about our involvement in Latin America.
    I have concerns about the fact that we purposely stopped 
calling people narco-traffickers and started calling them 
narco-terrorists. And I think that that was an excuse to get 
involved militarily. We have advisers in Colombia. I remember 
when we had advisers in Vietnam, and then it became a big 
problem. I said that Colombia could become for us a Spanish-
speaking Vietnam.
    I am glad to see that certain individuals in the 
StateDepartment, whose fingerprints were all over the attempted coup in 
Venezuela, are no longer able to put fingerprints on many things. And I 
am appreciative of the decisions that brought it to that point.
    But I am concerned about how much we carry on after this 
particular war.
    Having said that, I repeat to you that my role here and the 
role of my side of the table is to make sure that you get the 
resources you need, to be your supporters, to be your friends, 
because after all you are the ones who throughout the world put 
forth who we are as Americans. And I know that we are much 
better than the way we are seen right now.
    So I commend you for your work. I encourage you to keep 
your chin up as we face perhaps the hardest time, which will be 
after the war. And I stand ready to assist you in any way 
possible.
    Mr. Wolf. Thank you, Mr. Serrano.
    You may proceed how you see fit. Both of the statements 
will be in the record completely. And you can proceed.

                 Statement of Deputy Secretary Armitage

    Mr. Armitage. Thank you, Mr. Chairman and Mr. Serrano, and 
Mr. Rogers and Mr. Kolbe, Mr. Kirk. We have been spending a bit 
of time together lately.
    I really appreciate, Mr. Chairman, your holding this 
hearing today when we have a bill about to move to the floor, 
and you and Mr. Kolbe will both be managing sections of it. It 
gives us an opportunity to interact with you that we very much 
value.
    I want to say from the beginning that this committee has 
set for us on the CJS side of things a very high standard. We 
strive--and I am talking for all of the brothers and sisters of 
ours who are in the Department--we strive to reach those 
standards. We do not always make it, but we are going to 
continue to strive.
    I know one standard we do make, however, and that is 
something that was contained in the Carlucci report of a couple 
of years ago that became available for the incoming president 
and administration. That is to change the way we have done 
business with you all.
    I think you, Mr. Chairman, and I, and Grant, and others, 
have had a lot of interactions. We look forward to them, and we 
are better for them. We continue to do it, and do it at every 
level. It is not just to the Members, but to the staff, as 
well, because we are a lot better off when we really open up 
and do not view the Congress as something to be feared, but 
rather something to strive to work together with. I hope that 
that is the way you will view our efforts.
    You started off, sir, talking very correctly about public 
diplomacy. I noticed, I looked very carefully at the comments 
you and some others on the committee made to Secretary Powell 
last week. You are right. We are not doing enough right. We 
have a good story. For some reason, we are not quite getting it 
all out.
    I noticed today we got good help in getting a story out. 
This kind of thing, which was in The Post today, makes public 
diplomacy a lot easier when you see the people of Iraq reacting 
like that to an American serviceman, a member of the 3rd 
Infantry Division, right now on the outskirts of Baghdad.
    Public diplomacy is something, however, that I do not 
believe we have done correctly, speaking more broadly than just 
in the Islamic world. This morning before I came, I was taking 
the overnight messages. We had demonstrations at 16 of our 
embassies, which is down from the demonstrations we have had 
recently.
    The most violent of these demonstrations were in Australia 
and India.
    We had one that threatened last night to get out of hand--
it did not--in Mexico City.
    Our problem in public diplomacy is broader than just the 
Islamic world. We have to do a better job, and we are striving 
to do a better job.
    Charlotte Beers, who was the Undersecretary, came in with a 
lot of new ideas. But what we have to do, and which is a 
challenge for Secretary Powell and for Grant and for me, is to 
really put energy into our public diplomacy officers.
    I do not think it is a secret that when we melded USIA and 
the State Department, I think many in USIA did not feel that 
this marriage was working well. The marriage of ACDA and the 
State Department worked a lot better, I think, and went a lot 
easier.
    We recognize, the Secretary and I and Grant, that we have 
to reach out and wrap in our public diplomacy personnel to 
really make them part and parcel of our department.
    Your comments and the $5 million which is in the House bill 
for a public diplomacy panel is something the Secretary brought 
back with him last week and chatted with us about. We will work 
with you to see how we move forward on that, just as we worked 
with you on the Africa advisory panel recently.
    All our thoughts are with the men and women of our valued 
armed forces as they move closer and closer to Baghdad. Our job 
right now in the State Department is in a supportive role to 
them, to help ease the problems in the rest of the world, to 
help solve diplomatic conundrums as they move forward and need 
overflight and things of that nature.
    But I think it has become obvious to you and to members of 
the committee that our men and women are not ordained priests 
or priestesses of some exotic rite. They are people just like 
yourselves who are trying their best to live lives of 
significance. That being the case, we very much appreciate the 
unbelievably good support we have gotten from you all. And I 
want to thank you.
    Choosing to strive for a life of significance in the 
Department of State is not always easy. We have lost three of 
our members in the past year, most recently Larry Foley in 
Amman.
    Mr. Chairman, you were recently out in Ethiopia and 
Eritrea, and you know what the men and women who serve in our 
Department of State do, the conditions under which they serve, 
and some of the problems they face, particularly the one that 
you came back and highlighted so correctly. That is the problem 
of famine and disease and bad governance, which all adds 
together to make a very bad and explosive mixture.
    You raised the issue of Global Crossing, sir, and let me 
just make a comment, if I may, about the CFIUS process. We have 
in the U.S. government a Committee on Foreign Investment in the 
United States. It is chaired by the Department of Treasury. The 
Department of State sits on this, along with the Department of 
Defense, the law enforcement and intelligence communities, and 
the Attorney General.
    They review foreign purchases of U.S. corporations and 
companies to ascertain if there are national security problems 
and reasons why we would or would not go through with a 
particular sale.
    We are not allowed to comment on this. I can tell you, 
however, that the CFIUS discussion has not yet risen to my 
level, much less the Secretary's, but it is ongoing now on this 
situation. I will have to stop there.
    But I heard what you said about sending a letter both to 
the Secretary and the Attorney General, and we will, as always, 
answer it as best we can and when we can, sir. I will content 
myself in stopping there.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

        
    Mr. Wolf. Okay. Mr. Green----

                   Statement of Under Secretary Green

    Mr. Green. Mr. Chairman and members of the Subcommittee, I 
am happy to be here with the Deputy Secretary to testify on our 
2004 budget, and I will keep this very brief.
    I think today our management agenda, which supports the 
department's infrastructure, is probably more essential than it 
has ever been. Not just as it supports our role on the war on 
terrorism, but to address a whole range of support issues that 
will give this country the diplomatic infrastructure that our 
people in the field and from other U.S. government agencies 
need to do their work.
    Our management agenda, which was laid out by the Secretary 
on day one, is pretty simple. It is straightforward, and it has 
not changed. It is people, security, technology, facilities and 
the resources required to support those four pillars.
    Mr. Chairman, the bottom line is that with the continued 
support of the Congress, we are going to do our very best to 
give our people the infrastructure and the tools they need to 
do their job.
    I might add, as the Deputy indicated, that we recognize and 
very much appreciate not only the support, but the interest 
that this subcommittee has shown for our management 
initiatives, most recently on the 2003 supplemental.
    We look forward to working with you and the other members 
of the subcommittee as we address the many, many challenges 
facing the department as we continue to conduct diplomacy on 
behalf of and in support of the American people.
    Thank you, sir.

               FBI TRAINING AT FOREIGN SERVICE INSTITUTE

    Mr. Wolf. Well, thank you both. I have a number of 
questions, mostly budget issues. But let me cover some policy 
issues.
    One, the FBI is seeking to expand their language training. 
Would you permit the FBI to have slots at the Foreign Service 
Institute in Arlington? And if so, could you give us a letter 
agreeing that they could have some slots on a periodic basis to 
train some of their agents----
    Mr. Green. Sure.
    Mr. Wolf [continuing]. With regard to language.
    Mr. Green. Absolutely. We train people from many, many 
agencies.
    Mr. Wolf. Okay, if you could give us that letter, that 
would be helpful.
    Mr. Green. Certainly.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
               SPECIAL ENVOYS ON HUNGER RELIEF AND SUDAN

    Mr. Wolf. Secondly, I had raised the issue with the 
Secretary about calling Kofi Annan with regard to a special 
envoy with regard to hunger. Do you know if the Secretary made 
that call? Did he have any results?
    Mr. Armitage. I think you gave him two ``Do'' issues, Mr. 
Chairman.
    Mr. Wolf. I was going to cover the other one.
    Mr. Armitage. You gave him one on hunger and one on Sudan. 
He made the call to Kofi. I think he made the call on Sudan 
right before your hearing, and I think after it to Kofi Annan 
to talk about the question of an envoy on hunger.
    Obviously, there is Mr. Morris in WFP, who to some extent 
has responsibilities here. There are individual envoys for 
individual issues such as Maurice Strong and the DPRK right 
now; he has done other issues. But I know the Secretary has had 
the conversation. I do not have the full answer for you.
    Mr. Wolf. What about on the Sudan issue or moving Sudan 
from one category to the other?
    Mr. Armitage. Well, the Sudan issue had to do--the call had 
to do with the Human Rights----
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Wolf. Right.
    Mr. Armitage [continuing]. Commission. As you know, there 
is a difficult problem with Libya in the chair and some other 
members. The secretary wanted to get to Secretary General Annan 
to let him know we are not letting up.
     I think in a very real way the pressure that has been put 
on Sudan by the Human Rights Commission has led to the 
situation that you saw yesterday in Nairobi, where Bashir and 
John Garang did have a pretty good meeting, and they probably 
are 70 or 80 percent of the way to power-sharing and financial 
arrangements for a more peaceful Sudan. We are completely in 
sync with you.
    Mr. Wolf. Now, are our people in Geneva working, then, to 
defeat this resolution or asking the French or Libyans to 
withdraw it?
    Mr. Armitage. We are working to defeat it. I do not know 
that we have had a conversation with the French. I do not know 
what the status of the Libyans is. But of course we are working 
to defeat it. And I think the call that Secretary Powell made 
to Secretary General Annan sent the signal through the building 
about what the proper stance on this issue should be.

                      SUDAN CEASE-FIRE VIOLATIONS

    Mr. Wolf. Another issue with regard to Sudan is the concern 
that the Civilian Protection and Monitoring Team, CMPT, has not 
been able to investigate cease-fire violations for the last two 
weeks because the government of Sudan has rejected their 
request to investigate cease-fire violations. This in itself is 
a major violation by the government of Sudan.
    And I am hopeful, in fact, if there is a peace agreement 
signed, I think it ought to be either held at the State 
Department or held on the White House lawn. I mean, I think it 
is so momentous.
    But the State Department has not spoken out with regard to 
them having that ability. Do you know the latest status of 
this, whether or not they have been able to investigate these 
cease-fire violations over the last two weeks?
    Mr. Armitage. No, I do not. This is the first time this has 
been raised to me. I saw Walter this morning. This did not come 
up. It does not mean it did not happen. But I will find out 
immediately.
    Mr. Wolf. If you could, let us know if it is accurate, and 
also if the State Department has spoken out publicly about it, 
as well as privately.
    Mr. Armitage. If it is there, I am sure we have spoken up. 
I will give you a consistent answer as soon as I go back.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
                           WAR CRIMES IN IRAQ

    Mr. Wolf. Okay, are there any plans for a war crimes 
tribunal as a result of Iraq and what has been taking place 
over there the last couple of weeks? Does the administration 
have anything planned?
    Mr. Armitage. Well, what has happened in the last couple of 
weeks has not added measurably to the issue. We had plenty, we 
felt, of war crimes material well before the initiation of 
these military activities.
    Of course, depending on what happened to our POWs and MIAs 
in this conflict, that would add to the agenda. Pierre Prosper, 
Ambassador Prosper, who handles these issues for us, has met 
with interagency. We are prepared to move forward. We are going 
to see what the lay of the land is. But you will have noticed 
as we move forward, getting closer and closer to the initiation 
of conflict, that we became much more determinant on just who 
we would hold responsible.
    Mr. Wolf. Right.
    Mr. Armitage. After the conflict had begun, if we find that 
our prisoners have been mistreated by individuals, clearly they 
would also be candidates for war crimes.
    Mr. Wolf. So who would operate the war crimes tribunal? 
Would it be modelled after Sierra Leone? Or would it be 
something different?
    Mr. Armitage. I do not know what the status of that 
discussion with the British, who have a big equity in this, is. 
We are not as interested in public show trials as we are in 
justice----
    Mr. Wolf. Right.
    Mr. Armitage [continuing]. And the word will get out. I do 
not know that we have picked the exact model, Mr. Chairman.

                 USIA INTEGRATION INTO STATE DEPARTMENT

    Mr. Wolf. On the elimination of the USIA, which I think has 
put you at a certain disadvantage, my sense is that it probably 
would have been better had the USIA been moved intact, if you 
will, into the State Department, in a sense, almost like AID, 
where AID--Mr. Natsios reports directly to the secretary, but 
the AID is intact, if you will.

                        INTERNATIONAL RELATIONS

    I know the Committee is looking at reorganization, but you 
just may not have the mechanism or the structure now. Are you 
looking at that in the Department?
    Because the message that you have is a good message. I 
mean, the message of America is a good message. It is the 
message that brought probably all of our grandparents here, and 
so it is a good message. It resonates.
    Just go to Roman today, and Bulgaria today, and Poland 
today, and Czechoslovakia today. You have such a good message, 
but you need mechanisms to take that message not only to the 
Middle East, I think particularly the Middle East, but also to 
some of our European allies and places like that.
    Should there be a reform or a change simultaneously as we 
attempt to get the message out whereby the USIA structure can 
be reestablished under the State Department?
    Mr. Armitage. I think the obvious thing to say is that 
everything can be improved upon, and I have already indicated 
that in my opening remarks.
    There was, as with any organization, I think a certain 
amount of trauma or neuralgia, if you will, when the USIA was 
melded into the department.
    I think, from where I sit, the better part of wisdom for us 
is to make sure that we make it clear to all our public 
diplomacy folks that they are a full member of the team. I know 
one of the ways we do this is on a D-Committee on which Grant 
and I both sit, which makes ambassadorial suggestions and 
appointments, at least nominations, to go to the White House, 
to make sure that we include head and shoulders PD officers. 
That is one of the ways to indicate they have a career in this 
outfit.
    I think my initial answer would be that it is probably 
better to make this thing work right by making sure we embrace 
them and make sure they understand, to a person, that they are 
fully owned and appreciated by the Secretary of State.
    Second, I think that--I came from the private sector most 
recently, and I know that it took our private sector a long 
time to realize there were a lot of things different in the 
world from 20 years ago. Our major corporations could go out 
and kick the tires, whether it is in Malaysia or in Europe, and 
just walk around with an order pad and take orders for our 
goods. Well, things changed, and we had to get out and compete 
a lot more. I think we in government generally did not really 
cotton to how quickly things changed in the world.
    The populations in which we are most directly concerned 
right now, the Middle East and Islam, are populations that are 
by and large very young; the big youth bulges. I do not think 
we stumbled onto that, to the change that brought, the 
demographic change, until recently. Oh, yes, students of 
foreign policy and people who do demographics understood this, 
but I do not think we had translated it into our thinking on 
which target audiences we should really involve ourselves.
    Of course, we have switched now, we are having many of our 
exchanges with much younger audiences and are putting a lot of 
emphasis on high schools. I think that is a perfect example how 
we came to it a little bit late. Demographers could have told 
us this eight, 10 years ago. As a government it is only 
recently, in the last two or three years, that we have kind of 
switched. That is something that we all have to do better on.

                    DIPLOMATIC READINESS INITIATIVE

    Mr. Wolf. Okay. Well, I am glad. The Secretary gave me 
every impression that he was open to this commission concept. 
And I appreciate that because, although I do not believe--I do 
not want it to look like I think a commission is going to solve 
the public diplomacy problem, but I think it is--and in 
fairness to State, some of your people have been struggling 
trying to do things that I am not sure anyone really knows.
    But I think to go outside and have a combination of some 
people inside and outside who will speak truth, if you will, 
and put together some ways of telling a story.
    Two budget issues, then I will recognize Mr. Serrano. 
Fiscal year 2004 is the third and final year of your Diplomatic 
Readiness Program. You are seeking roughly $100 million for 399 
new positions.
    If we were to look at a typical embassy at the end of 
fiscal year 2004, compared to two years ago or three years ago, 
what improvements would an individual expect to see as a result 
of the initiative?
    I mean, if we had gone there, somebody had gone there four 
years ago and went there at the end of 2004, what would that 
person see?
    Mr. Armitage. At the end of 2004, there is still going to 
be a bit of a gap. We have had two, actually two and a half new 
developments. We have had Kabul, and we are going to have 
Baghdad, as you pointed out very clearly to the Secretary last 
week, Mr. Chairman, and we have had East Timor, with Ambassador 
Rees who has come aboard.
    These are new staffing patterns that had not even been 
considered when we put together the Diplomatic Readiness 
Initiative. We are delighted they are here with us.
    There will still be a need for more spaces. I will let 
Grant finish my answer, but I think I would start by saying you 
are able to send people from those embassies, anyone you would 
pick, back here to FSI and to other places for the leadership 
training, which was the single biggest gap Secretary Powell 
identified in terms of training for our people.
    During their entire career officers had until they got to 
be DCM, if they rose to that level, they had no leadership 
training, and all of a sudden they were thrown in the deep end 
of the pool.
    Secretary Powell, who spent a life going almost every other 
tour to some leadership school or another, saw this as a real 
lack.
    The first thing I would say is you are able to send people 
to schools, and we are taking advantage of it.
    Second of all, we are actually able to let some people 
leave post on occasion, and this was not the case. We had real 
difficulties with leave, et cetera, because we had no float.
    Grant.
    Mr. Green. I might just add that the 1,158 people that were 
encompassed within that Diplomatic Readiness Initiative 
realized that those are spaces, those are additional spaces, 
the majority of which were required overseas.
    As Rich said, what this recruiting effort--at least those 
1,158 positions which we will complete in 2004--will permit us 
to create and fill those additional spaces, most of which were 
overseas, and provide this trainingfloat that the deputy 
alluded to, so that we can get people back here for training.
    Incidentally, we have instituted a lot of mandatory 
training now, which was unheard of before the Secretary 
arrived.
    It also gives us a little bit of flexibility so that we can 
have a cadre of people who we can pool together to react to 
crises, just as we are doing now in Iraq, instead of pulling 
people out of their existing jobs at posts or out of the 
bureaus here.
    That is what that 1,158 will do.
    Now, that is often confused with the total recruiting 
objective. We still recruit for attrition and other things.
    As Rich said, we are going to have to look at the staffing 
again, principally overseas, as a result of events in Iraq and 
Afghanistan, and I would certainly not eliminate the 
possibility that in 2005 we will come back with another 
additional requirement, for some lesser number, obviously.
    We are going to have to run our overseas staffing model 
again to see what those requirements might be.

                           EMBASSY IN BAGHDAD

    Mr. Wolf. Okay. Well, that pretty much--the second question 
we were going to ask you, last week in the testimony the 
secretary hinted that you would be seeking more staffing 
increases above and beyond those at the current level, and I 
wondered if you had any work force identification as to----
    Mr. Armitage. I was going to say that we have an idea where 
we would like to be in Baghdad, for instance, for the State----
    Mr. Wolf. Do you have an embassy in Baghdad? We do not 
have--in the old days----
    Mr. Armitage. Yes, we did.
    Mr. Wolf. And is it still standing?
    Mr. Armitage. Well, it is standing.
    Mr. Wolf. And what was the use for it during the period of 
time that we were not there?
    Mr. Armitage. As I understand, it was fairly unused most of 
the time in the last 12 years.
    It was not used for, as far as I know, for any particular 
purpose. The old embassy was on a piece of land that was 
purchased in 1945. I do not know the exact age of the building, 
but it was pretty ratty, I think, when we left it 10 or 12 
years ago. No setback, none of that. We would eventually want a 
new embassy.
    Mr. Green. It would not meet any of the requirements today.
    Mr. Wolf. Would not meet any?
    Mr. Green. No.
    Mr. Wolf. So are your intentions--in the money, the 
committee, there is money for leasing.
    Mr. Green. Correct.
    Mr. Wolf. $20 million, if I believe.
    Mr. Green. Correct.
    Mr. Wolf. Do you have some plans to, with regard to--I 
think you are going to be in Baghdad for a while.
    Mr. Armitage. We are going to be in Baghdad for a while.
    Mr. Wolf. Do you have a plan with regard to a new embassy?
    Mr. Armitage. Yes. Once we know what the lay of the land 
is, we have a rough estimate. I think it is around $137 
million, but it is in the out years.
    For the embassy building, sir. The staffing plan would be 
about 200 Americans total, for all agencies in the embassy, of 
which about 71 one of them would be State positions; 16 of 
those would be security.
    Mr. Wolf. And that is not in this year's----
    Mr. Armitage. No, it is not, sir.
    Mr. Wolf. So if you miss this wave, you literally would 
have to wait until a year from now, unless you reprogram. So 
are you thinking of coming up with regard to----
    Mr. Green. The $20 million, sir, would be to refurbish a 
hotel which--we have identified which would provide interim 
office capability, plus quarters for the limited number of 
people that we would have there initially.
    Mr. Rogers. Some of those presidential palaces----
    Mr. Wolf. Mr. Rogers said you can take one of the 
presidential palaces.
    Mr. Rogers. If they are still standing.
    Mr. Wolf. Well, I think you ought to let us know as we go 
into that, because you may have needs that, you know. Okay.
    Mr. Serrano.
    Mr. Serrano. Let me just follow-up on a couple of questions 
because I am not clear on why you would want $20 million to, in 
part, renovate a hotel when you could be asking for the full 
amount up front and start building the embassy.
    I mean, most people--you might get an argument from some of 
us about rebuilding Iraq, but you are not going to get an 
argument about building an embassy. So why would you take $20 
million to go into a hotel, go through all that trouble and 
then be building one? Why can't you start right away?
    Mr. Armitage. Because of the requirements that were put on 
us, sir, by OMB when this supplemental came forward. We tried 
to be very alert to a possible charge that we were gold-
plating, et cetera. The limits for DOD were for a plan for a 
30-day conflict with a six-month occupation force, and for us, 
the programs had to be ones that we could obligate the funds 
for sure by the end of the calendar year. That is why we took a 
very cautious approach.
    Mr. Green. Sir, excuse me. This would give us a quick 
interim facility in a hotel while the acquisition of a site and 
the design of a full-blown embassy compound were done.

                     HIGH SCHOOL STUDENT EXCHANGES

    Mr. Serrano. I understand that. But all I am saying is, 
those folks are going to start complaining about phase two, 
which is the rebuilding. The whole idea of setting up a hotel 
for $20 million when you could start using that to build a new 
place may be a good argument.
    I am just telling you that you will probably do better with 
everyone in both houses if you start building right away. And I 
am sure there are other places you can stay. I mean, our 
military's staying in different places and so on.
    And another thing. You spoke about high schools, which was 
a great idea. Now is that here, overseas, or in both places.
    Mr. Armitage. We are bringing exchange students here. We 
also send some kids over there, but we are putting a lot of 
emphasis on using education and cultural affairs money and 
bringing high school students here and immersing them to learn 
the lesson that the chairman was speaking of, that we are 
pretty open, permissive, in a positive way, in terms ofpeople 
who could have different views, different religions and still get 
along.
    The fact that you can walk about 10 or 15 minutes in any 
direction from this office from where you are sitting now and 
go into a Catholic church, a Protestant church, a temple or a 
mosque is pretty impressive to people. That is the lesson we 
want them to get.
    Mr. Serrano. Well, I think it is a great idea, and I would 
hope you expand it also to let American youngsters know about 
the State Department and the role you play in our foreign 
policy, because too many people just have no clue what you do.

                         FOREIGN SERVICE EXAMS

    Mr. Armitage. We are hopeful. You know, sir we have 
occasionally sent you letters, and you have had conversations 
with various of us about the way people have changed their 
approach to the Department of State. We had, what, 18,000 last 
year who took the exam; 36 percent minority. That is up 9 
percent in a year, which you can argue is not enough, which is 
probably right, but it is pretty damn good.
    The fact that we get a record number of people signing up 
to take the Foreign Service exam is a sign, I think, that some 
people want to sign up and like the way the Department of State 
generally is headed and what they do.
    Mr. Green. We gave two exams last year. Thirty-five 
thousand people took the Foreign Service written exam. Thirty-
five thousand. There was about 17,000 each time. Of that number 
who subsequently go through oral exams and then security 
clearances and so on, we would bring on each year about 460. So 
you can see that we can really skim the cream off the top.

                    DEPUTY SECRETARY FOR MANAGEMENT

    Mr. Serrano. Let me ask you, Under Secretary Green, the 
president has nominated you to be the new deputy secretary for 
management. In the past, there has been some reluctance to fill 
this position. Can you tell the subcommittee how you expect 
your new position to positively impact State Department 
management issues?
    By the way, you did not write this question. [Laughter.]
    Mr. Green. No, I did not write that question.
    Mr. Serrano. Just for the record.
    Mr. Green. If you would just indulge me for a moment, this 
is a report card on the Secretary's first two years of 
stewardship put out by the Foreign Affairs Council, which is an 
umbrella organization that includes the American Academy of 
Diplomacy, our union, AFSA, the Associates of American Foreign 
Service Worldwide, diplomatic and consular officers retired, et 
cetera, et cetera, et cetera. This is going to be publicly 
released next week, but I would just like to read one short 
paragraph here.
    It says, ``In his first statement upon becoming Secretary 
of State, Colin Powell announced, quote, I am not coming in 
just to be the foreign policy adviser to the President; I am 
coming in as leader and manager of this department.''
    ``True to his word, Secretary Powell assembled one of the 
strongest management teams in the history of the State 
Department, led by himself as CEO, Deputy Secretary Rich 
Armitage as COO, and Undersecretary of Management Grant Green.
    ``He also dedicated a significant proportion of his daily 
schedule to leadership and management issues, and continues to 
do so.''
    I appreciate and I understand what was attempted to be 
done. My name has gone forward a couple times. But having 
served in this job for now slightly more than two years, your 
effectiveness is much more affected by relationships than by 
title. I happen to have a 26-year relationship with the 
Secretary and more than 20 years with the Deputy. That is what 
enables us to do the kinds of things that we have been able to 
do in the department.
    I send out every quarter an accomplishment report to the 
field, to every single individual. We hope every single 
individual gets it, which lists the accomplishments in the 
management area, what we are doing to make life better for our 
employees.
    Some of them are pretty mundane, and some of them are very 
significant management changes. We have been successful in that 
because of the access that I have to both the Secretary and the 
Deputy, and the interest that the Secretary and the Deputy have 
taken and continue to take in these kinds of issues.
    One thing that we do every night when the Secretary is in 
town--and if he is not Rich does it--we have a wrap-up. We 
discuss the events of the day. We tie up loose ends.
    There are only four people that attend that wrap-up--the 
Secretary, the Deputy, the Under Secretary for Political 
Affairs, Mark Grossman, and myself. In addition to wrapping up 
daily business, it sends a very strong signal to the department 
that these two guys care about management. I think we have done 
a pretty good job, and we have done it as an Undersecretary.

                    MILITARY INVOLVEMENT IN COLOMBIA

    Mr. Serrano. Well, I would hope that that continues. One of 
the concerns in the past was the lack of some of the management 
pieces.
    Let me just take one second here to ask another question in 
another area, the policy area, and then I will give up my time 
to the rest of the committee.
    I am really concerned about U.S. military involvement, as 
you know, in Colombia, Mr. Secretary. Originally we were 
providing aid to address counter-narcotic concerns, and we were 
given assurances that we would not become militarily involved 
in Colombia in a war.
    I remember in the Appropriations Committee during a mark-
up, standing up and taking a lot of people's time just to say, 
you know, ``We are going here in a bad direction.'' And 
everybody said, ``No, this is just for this. It is all it is.''
    Then the administration asked us to expand the mission of 
the United States aid to Colombia to remove the distinction 
between funding for counter-narcotics and counter-terrorism. 
The first installment of that expanded mission was $99 million, 
$93 million in 2003 and $6 million in the supplemental, to 
train and equip troops to guard the Occidental Oil pipeline.
    Now in addition to the funding for Colombia included in the 
supplemental, there is another $110 million in foreign military 
financing requested for fiscal year 2004. This funding is not 
just to guard the oil pipeline, but it is to guard, quote/
unquote, ``infrastructure.''
    We are moving further and further down, in my opinion, the 
slippery slope that I have cautioned about in the past. Where 
do we draw the line for Colombia and military involvement?
    Mr. Armitage. Mr. Serrano, I think most witnesses whocome 
up consider it a successful day if they escape without getting into an 
argument with a member. I certainly do not want to get into an argument 
with you, but I want to point out our view and my view on this question 
of whether--first of all, whether it is narco-traffickers or narco-
terrorists.
    I think that when the FARC loads up a night club and kills 
35 people and wounds 168 that had nothing to do with 
prosecuting any conflict, certainly not in uniform, that is 
terrorism. I think when you have a brand new democratically 
elected president like President Uribe and the FARC fires 
mortars at the inauguration in a clear attempt to kill as many 
people as possible, including, by the way, a high-level 
delegation from the United States, that is probably terrorism.
    Now, the direct question--or the answer to your question is 
as follows: Both the Byrd Amendment, which limits U.S. military 
presence, and the Leahy Amendment, which requires, correctly, 
the human rights vetting of military organizations before they 
can have our assistance, are essential parts of our approach to 
Colombia.
    With President Uribe, we feel we have a guy who is serious 
about having a country that can move forward meaningfully in 
the region and not be just a haven for narco-terrorists. In 
order to do that, he had to do a lot of things internally, such 
as get a handle on the paramilitaries and try to break the grip 
or the nexus, if you will, between his army and those 
paramilitaries. He has prosecuted some of them. On occasion, 
they have exchanged gunfire, which seems to me a fair 
indication of bona fides.
    He has not only asked President Bush for assistance, which 
the President has said we will try to provide, but he has put a 
one-time tax on his own folks to be able to raise money to go 
after his problem, which is narco-traffickers or terrorists.
    Finally, he is trying to get rid of the inequities that 
exist in things such as the draft law in Colombia, where high 
school graduates were exempt from service. They have a problem; 
everyone has to be part of the solution.
    That is what President Uribe's trying to do. We find that 
it is very worthy of a lot of support.
    But I want to make it clear to you, sir, that as far as I 
know, and I think I know, there is no attempt to evade the 
restrictions of the Byrd Amendment or the Leahy Amendment. We 
embrace them.
    Mr. Serrano. Let me close by saying that I think we are 
getting back to the old Ronald Reagan language of what 
constitutes terrorism. I mean, I am sure that after this war is 
over some people are going to accuse us of some acts that we 
are going to have to clean up, which I know we are not 
committing, but that is how some people in some parts of the 
world will see it.
    If you call it the left--it used to be the left, and now it 
is just a bunch of thugs--but if the left are terrorists, then 
what does that make the paramilitary on the right? And what 
does that make the corrupt governments that they have had most 
of the time in the center?
    So my whole point is that we really have to be careful in 
taking sides on issues. My problem with Colombia is I cannot 
tell who the good guy is, because traditionally there have been 
no good guys. It is all a bunch of bad guys, with a serious 
problem, and we are taking sides.
    And so, well, you know where my concern is?
    Mr. Armitage. Yes, sir, and I want to add----
    Mr. Serrano. And I will continue to remind you of that 
concern, because, you know, we in this profession love to do 
one thing, we all do. We love to say, ``I told you so.''
    When it comes to war and peace I want to be wrong. I want 
to be wrong on Colombia. I want you to say, ``You see? Nothing 
happened.'' I want to be wrong.
    But I do not think I am wrong.
    Mr. Armitage. Well, we are not in the I-told-you-so 
business, and neither are you. You have never done that, as far 
as I know since I have been up here.
    There is a necessary and, I think, vibrant tension that 
exists between the executive and legislative branches. Our 
system demands it, requires it.
    But I want to make a point. When we talk about Reagan 
language, you know, there was a lot about the Reagan Doctrine, 
and one of the key tenets of the Reagan Doctrine was that my 
enemy's enemy is not necessarily my friend, which is the point 
you are making about corrupt governments.
    Mr. Serrano. Right.
    Mr. Armitage. In order to be worthy of U.S. support they 
have to share some of our basic values. They have to adhere to 
our view of human rights and things of that nature.
    I understand where you are going, but I want to make the 
point that we are not just blindly rushing in here. My enemy's 
enemy is not necessarily my friend.
    With President Uribe, we think we have a guy who is serious 
about changing his country. If he continues that way, I think 
we ought to be continuing that way.
    We are very disappointed with a lot of people in Europe and 
other places who flap their jaws about this, and then when we 
go to donors' conferences, et cetera, and ask them to help 
Colombia, on the soft side of things, they are a lot of talk 
and no action. All hat and no cattle.
    Mr. Serrano. Thank you, gentlemen.
    Thank you, Mr. Chairman.
    Mr. Wolf. Thank you.
    Mr. Rogers.

                     MANAGEMENT AT STATE DEPARTMENT

    Mr. Rogers. Good morning and welcome again. I apologize for 
my voice. You know my interest, and that is the functioning of 
the department. I have sat on this subcommittee now for 21 
years, through some four, five or six secretaries and 
administrations, most of that time either as ranking or 
chairman of the subcommittee. And the one thing about State 
that has always been a problem, and that is management of this 
extremely far-flung organization, with personnel who are 
wonderful diplomats, but who are characterized generally by a 
lack of management skills.
    I am saying that as diplomatically as I can. [Laughter.]
    So consequently, over the years my interest has grown in 
trying to see that the department was--employed at least 18th-
century management skills. And I think you have us up into 
maybe the mid-18th century here. But we have still got a long 
ways to go: the use of modern-day means of communication, the 
use of modern machinery and gizmos to protect us out there, the 
use of management--private enterprise-engendered management 
practices is something that, I think, this subcommittee ought 
to spend a lot of its time doing.
    We recognize here that we are not policy-makers. This is 
not a policy-making subcommittee. We do not make state policy, 
foreign policy, do not pretend to, do not have any interest in, 
frankly. But what we are, we are mechanics down in the engine 
room; while others are up there steering the ship, we are down 
here trying to fix the furnace and to fix the boiler and to 
kick on the tires to be sure that we are getting the best bang 
for the buck down there. And then, so consequently that is 
where I come from.
    And the last time you were here, both of you, last year, we 
had a rather pointed discussion about the need for a deputy 
secretary for management. And of course, that was written into 
the law. And you have nominated Mr. Green for two successive 
Congresses now, and the Senate sits on that. I am not sure you 
are too worried about the Senate sitting on that because I do 
not think you want to do that, obviously, as you have said 
before.
    But I am thinking of the time when you will not be here. I 
am thinking of the next time. And I am thinking of the last 
time.
    Now, I concede and admit and compliment you on some good 
practices you are putting in place. If you were the only, if 
you were the last, if you were going to be forever, Mr. 
Armitage, the deputy secretary, and Mr. Green, the assistant 
for management, I would not worry much about this.
    But unfortunately for us you are not going to be there 
forever. There will be another time, and we will have to rely 
on Mr. Green, not upon personal relationships with the 
secretary, but with the title of the office and the power that 
you get in that office from the law.
    And so, I am very disappointed that the Senate, apparently 
sits on this, happily twiddling their thumbs. And I am 
disappointed that the secretary does not complain about that.
    Nevertheless, I understand the real world of politics. But 
I do think that for the good of the department we need that 
position and the authority that it brings and the symbolism of 
that out there amongst the troops, the employees of the 
department, knowing that someone is out there looking after 
them that has nothing else to do but that.
    Now, Secretary Armitage, you know, he is involved in 
policy, he is involved in 10,000 things, including management. 
And it is important, I think, that the department have somebody 
who is doing nothing but management issues who has the 
authority by law to make things happen--not only relationships, 
but by law.
    The one thing I have noticed going around all these 
embassies over the years and kicking the tires in the garage 
and checking the elevators and looking at the roof and talking 
to personnel at great, great length, the one thing up until 
this administration came in, was the lack of a place for those 
people to go to get a remedy for just a simple problem in the 
embassy or the operation there: ``We cannot get this air 
conditioning fixed. We cannot get practices to change our 
consular service or what have you.'' That is all I heard out 
there.
    I have not heard that much lately. I think you are doing a 
good job, but I wish you would institutionalize what you are 
doing.
    Mr. Armitage. May I? I know you are going to ask a 
question. Mr. Chairman, may I just make a comment?
    Mr. Rogers. Please.
    Mr. Armitage. You do not have to be diplomatic. There is no 
one in the Department of State who is going to claim that 
historically we have not been managerially challenged. It is 
almost folklore.
    It is one of the things that the Secretary, when he talks 
about leadership and management and sending people off, he is 
trying to indicate, sir, that we are in a hurry. You are in a 
hurry, correctly, to get this fixed for future generations. You 
want to make an institutional change, and so do we. We are in a 
hurry.
    Please do not condemn either Grant or me to a lifetime of 
this. This tour will be just enough, thank you, however long it 
lasts.
    The goal is exactly the same. I know what you are saying. I 
think it was two years ago we had a rather sharp exchange, and 
last year we got away pretty well. And I was delighted. We also 
moved Grant's name over to the White House and nominated him.

                          RIGHTSIZING AT POSTS

    Mr. Rogers. Let me ask you a couple of quick questions. I 
do not want to take too much time here.
    Right-sizing, one of the recommendations of the Carlucci 
report was to establish a process to right-size our embassy 
posts. We all know that certain embassies have too many people, 
perhaps some have too few, maybe one or two are just exactly 
right, but probably only that many. You know, last year we 
talked about this.
    In the 2003 omnibus bill, the chairman wrote language, and 
I quote, the conferees continue to be disappointed at the 
failure to make discernible progress in the pursuit of an 
administrative-wide process of determining the right size and 
makeup of overseas posts, including the explosive staffing 
projects at posts scheduled for new office buildings and so 
forth, end of quote.
    This continues to be a concern of ours. What are we doing 
about right-sizing?
    Mr. Armitage. I will start out. Grant sits on the 
management review team. We have to at least learn to read the 
report language and follow it.
    OMB is leading the effort on right-sizing. One of the 
complicated--Grant can explain--one of the complicated factors 
for us--and this is not an excuse, this is a fact, that we, 
correctly, I believe, have had requirements that were left 
languishing and not addressed for too long and have now been 
put on us, such things as trafficking in persons, and more 
attention to human rights. There are absolutely correct things 
to be doing. The Department of State ought to be a leader in, 
but we weren't for years.
    These things come, and we have assigned officers to them. 
We might think we have an embassy or a place pretty well 
situated for the challenges they face, and then we come along 
and add, correctly, a requirement on them.
    This is a real movable feast that we are trying to deal 
with.
    Grant.
    Mr. Green. As you know, Mr. Rogers, it is a very 
complicated issue. We in the Department have a mechanism to 
deal with right-sizing. We go through a Mission Performance 
Plan process, and a Bureau Performance Plan process. We have 
identified strategic objectives. We have outlayed people 
against those objectives. We are down now to counting the 
percentage of time people spend on certain things. We have, as 
I mentioned before, an overseas staffing model.
    We have pretty much achieved internally the ability to 
right-size ourselves. We also--I should have prefaced my 
remarks by saying, we also happen to agree with GAO's 
definition of right-sizing. I will just read this short 
sentence.
    ``Right-sizing is aligning the number and location of staff 
assigned overseas with foreign policy priorities and security 
and other constraints. Right-sizing may result in the addition 
or the reduction of staff or a change in the mix of staff at a 
given embassy or consulate.'' People tend to look at right-
sizing as down-sizing, and it is not necessarily downsizing.
    Mr. Rogers. Well, the problem I have is, I have been 
hearing this 21 years that we are going to right-size, we are 
going to adjust the size, we are going to modify and so on; 
nothing ever happens.
    And the reason it does not happen is, you know, it is, sort 
of, an esoteric question. Most people say, ``Oh, what the heck? 
Who cares how many people we have in Paris or whatever?'' Well, 
we care because we got to find the money for you. And so, we 
are expecting some real progress here. You know, I have read 
all these things, and sure it is wonderful talk, but nothing 
ever happens.
    Mr. Armitage. If I can make a suggestion, sir, if you would 
indulge us, I do not mean at this moment, but at the earliest 
moment of your convenience to have Chris Burnham and his 
colleagues come up and show you how we are going about it.
    I know what you are saying. For 21 years you have seen it 
come and go, and nothing ever changes. I think we have both a 
Mission Performance Plan and Bureau Performance Plan that can 
give you at least some comfort that we can measure these 
things, so there can be some measurement in which you and your 
colleagues can apply money toward or take it away.
    If you will indulge us. I know what you are saying, I am 
not arguing with it, but I really think we have something that 
can make you pleased.
    Mr. Rogers. I do not mind you arguing at me.
    Mr. Armitage. I am not arguing with you on this case. I am 
in the same direction. But I think we have something to be 
proud of, and I would like the opportunity for Christopher's 
guys to show them.
    Mr. Rogers. I would like to see that. I really would.
    Mr. Green. Also, as the Deputy indicated, we have finally 
convinced OMB that they have to take the lead on this. They 
have to take the lead because they are the only ones that can 
influence the other departments and agencies to any degree.
    Let me just read something again; I hate to keep referring 
to notes. But in the Federal Page of the Post on April 1st: 
``The FBI plans to open new offices in Kabul, Jakarta, 
Indonesia and eight other foreign capitals,'' blah, blah, blah, 
blah, blah. The FBI says that there is no substitute for face-
to-face contact''--we do not disagree.
    ``If the $47 million''--I do not know where this comes 
from, but--``if the $47 million expansion is approved by the 
Congress, new offices would be set up in Sarajevo, Bosnia, 
Jakarta,'' da, da, da, da, da. ``Congress agreed to give the 
FBI money to open new legat offices in Abu Dhabi, UAE, Kuala 
Lumpur,'' et cetera, et cetera, et cetera.
    That is what our chiefs of missions face, and we do not 
have much leverage when five guys show up on the doorstep. That 
is why OMB has got to take the lead. They have to make other 
agencies realize what it costs them to have a person at a post. 
Our assistance in that is going to be, as the chairman 
mentioned, cost-sharing if we can finally get it, and that is 
making agencies pay for desks at embassies.
    Mr. Rogers. We had a similar type thing a few years ago. I 
cannot think of the name of it. It had a name. It is cost-
sharing in the embassies.
    Mr. Green. Well, we have ICASS. That is just administrative 
support. If you want to bring on five people, we have to hire 
an additional secretary and everybody agrees that they will pay 
their share of that additional secretary, but that is 
administrative.
    This is actually paying based on the table of organization. 
``If you, the FBI, want five desks, you are going to pay for 
those five desks and you are going to pay every year''--this is 
our hope, if we can get the mechanics through OMB--our hope is 
that that will go for 10 years, and then it will be out of it 
because we will have established a pool to build all the new 
embassies we need.
    Mr. Rogers. Well, congratulations. Where is OMB on it now?
    Mr. Green. They agreed with the concept. It is for us and 
OMB to work out the mechanics of when it starts, and we hope to 
start it in 2005. It will go for 10 years. It will be phased in 
over five years.
    Mr. Rogers. If it works, it means State is going to have a 
lot of extra money.
    Mr. Green. Yes, sir.
    Mr. Rogers. Not extra money, but money that you need, that 
you are not getting now.
    Mr. Green. That we can build 15 embassies a year instead of 
eight or nine that we are doing today.
    Mr. Rogers. Exactly. Well, I hope it works out.
    What percent, if you know right now, average the personnel 
in a typical embassy is non-State personnel?
    Mr. Green. Two thirds of the people in our embassies 
overseas are non-State.
    Mr. Rogers. Two-thirds?
    Mr. Green. Two-thirds.
    Mr. Rogers. That is everyone?
    Mr. Green. No, that is Americans.
    Mr. Rogers. That is American personnel?
    Mr. Green. Correct. That is why this kind of leverage like 
cost-sharing, as an example, and OMB holding other departments' 
feet to the fire on what the costs are, is so darn important.

                        AMERICAN PRESENCE POSTS

    Mr. Rogers. Before I run out of time here, and I wish to be 
real brief with you here, American presence posts.
    Mr. Green. Yes, sir.
    Mr. Rogers. I came to be a real admirer of that when Felix 
Rohatyn engineered it or started--experimented with it in 
France during the last--his tenure. And I have visited those 
posts and talked to personnel, and I have talked all around the 
world about it, and I am a fan of it. What do you all think of 
that?
    Mr. Armitage. We have seven of them now. When I was last in 
Moscow, we were looking at one out there. Izmir, Turkey was the 
latest one we opened--one person, a non-classified post. In 
secure areas they are fantastic. They are fantastic.
    Mr. Green. We are also doing some other things that are 
slight modifications of that. One of them is called avirtual 
presence post. One happens to be in Cardiff, Wales, where we have about 
175 U.S. companies represented. What we do is. send an officer from 
London who will come over once a month for a week, occupy that place, 
answer questions, meet with businesses and so forth, but we do not have 
a full-fledged, you know, 24-hour-a-day, seven-day-a-week presence.
    Another modification of that which we are doing more and 
more of, is called different things, but in Russia, as an 
example, they are called American Corners. We have a computer 
and information on how to do a visa or a passport, which will 
be in a corner of a library or a community center. The local 
librarian will be the one who will talk to foreign residents 
about how to do certain things and whom to contact.
    That is just a flag that----
    Mr. Rogers. Well, I was really impressed in France, 
Ambassador Rohatyn promised us at that time if you will give us 
these posts, he said, ``I will not ask for any additional new 
money or personnel; I will take them out of Paris and disperse 
them out there into the countryside where the real world is, 
you know, where American presence, business interests and so 
forth.''
    Mr. Armitage. Ambassador Rohatyn could have paid for it out 
of his own pocket.
    Mr. Rogers. That is right. He may have for all I----
    [Laughter.]
    Mr. Rogers [continuing]. I am joking about that.
    But I visited some of those posts. You know, a two or 
three-person post in Marseilles or wherever with some foreign 
nationals working there in an office building with no big seal, 
no big bullseye on the door, no Marines. They are out their 
servicing the American business community primarily, and 
perhaps some other issues as they come along. But it just 
disperses our State Department personnel out to the real 
countryside.
    Recently in Australia, I talked to some of the personnel 
done there. They would love to have that in Australia, and that 
might be a good place to look because it is secure and it is 
also such a huge geography with certain big commercial 
interests in the corners of that country.
    Well, I am glad to know that that you like those.
    How many more do you think you might put in?
    Mr. Green. We do not have any requests that have been put--
--
    Mr. Armitage. We have one in Moscow, the Russian one.
    Mr. Green [continuing]. On the table. That is the--yes, the 
Russian one.
    Mr. Rogers. Well, I would hope you would do it on your own 
initiative rather than being asked. I would like to see you ask 
them.
    Mr. Armitage. It would make next year's hearing a lot 
easier, wouldn't it?

                             BERLIN EMBASSY

    Mr. Rogers. It certainly would.
    Now, quickly and finally, Mr. Chairman, where are we on the 
Berlin embassy?
    Mr. Green. All of the agreements with the neighbors and so 
forth have been consummated. I think that we are just about 
ready. I think they are talking about breaking ground late this 
calendar year.
    Mr. Armitage. Yes, the contract was awarded in September. 
Depending on 2004 appropriations, that would begin the 
construction. The setback issue was solved by--you have been 
there, so you have seen the re-routing of the streets.
    Mr. Rogers. They are re-routing the streets?
    Mr. Armitage. Yes, sir.
    Mr. Rogers. The one out in front of the building?
    Mr. Armitage. The what, sir?
    Mr. Rogers. The streets that is in front of the building 
will be moved?
    Mr. Armitage. Right. The traffic will not be going--the 
German government has made an arrangement with Ambassador 
Coates.
    Mr. Rogers. Well, that was the hangup before. I met with 
them there two or three times.
    Mr. Armitage. That is a beautiful spot. That is the right 
spot.
    Mr. Rogers. Terrific spot. But when do you expect to begin 
to work on that construction?
    Mr. Armitage. What I have is construction in fiscal year 
2004, so the end of this year if the funds are appropriated.

                        VISA INFORMATION SHARING

    Mr. Rogers. All right.
    I want to submit some questions at least for the record on 
border security on the operation of the consular offices as it 
relates to homeland security here.
    I have been trying for 20 years to get State and INS to 
share information about who is coming over here on a visa, 
unsuccessfully; but I understand now that is in the works.
    Mr. Green. Yes.
    Mr. Rogers. Could you tell us where that is?
    Mr. Green. We are providing information to the INS out of 
our databases, so that it is at every port of entry. I cannot 
answer whether or not they have the equipment at all locations 
to read that information.
    Mr. Armitage. We are in the process, sir, of working out an 
MOU with the Department of Homeland Security, and the result of 
that MOU will be something that is of enormous interest as it 
will document all these interactions from INS, State and the 
FBI.
    Mr. Rogers. Well, there was a big debate, of course, that 
took place. I am sure you were in the middle of it recently 
when we formed the new department about what, about whether or 
not the visa issuing personnel at state would be Department of 
Homeland Security employees or not.
    And the decision was that they would be State Department 
employees. However, I am told that they would be supervised----
    Mr. Armitage. Well, they will exercise policy judgment 
through the Secretary of State, so they will put the policy in 
place at the Department of Homeland Security.
    Mr. Rogers. Yes.
    Mr. Armitage. We will do the issuing through the Secretary. 
Tom Ridge will give the Secretary that direction for Consular 
Affairs, and we will implement it.
    Mr. Green. The bill also requires that they have people on 
the ground in Saudi Arabia, and they may have people on the 
ground at our posts in other countries; but, as you realize, 
sir, they already have folks in our embassies in the form of 
customs and DEA, and they may choose to, depending on their 
manpower, to double-hat some of those people.
    Mr. Rogers. Well, another thing I want to know here is will 
you guarantee us that the consular personnel that issues visas 
will share that data with the Homeland Security people?
    Mr. Green. Absolutely.
    Mr. Armitage. One hundred percent.
    Mr. Rogers. Because half the, over half the illegal aliens 
in the U.S. now came here on a visa that State issued somewhere 
and INS never learned that they were here.
    So they simply overstayed their visa and no one ever checks 
on it, and that is got to stop. Do you agree with that?
    Mr. Armitage. Oh, yes, and the Attorney General's efforts 
recently to give an amnesty, let everybody come down, declare 
themselves--no harm, no foul, really made proof--or proved the 
point of what you are saying.
    We found people that we did not even know were here.
    Mr. Rogers. Yes.
    Mr. Green. Yes, but I think those, in fairness, sir, those 
were INS systems. I mean, the entry into the country and the 
tracking of those people is an INS responsibility.
    Mr. Rogers. Well, that is one of the reasons we abolished 
the INS. It no longer exists. But we have the remnants of that 
now into Homeland Security, of which I have deep interest in 
now, and so we have to have this cooperation between State, the 
consular visa issuing people and the FBI and the CIA and 
whatever.
    Mr. Green. Our databases are being provided to INS.
    Mr. Rogers. Good. Thank you very much.
    Mr. Green. Yes, sir.
    Mr. Rogers. You are the chair--Mr. Kolbe.

                           EMBASSY IN BAGHDAD

    Mr. Kolbe. Thank you very much. I have a chance to ask the 
policy questions, so I am going to ask a couple of management 
questions and I will be brief, because there are other members 
that have been waiting here.
    Let me just, first of all, on the embassy that you spoke 
about a moment ago in Baghdad, are we talking about a new 
location?
    Mr. Armitage. Yes, sir.
    Mr. Kolbe. In other words, we are going to have to get new 
property?
    Mr. Armitage. Yes, sir.
    Mr. Kolbe. Okay. And the $20 million that is, are you 
talking about the $20 million in this bill or in the 
supplemental?
    Mr. Green. The supplemental.
    Mr. Armitage. The supplemental, sir.
    Mr. Kolbe. But, obviously, it will not build the thing? 
That is not going to be sufficient for the whole thing?
    Mr. Armitage. No, that is for the hotel and a couple of 
temporary vans, and so on.
    Mr. Kolbe. So that is not even for acquiring the site?
    Mr. Armitage. No, it is not, sir. It is for travel costs 
and things of that----
    Mr. Kolbe. So we are really talking several years----
    Mr. Armitage. Oh, yes.
    Mr. Kolbe [continuing]. Down the road for a permanent 
embassy here?
    Mr. Armitage. Yes, sir.
    Mr. Kolbe. Five, six, seven years, right? Okay.
    Mr. Armitage. Well, we could go into a temporary one in the 
not too distant future, but a full----
    Mr. Kolbe. For a permanent one.
    Mr. Armitage. For a permanent one then you are correct, a 
couple of years, several years.
    Mr. Kolbe. No, five, yes, an acquisition----
    Mr. Armitage. Yes, it is, it may not be five but it is not 
one.
    Mr. Kolbe. The ones that I have been through on acquisition 
of the property is, sometimes takes five to 10 years on the 
acquisition. I was hoping we would do it faster.
    Mr. Green. The new OBO is faster.
    Mr. Kolbe. The new what?
    Mr. Green. The Overseas Building Operations is faster.
    Mr. Armitage. One would hope after this that perhaps we 
would not have to take five years to negotiate it with the 
Iraqi authorities.
    Mr. Kolbe. Okay.
    Mr. Armitage. New.
    Mr. Kolbe. But it is obviously going to be quite a while 
before we have a permanent embassy there, and so we are not 
even looking at----
    Mr. Armitage. Yes, sir.

                USAID MANAGEMENT AND DEPARTMENT OF STATE

    Mr. Kolbe. Okay. Let me just ask you about the management 
issue that you talked about earlier, Mr.--Secretary Green, 
talked about the report that you had there.
    USAID is--which I am responsible for through my 
subcommittee is, of course, as you know, is an appendage of 
State Department administrator--is an appendage of the State, 
and with Natsios, of course, reports to Secretary Powell.
    I am wondering whether the report that you referred to 
there--I know that is an outside report--but does that have as 
a perspective the management of USAID?
    Mr. Green. I do not think it does, sir. I just got this 
yesterday, an advanced copy of it. I do not think it has----
    Mr. Kolbe. Oh, no, take it back, page 19, yes it does.
    Mr. Green. Okay.
    Mr. Kolbe. Well, the fact that you were not aware of it may 
be the answer to the question, my question on the thing. It 
just seems to me to be one of the problems we have is that AID 
management is just--almost seems like kind of a side issue 
here, not really focused on it.
    And I am wondering whether you people--how much input you 
people have into the oversight to the improvements and the 
management of USAID?
    Mr. Green. Well, we are--sir, we are working right now with 
AID to incorporate them into our whole planning process. They 
participate in the MPP and BPP process now in senior reviews 
which the Deputy chairs. That is where everybody comes in to 
justify their requirements. They participate with the bureaus 
because they obviously work with the bureaus hand-in-hand. They 
also come in and justify their own budget and operations 
separately.
    Also, as I said, we are including them now, integrating 
them, into our planning process and our information technology 
systems. They have their own management improvement system in 
place. I think they call it B-tech.
    Mr. Armitage. Yes, now the question--first of all, what we 
are looking at in AID. We have to see if there is a way in the 
management area--such as their systems, that we can eliminate 
duplication--that is one thing. Chris Burnham is taking the 
lead for the Department of State, working with his colleagues 
at USAID. In terms of management, you know better than anyone 
here the creative tension that has always existed between State 
and USAID.
    I will let Andrew speak for himself, but he meets dailywith 
all of the Assistant Secretaries and the Secretary. And he meets fairly 
often with me alone if there is a management issue or a difficulty. I 
would say at that level, my words would be that it is a good 
relationship in terms of management.
    I think if you went down in the organization and asked that 
question, both within the USAID and the Department of State, 
you would find quite a different answer. They would not feel 
the same degree of interaction and mutual interest in each 
other's management.
    Mr. Kolbe. Well, they are--USAID is our--and I think to 
some degree with our pushing--has been making an effort to 
improve some of its management functions, the financial 
management, the procurement. And I think this goes with what 
Mr. Burnham's role of trying to eliminate some of those 
duplications there, the human resources management, the same 
areas there.
    I am wondering if you had a chance to look at any of those, 
if you have any assessment of the efforts that are being made 
there? I am wondering if you had a chance to look at any of 
those, if you have any assessment of the efforts that are being 
made there.
    Mr. Armitage. We looked at the financial management--Chris, 
may I ask the committee?
    Mr. Kolbe. Yes, of course.
    Mr. Armitage. He was taking to the chairman, the Assistant 
Secretary for resource management.
    Mr. Burnham. Yes, sir. We are integrating with USAID in a 
number of different ways to make this a seamless execution of 
American foreign policy abroad; not only in terms of the 
beginning of our planning processes, since the strategic plans 
are now integrated. Our strategic goal framework, the 12 goals 
of the government of the United States abroad, are all 
integrated now with USAID.
    As Mr. Green and Mr. Armitage mentioned, the beginning--the 
foundation of the planning process are mission plans that every 
embassy submits which give notice of planned mission 
performance. USAID's goals for that mission and that country 
are integrated in that plan. They then rise up to the level of 
a Bureau Performance Plan.
    We begin those reviews under the chairmanship of Mr. 
Armitage May 15. USAID participates at all levels of that. From 
a standpoint of systems, OMB as well as Under Secretary Grant 
Green, rightfully wanted to examine whether or not there was 
duplication going on. There certainly was, in that we were both 
choosing an off-the-shelf product produced by AMS.
    We got together with the working group. That working group 
produced a plan. We had an independent successful validation of 
that plan. We are now executing that plan. As we roll out a 
global accounting system, we are going to include USAID in that 
one global accounting system.
    However, in addition to that, there are other areas that 
Under Secretary Green will task us to look at, such as 
information management systems and other areas that have been 
raised, such as diplomatic security, perhaps foreign language 
training. There are areas where we can collaborate for greater 
integration.
    Mr. Kolbe. So you are saying that all of this is being 
integrated with AID, that what you are talking about just 
describing to me is a State Department-wide initiative. Is that 
correct?
    Mr. Burnham. Planning and strategy are all being 
integrated----
    Mr. Kolbe. Procurement, all of these issues.
    Mr. Wolf. Would the gentleman just yield for a second?
    Mr. Kolbe. Yes.
    Mr. Wolf. There is only two minutes left. Have you voted?
    Mr. Kolbe. I did not.
    Mr. Wolf. I did not think you had noticed. And we will 
protect your time. You can come back and begin where we left 
off.
    Mr. Kolbe. Thank you.
    Mr. Wolf. I will just fill in, but we are waiting for--to 
come back. But I did not know if you knew. You are down to one 
minute.
    Mr. Kolbe. Thank you.

                        PUBLIC DIPLOMACY FUNDING

    Mr. Wolf. There is a vote going on. I went down and voted 
to keep you here so we can keep moving, and we will go back to 
both of them as they come back.
    Why did the supplemental not request any new funds for the 
public diplomacy program?
    This subcommittee has put more money in than the 
administration has asked for. It was $5 million above the 
request.
    Why did the administration not ask for more money on this 
issue?
    Mr. Armitage. The feeling in the Administration was that 
the combination of the 2003 money, which we received just 
recently and the 2004 bill in public diplomacy would be 
sufficient.
    That was combined in the request, Mr. Chairman. Part of the 
request has MEPI, Middle East Partnership Initiative, which has 
a good bit of Muslim world outreach in it as one of the key 
pillars. It was felt that that would also take up some of the 
slack, if you will allow me to use that term.
    Mr. Wolf. Well, I think it is very important. And I am not 
going to ask this public diplomacy question because you kind of 
covered it.
    The Zogby poll--the one I saw the other day--showed very 
low favorable views of the U.S., only 4 percent in Saudi 
Arabia. There were 17 Americans killed in Riyadh, working, 
guarding the Saudis.
    We sent forces to the Middle East in Desert Storm to 
protect the Saudis. We are at 4 percent. I do not want to keep 
using an analogy of a product because it is not fair.
    It is like if a company had an outstanding product, a 
product that would cure the most dreaded disease or do 
something like that, but it only spent a little bit of money to 
promote the product to let people know. Like the Bible says, do 
not hide your light under a bushel basket. We are hiding our 
light under a bushel basket.
    I think OMB has been a problem on a lot of these issues. I 
mean, I have worked in an administration for five years, once 
with a Secretary, and they are a problem. They were a problem 
on the hunger issue. Andrew Natsios and the Secretary, you guys 
were out in front on the hunger in Ethiopia and Eritrea when 
they were just digging in and saying, ``No, no,'' and 
everything else. On this issue, they are also a problem. I 
really think we have to spend the adequate money.
    It pains me when I watch Al Jazeera and the negative stuff 
coming out about the country that we both serve. And I think we 
have to tell the story. So I think OMB just has to put some 
additional money.
    After a while the committee cannot just plus-up something 
where there is no intention by OMB to move ahead.
    Mr. Armitage. You have been great on this. As 
Undersecretary Beers said previously, the whole department has 
recognized this.
    I think if we look at the problem with 4 percent in Saudi 
Arabia and 8 percent here or 30 percent somewhere else, it is a 
complicated problem. If you ask them if they like Americans, 
the answer is quite different; generally, they do. If you look 
under the chadors in Iran, if you look under the veils anywhere 
else, they are wearing American products.
    Their approach to us is a function of a lot of things. Al 
Jazeera is certainly a big part of it. Some of it is our 
policies for which we make no apology, particularly support for 
Israel, but that has an effect on it.
    Other things affect it. Saudis who come here and get, in 
their view, shaken down at airports, sometimes strip searched. 
It happened overnight, from their point of view. We know that 
15 of the 19 people who caused this grievous harm to our 
country were Saudis.
    From their point of view, they want to come into New York, 
they want to come to California, want to send their children to 
the University of San Diego. All of a sudden, no, they are not 
welcome visitors anymore, and so that chips away at it.
    There is a whole host of things that cause a 4 percent or a 
6 percent result. There are frustrations in their own home with 
their lack of jobs and lack of freedom of expression to some 
extent within an Islamic context. It is a very complicated 
equation.
    Mr. Wolf. Thank you. Mr. Kolbe.
    Mr. Kolbe. No, I think my questions were probably answered.
    Mr. Wolf. Okay. Mr. Kirk.
    Mr. Kirk. Thank you, Mr. Chairman.
    Good to see you again.
    Mr. Armitage. Thank you, sir.

                           WAR CRIMES IN IRAQ

    Mr. Kirk. That is right. This is all Navy side.
    I gave you a memo on war crimes. I worried that we would 
see Iraqi chemical use as early as this weekend. And I would 
hope the department would be ready to move a war crimes 
resolution in the Security Council in the same news cycle as 
that use.
    Dr. Sharif Basiuni, who was the author of the resolution on 
Yugoslavia, provided a draft. This is going to be a very fast 
moving situation. But, boy, would I like to see the French vote 
against a war crimes resolution after a confirmed Iraqi 
chemical attack. It would be very difficult. And I think that 
would be a chance for us to put together----
    Mr. Armitage. I will have the Ambassador call you as soon 
as I get back to the department.

                         INTERIM IRAQ AUTHORITY

    Mr. Kirk. That is great.
    And on public diplomacy, I hope we are moving forward on an 
Iraqi interim administration, because that person, if we name 
them, will get 50 percent of the news coverage that right now 
is entirely commanded by the Iraqi information minister.
    Mr. Armitage. If I may, I will tell you where we are on 
that. In your note to me, you talked about a provisional 
government. That is a different thing. The term you used is the 
one we are using, an interim authority. The reason we are 
cautious about this is that we know very well the expatriate 
Iraqis who have fought 20 years to change this regime, and we 
respect them and know them intimately. We do not know how they 
are viewed within Iraq, so that calls for a little caution as 
we move forward.
    By the same token, we know through certain channels some of 
the people in Iraq. As we move forward, our Marines and Army 
personnel move forward, they find which tribal sheiks and which 
leaders have been in opposition for 20 years within the 
country. Clearly they have to have a big role. As I indicated 
in front of the committee the other day, sir, probably the 
balance is slightly weighted toward the internal.
    We want to have an interim Iraqi authority. It will not be 
one that is completely democratically chosen.
    We are going to move forward very shortly with some sort of 
transparent process in which Iraqis give us their views of how 
best to form that interim Iraqi authority.
    Then how best to move toward a permanent, democratically, 
transparently elected government, which will probably, in some 
fashion, have to recognize the aspirations of all 18 provinces, 
certainly Sunni and Shia, certainly Turkmen, Assyrian, Chaldean 
and Kurds, who are the only democratic bunch there now.
    Mr. Kirk. Right.
    Mr. Armitage. If we do not use the term provisional 
government and use interim Iraqi authority, I think then where 
you are and where the administration is are the same spot.

                             AID TO TURKEY

    Mr. Kirk. That is great, that is great. We are going to 
have a big battle about Turkey this afternoon, and we just got 
Condoleezza Rice's letter which said that Secretary Powell--
both sides agreed on the unimpeded flow of humanitarian aid to 
northern Iraq, and access by American forces to supplies sent 
through Turkey.
    Turkey continues to grant overflight rights and is 
committed to enhanced cooperation on terrorist threats and 
possible refugee flows in the region without moving additional 
Turkish military forces into Iraq.
    Can you talk about the $1 billion for Turkey, and what is 
the administration's view on that and what would happen if a 
resolution in the Congress was adopted cutting that aid?
    Mr. Armitage. I thank you. Dr. Rice's letter is followed by 
one that I wrote this morning in the Secretary's absence, which 
is coming up to the Appropriations Committee, Mr. Chairman, and 
it expands on the points she made.
    As Secretary Powell did, she not only got agreement on 
those things mentioned in her letter but got the Prime 
Minister, Minister Gul to stand up publicly and say, ``We are 
part of this coalition, and we are doing this.''
    We have been publicly committed to what he said to the 
Secretary. The $1 billion was as much to keep a long-time ally 
from going under as it is a recognition of overflight rights or 
things of that nature.
    As I said, I think, before you joined the other day, sir, 
in the committee, the biggest irony of all would be ifwe expend 
so much treasure and, unfortunately, blood to liberate Iraq only to 
find the next door neighbor, who has been a long-time ally of ours goes 
bottoms-up because of an economic problem.
    We settled on the number of $1 billion, which Treasury, who 
took the lead in the discussions with Turkey, determined could 
be used to leverage against $8.5 billion in loans while we 
simultaneously, assuming the Turks continue their activities 
for structural reform and economic reform, will support them in 
the IMF and the World Bank.
    Mr. Kirk. Thank you.
    Mr. Armitage. It would have a grievous effect on the 
markets in Turkey if this $1 billion were not granted. The 
announcement that the Administration put it in, and realizing 
that it had to go to the Congress, buoyed and actually lifted 
the markets in Turkey.
    I think you could expect quite a shock if it did not go 
through.

                   STATE DEPARTMENT PRESENCE IN CHINA

    Mr. Kirk. Thank you. I wonder if I can ask Secretary Green 
a longer-term question. When we go to the appropriations bill 
for the regular year, I will want to ask you for, to formally 
look at the future of the State Department in China.
    We currently have six establishments in China, but China 
has over 100 cities totalling a million or more. I do not want 
the United States to be in the position that the British 
government was in, say, in 1900 with only one little embassy 
and nothing going on in Chicago and Los Angeles and other major 
American cities, missing an enormous, Earth-shattering thing, 
which was the rise of the United States.
    I was hoping can you tell me what your long-term view is on 
the presence in China, and where we are going with this 
country, which is now the third-largest economy, second-largest 
in population and what the IMF says, which will be the second-
largest economy in a short time?
    Mr. Armitage. I do not know if we are smart enough to know 
how many and where the posts are. We thought we were pretty 
much aligned to where both the major industrial and population 
centers, as well as the cultural centers are.
    We are not real strong in an area of interest to the 
chairman, and that is in Xinjiang Province area, though we 
travel there quite often.
    I take your point. I do not know that we have figured it 
out. But I will take it and go back to the EAP bureau and talk 
to them about this.
    Mr. Kirk. It is just that a long-term thing, Mr. Chairman, 
with this bill--I would like the department to plot out in 20 
years where we would like to be, because I certainly do not 
want to be where the British Foreign Office was with regard to 
the rise of the United States.
    Mr. Armitage. Yes, and I have been thinking about your 
question. You asked if where we are, generally, of course, 
where the majority of the wealth and the people who are making 
policy are.
    They are all up and down the coastal region, for the most 
part, which represents only a couple of hundred million of the 
1.3 or so billion.
    The people in the interior are the ones who have the 
problems. If there is a problem, agriculturally or otherwise, 
that is where the problem will be, so we leave ourselves open 
to some charges of not knowing what is going on.
    Mr. Green. We are also where the greatest concentration of 
immigrants to the U.S. is.

                  SARS AND STATE DEPARTMENT EMPLOYEES

    Mr. Kirk. Great. Related to China, I am concerned about the 
condition and advice you are giving to our official Americans 
and their dependents regarding SARS, the new strain of 
pneumonia breaking out in Asia.
    Can you tell us what you have told the official State 
Department family, for example, in China, Japan, et cetera?
    Mr. Armitage. China's just come in for authorized 
departure, and we are going to allow them. When we do that, we 
send the same warning out to the entire civilian population.
    Our warning followed exactly the CDC warning. It was both 
public and to the embassy. We cannot have a different warning 
to our folks than we do to the public.
    Mr. Kirk. Right.
    Mr. Armitage. We do not do that.
    WHO, in an unprecedented move, just came out with an even 
stronger warning to Americans saying not to go to Hong Kong, 
and I think to some other areas in China. Those are echoed by 
us.
    As I say, the embassy has just come in for authorized 
departure. We are going to agree to it. That came in this 
morning.
    Mr. Kirk. Yes.
    Mr. Armitage. Vietnam came in the other day. They are out, 
and we are looking at others. There is quite a bit of fear.
    Mr. Green. We have already got a couple of our consulates 
in China that are on authorized departure--Hong Kong and 
Guangzhu. But this will incorporate everyone within the 
country.

                            UNESCO AND OECD

    Mr. Kirk. Great. Thank you.
    UNESCO: $71.4 million request as we rejoin. Any thought of 
saving costs by maybe combining the ambassadorship for OECD 
with UNESCO?
    Mr. Armitage. We thought about it, we looked at it, and 
that would be an easy thing to do. We made the decision, 
though, having rejoined UNESCO--the White House made the 
decision they want their person in it. This was an initiative 
of the President. They are going to put their person in, and we 
are going to have a separate post. We have budgeted, if you 
will, for eight people and one ambassador in Paris for that.
    Mr. Green. We may dual-hat some people.
    Mr. Armitage. Underneath the ambassador.
    Mr. Green. Underneath. And we may be able to save some by 
co-location or adjoining locations and not come up with a 
completely separate building.

                         MACHINE-READABLE VISAS

    Mr. Kirk. Okay. That is good. Although I will put in, my 
wife loves Paris. She would be very happy to help out.
    On the machine-readable visas, you are on a bit of a budget 
roller-coaster. Can you tell us what you are collecting now----
    Mr. Green. Sure.
    Mr. Kirk [continuing]. And how you even plan----
    Mr. Green. Well, what we did in 2002 was $941 million.
    Mr. Kirk. Right.
    Mr. Green. That is everything, including machine-readable 
visa fees. We collected $360 million on machine-readable visas, 
specifically.
    In 2003--and you realize we have raised the price twice on 
the visas and once on expedited passport fees--we are now at 
$100 for machine-readable visas. In 2003 we are estimating $600 
million on machine-readable visas only, for a total of $1.3 
billion. And for 2004 we are estimating $800 million on 
machine-readable visas and a total of about $1.5 billion.
    The reason it goes up, which is contrary to intuitive 
thinking, is because we have a cost-of-services study ongoing 
now which will probably recommend that we raise the price of 
the machine-readable visa again to probably somewhere around 
$140.
    Mr. Kirk. $140?
    Mr. Green. Yes.
    Mr. Armitage. We have really suffered in the wake of 
September 11, and now we will see the effects of this war.
    Knowing of your interest, I asked for some figures about 
non-immigrant visas from 2001 to 2002, and we have 2.1 million 
less people.
    Now, that clearly will be even lower this year.
    That was non-immigrant. In student visas we are down about 
60,000 from 2002 versus the 2001 number. That is another 
reason.
    Mr. Green. But we are still doing 6.5 million visas a year. 
Even though the numbers may be coming down, because of what we 
have to do in interviews and so forth, the work load is going 
up. We are also shifting the work load of our consular affairs 
people so that foreign service nationals are very limited in 
what they can do. Even the consular associates, which are 
generally the spouses, who have had training, are more limited 
in what they can do.
    Mr. Kirk. I am glad you are doing this. I hope we go to 
$140, that we try to get more cost recovery.
    Mr. Green. I think we are going to be there.

                            DIPLOMACY CENTER

    Mr. Kirk. Yes. That is very good.
    Last question. We have a request for a diplomacy center, a 
museum, at the State Department. Think we might want to hold 
off on that this year now that we are going into debt the way 
we are?
    Mr. Armitage. Yes.
    Mr. Kirk. Yes? Good. [Laughter.]
    Mr. Green. We will look at that.
    Mr. Kirk. Right. Right.
    Thank you.
    Thank you, Mr. Chairman.

                            CRIMINAL ALIENS

    Mr. Wolf. Thank you, Mr. Kirk.
    I continue to be concerned about the threat to the safety 
of American communities that is posed by the release of 
deported aliens who have been convicted of violent felonies 
because their home countries refuse to take them back.
    The Immigration and Nationality Act stipulates that the 
State Department will discontinue the granting of visas to 
certain countries upon being notified by the attorney general 
that those countries deny or unreasonably delay accepting an 
alien under final orders of removal who is a national of that 
country.
    The fiscal year 2003 bill includes language prohibiting 
funds for the granting of visas in such instances and stating 
that the attorney general shall notify the secretary of state 
in every instance when a foreign country denies or unreasonably 
delays accepting such an alien, thereby triggering the visa 
sanction.
    As you know, a recent Supreme Court ruling stated that 
criminal aliens cannot be held indefinitely once they have 
served their sentences. When their countries refuse to take 
them back they must be released.
    Some of these people have committed very serious crimes. 
For instance, those deported but not accepted by Vietnam 
include an individual convicted of aggravated sexual assault 
and aggravated sexual contact, while another served time for 
shooting with intent to kill and driving under the influence.
    I understand that INS has already released 2,000--2,000--
such aliens because they can no longer legally hold them. The 
provision in the bill gives the federal government the needed 
leverage to convince other countries to reverse their current 
practice and accept the return of these deported individuals on 
a timely basis.
    Can you describe for us how you are planning to put this 
language into practice?
    Has Attorney General Ashcroft or Secretary Ridge--because 
that probably would have been transferred to Ridge with the 
change--already begun to notify you in every instance where 
countries are denying or unreasonably delaying the return of 
these people?
    And, lastly, have you suspended the issuance of visas 
anywhere? And Vietnam, ought to be the first country.
    Mr. Armitage. I will tell you precisely what we are doing, 
sir. In 1996, the authority, which we call Section 243(d), was 
written into law, and gave the Attorney General the right to 
make these judgments. We invoked it on Guyana last year. And 
guess what? It worked. It worked and it solved, to some extent, 
our problem with Guyana.
    The President of Guyana just came to see me recently. Among 
the issues he raised was, ``We need a little bit of help with 
these fellows who we took back.'' I said, ``What do you mean?'' 
He told me a story of having a policeman who stopped a fellow 
for a traffic violation on a motorcycle, took the bag off his 
shoulder and found two semiautomatic weapons in there.
    This was a fellow who had gotten real tough on our streets, 
and he is taking what he learned here back to Guyana. The 
President did not complain about having him back. He accepted 
the fact that this was his problem, but he wanted a little help 
on re-integrating these folks.
    The largest problems we have are not Vietnam, Laos and 
Cambodia, though I will get to that. The largest problem we 
have in terms of criminal population is China, Mexico and 
India, which is, I guess, not surprising. They have the largest 
countries in the world.
    Vietnam, Laos and Cambodia are ones that we are working 
with the governments on now, trying to come up with a nominal, 
financial re-integration package. We give them back their 
folks. They accept that these are, in most cases, people that 
were not from the war days. They are people who came here 
subsequent to that.
    They say, ``We have to re-integrate them into our society, 
so how about a little help.'' We are trying to work that out. 
That is where we are. That is in consultation now with the 
Department of Homeland Security, which until a couple of months 
ago was with the Attorney General and his staff.
    Mr. Wolf. Okay. Well, if you keep the committee informed--I 
think we are going to see a story in a major newspaper very 
soon showing that somebody--and maybe somebody from my 
congressional districtwas killed or maimed or something by an 
individual who has been released from prison from a country that would 
not take these people back. These are violent individuals. Many times 
they prey on their own community.
    Mr. Armitage. Violent non-citizens.
    Mr. Wolf. Exactly. And I think you ought to pick another 
couple of more countries and just deny visas. We are always 
running around here on the floor passing most favorite nation 
trading status for Vietnam; I did not vote for it. I did not 
think we should do that, but the Congress in its wisdom did.
    Now, we have business men wanting to go back and forth in 
trade, fine. If that is where their approach is--that may not 
be my approach, but that is what the law is.
    But now, take these people back. I think you should make 
the case with some of these countries, the strongest cases that 
we perhaps have. I think there is a very strong case. If my 
memory serves me, you served in Vietnam----
    Mr. Armitage. Six years.

                              U.N. REFORM

    Mr. Wolf [continuing]. Mr. Green served in Vietnam.
    Take them back, and I think the administration will be 
severely embarrassed if a major crime takes place. And I know 
the prisons are stressed now. They are wondering, ``What do we 
do?'' And 2,000 have already been released.
    So, the quicker these people--these are not legitimate 
people who are here to become good citizens, so we are making a 
distinction there, but that their countries involved take them 
back. Or if they do not take them back, just deny visas. Their 
trade ministers shall no more come here.
    I do not think this is retaliatory. This is a progressive, 
open, positive way. We want trade. We want relations. We want 
to be trading with people.
    But on the other hand--Iraq and the United Nations. Over 
the past 12 years, Iraq has repeatedly failed to comply with 
U.N. resolutions. We all know about this, in fact, we probably 
know more than we want to know.
    What does all this failure mean for the credibility and the 
prestige of the U.N.?
    I, for one, believe the U.N. does a lot of good things--the 
World Food Programme and UNICEF. And yet on the other hand, 
some damage has been done, I believe. This is not an anti-U.N. 
question, so I am not coming from there. It is almost, if you 
will, a friendly question. Are people from around the world 
looking at some reform?
    We reformed here in Congress. We made a decision that you 
could only chair a subcommittee for six years. We reformed a 
lot of the way things work. Every institution--and in fact is--
that is what Mr. Grant Green is doing now; you are reforming 
the State Department. No institution, other than Heaven, is so 
perfect that there is no reform involved.
    Our minds, international lawyers, thinkers thinking, is 
anyone doing any papers or symposium? Is Kofi Annan looking at 
this issue?
    And the other side, when Libya becomes head of the Human 
Rights Commission, there is a rebuttable presumption that there 
is a problem, and was not Iraq head of the proliferation?
    Mr. Armitage. Yes, they removed themselves. They would have 
been, but they removed themselves.
    Mr. Wolf. They removed? So is there anything being done 
within the building or within the government to sort of look at 
these issues from a discussion point to----
    Mr. Armitage. If I may, I think your question has actually 
two parts. One is the strict reform part. We have, I do not 
know if I can document all of it, but we have had pretty good 
luck, I think, in tightening up their management, working with 
them to tighten up management.
    John Negroponte and his colleagues up there are pretty 
proud of what they have done. We have used our influence, I 
think, appropriately, to get folks in where we could, who we 
thought had a good sense of mission, like Jim Morrison at the 
WFP and people like that who are dedicated humanists, but also 
were American citizens who believe if they are going to take 
our money, and they are, then we want to get good value for the 
dollar.
    There is a host of those issues, but I think there is a 
sort of a larger question about the whole U.N., and what we 
know about resolution 1441 and that we subsequently know that 
the French apparently were more interested in constraining the 
United States and Great Britain than they were in disarming 
Saddam Hussein.
    They are paying a big price for it, and that is correct and 
right. Now, the question is, can we work in an organization 
like this in the future?
    Our answer is yes, and we have started it. We started it 
with the Oil-for-Food Program the other day with a 15-0 vote, 
including, of course, Syria, that allows the Secretary General 
to oversee the Oil-for-Food Program until there is a new Iraqi 
government.
    We are going to be approaching the U.N. again to figure out 
the appropriate role for the United Nations in the post-Saddam 
Hussein Iraq. They do not want to run Iraq, that is not what 
the United Nations does, but there is an appropriate role for 
them. We have a team which is going to Britain to talk with our 
British friends about it.
    This has been a subject of a lot of discussion with the 
President and Prime Minister Blair and Mr. Aznar and Mr. 
Barroso of Portugal. We believe this is an institution that has 
relevancy and can be relevant.
    It is only when certain member-countries on the Security 
Council make a selfish decision to remove themselves from 
relevancy that the United Nations does not serve the purposes 
the founders had envisioned 50-odd years ago.
    Mr. Wolf. Well, are there any distinguished scholars 
looking at the reform of the Security Council, the reform, 
and----
    Mr. Armitage. I do not know that there are any right now, 
Mr. Chairman. I know that there have been a good bit of studies 
on U.N. reform, which I would be glad to catalogue and send to 
you.
    I do not have them here.
    Mr. Wolf. But they are more budgetary and management?
    Mr. Armitage. Yes, they are.
    Mr. Wolf. I was thinking in terms of----
    Mr. Armitage. You are thinking of policy.
    Mr. Wolf. Now, had the French not taken the position that 
they took, perhaps this war could have been avoided or perhaps 
a message would have been sent to Saddam Hussein that the 
French are not going to be supportive, the Germans are not 
going to be supportive, therefore, you know, he could have left 
to go to a Mauritania or a Libya or wherever thecase the may 
be.
    And so, the very nature of the structure could very well 
have resulted in something taking place that we would have 
hoped not to take place, and not from a negative side but my 
sense is great minds, if you will, ought to be looking at--does 
this institution need to be reformed, particularly the Security 
Council, not so much from a budgetary point of view but from an 
overall perspective.
    An institution can become irrelevant after a certain period 
of time. People who care about the U.N. and appreciate the good 
work they do, the World Food Program, the UNICEF and World 
Health Organization, should look at how you can strengthen it 
and help it. It could be done in a positive way. Some people 
who understand these issues ought to be looking at them and 
doing discussion papers for Kofi Annan and others on the 
Security Council to look at.
    Mr. Armitage. The subsidiary organization--the U.N. Human 
Rights Commission--when you think about it, the founders and 
the Charter writers envisioned a world in which everyone 
basically shared general views, and it is quite clear that all 
the nations in the United Nations as a whole do not always have 
similar views.
    The very fact that you have a Zimbabwe, or the fact that 
you have a Libya chairing a Human Rights Council makes a 
mockery of it. What is good in theory does not pan out in 
practice.

                   DEMOCRACY IN IRAQ AND MIDDLE EAST

    Mr. Wolf. Somehow I think somebody ought to be looking at 
this, and perhaps having some conferences on it, because it 
clearly is a system that is not working well and may very well 
have been the result of us having to do something that we would 
have rather not had to have done.
    The French, whether knowingly or unknowingly, really set 
the tone whereby if you were sitting in Baghdad and watching 
that you may very well think there was an opportunity for you 
to not have to comply.
    If the 15 had been together that may have resulted in what 
is taking place not having to take place. The consequences of 
war are unpredictable.
    One justification for action in Iraq is that the removal of 
Saddam's regime will pave the way for a growth of democracy, 
not only in Iraq but throughout the region.
    Do you agree this is a likely outcome? And what are we 
prepared to do to ensure democratic development in Iraq?
    How specifically will democracy be pushed? And what are we 
doing? And can we expect, at least in the near term, to see 
something?
    And when we think in terms of that, we think in terms of 
Turkish democracy. What do we hope to see with regard to that 
after this--with regard to democracy in the Middle East?
    Mr. Armitage. I agree to some extent. There were three 
questions that I see.
    Certainly, the removal of Saddam Hussein will make the 
search for peace that you mentioned in your opening remarks 
between Israel and the Palestinians somewhat more accessible. 
The elimination, for instance, of payments to families to have 
a suicide bomber will be a dramatic step in the right 
direction. I think in that regard, the answer is yes.
    Number two, I think you have a country that is not a threat 
to its neighbors, or an Iraq that is not a threat to its 
neighbors, certainly cannot help but to have a salutary effect 
on Kuwait and Saudi Arabia, at a minimum. And certainly to be 
of further help to Jordan.
    Whether this would bring about a wave of democracy in Syria 
and places like that, I am less sure.
    I think that there is a trend already in the Middle East 
that is ongoing. You see it even in such a country as Iran, 
which had a democratically elected government which was 
hijacked by an unelected theocracy. There is something going 
on. All the Iran scholars and the journalists who write about 
it talk about some wave that is going on.
    Is it a tidal wave? No, clearly not yet, but there is 
something going on.
    You saw the same thing--I thought in the far-reaching 
comments of Crown Prince Abdullah of Saudi Arabia and his 
bringing discussions of a democratic Saudi Arabia out in the 
open and laying out his own blueprint. This is rather 
magnificent, particularly when you put it beside the smaller 
countries in the Gulf, such as Bahrain, which is moving in this 
direction and the UAE, and Qatar, where things are happening 
that open up society to all people, including women.
    There is a lot going on, and I think it is going on in the 
right direction. I think it is almost inevitable. As the 
President would say, there is a yearning for freedom. And the 
only way to--I think, ultimately be sure that you will keep 
your freedom is by having a democracy.
    Finally, the point about Turkey, which is a democracy. This 
is sometimes difficult. I think it was difficult for many of us 
in the Administration and certainly for many in the Congress 
who are now debating the whole question of $1 billion for 
Turkey. That is that if you really respect democracy, then you 
have to respect the results of a democratic process.
    In Turkey we had a government attempt to go to the 
parliament, and they failed. We have to respect that. We have 
to work to try to change it in the appropriate way. But it is 
one of the ironies. We respect the democracy of Turkey even 
though we did not like, in this case, the results of that 
democratic process.
    Mr. Wolf. Well, there is going to be a great burden on the 
administration, because the articulation of the reasons for 
going into Iraq were heavily--and I hope it was not rhetoric--
were heavily stressing the bringing democracy to the Middle 
East.
    Mr. Armitage. We are providing a Deputy Assistant Secretary 
for the team from the DRL, the Democracy and Human Rights 
section of our department. I think that shows that we are not 
overlooking it initially. It is not going to happen.
    The President of the United States is not going to commit 
young men and women to this sacrifice without leaving Iraq 
dramatically for the better. That has to include a democratic 
process.

                               TV IN IRAQ

    Mr. Wolf. When people from all these countries come to the 
United States, they come here for democracy. And I know a 
number of Syrians who are living here who love democracy. And 
so we cannot say that Syria can never be a democracy. I 
understand the different problems with the current government 
and the foreign minister isnot a very good person.
    But when they come here, they want democracy. When my 
grandparents came here from Germany where there was not 
democracy, they loved democracy here. So there is this little 
cavity inside everybody. You know, one cavity some people think 
has to be filled with the search for God. The other is 
democracy and freedom and integrity.
    And so, I would not give up on the goal that we can bring 
it to all these places that currently do not have it. But I 
think it has to be pushed aggressively.
    And are you working with the idea of also developing a TV 
station to go along with Radio Sawa? Is that--or has the 
administration----
    Mr. Armitage. I think there are several right now. We just 
made a decision yesterday to supply--I think it was $3.1 
million for TV in Northern Iraq. We have a whole host of--as we 
move toward Baghdad, a whole host of operations, along with the 
British who have TV and radio broadcast abilities now. That is 
primarily directed at Iraq.
    Mr. Wolf. So we will be setting up a TV station, if you 
will, in Iraq?
    Mr. Armitage. Well, there are not many satellite dishes. 
There were not many to start with, you know, as they were 
basically outlawed except for the privileged classes in Iraq. 
We are, with our aircraft, overriding TVs. They are only on 
occasionally now in Baghdad.

                           RELIGIOUS FREEDOM

    Mr. Wolf. Religious freedom. Earlier this month, you 
designated six countries as countries of particular concern 
with regard to violation of religious freedom as required by 
the law. The biggest news was the omission of Saudi Arabia.
    Freedom of religion does not exist in Saudi Arabia. The 
practice of anything other than the Wahhabi state religion is 
prohibited. Non-Muslim worshipers risk arrest, imprisonment, 
lashing, deportation, sometimes torture for engaging in overt 
religious activity that attracts official attention.
    I believe that meets the legislative criteria for the 
designation. That was actually my bill. And I really do not see 
how you can, in good faith--it may be painful for you to put it 
on, but if you are speaking truth to the powerful, the Saudis 
really almost have to be designated a country of particular 
concern.
    Will the department be communicating a set of specific 
criteria to Saudi Arabia so that next year's designation will 
represent an objective judgment on whether the Saudis are 
taking specific actions that respond to identify problems?
    The other day I saw in the Washington Post, it starts out, 
it says, ``Saudi firm on church ban.'' And then it said: ``This 
country was the launch pad for a prophecy and the message and 
nothing can contradict this. Prince Sultan, the minister, said 
in Riyadh last weekend after hearing complaints that Christians 
are not allowed to worship in public.''
    Those who want to establish churches, `` are unfortunately 
fanatics,'' the sultan said. ``There are no churches. Not in 
the past, the present or the future. Whoever said that must 
shut up and be ashamed.''
    Now, when the Saudis came to my congressional district to 
establish the Saudi academy, I thought it was fine. They have 
the Saudi academy down at the old Mount Vernon High School. 
There are mosques. I went to the dedication of a mosque in the 
new ADAMS Center out in Herndon, in my congressional district.
    Why can there not be an opening?
    And so if they are not going to open up, which does not 
look very hopeful, they clearly ought to be on the list, 
because they are in violation of the law.
    Now, what you do after they make the list, you know, we 
will have to see.
    So do you have any thoughts about----
    Mr. Armitage. The answer is, yes, we will make that 
presentation. The second answer is kind of homework to me. I am 
a little surprised. I did not notice that they were not on 
there. I am going to supply you the rationale for that. Not 
that you need to accept it at all, and given that comment it 
is----
    Mr. Wolf. That is what I thought.
    Mr. Armitage. I have to get the rationale on that. Because 
we have been pretty frank and forthright about our relationship 
with Saudi Arabia. I will find out, and I will provide you that 
today.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
    Mr. Wolf. Yes. We are not looking to change the Saudi 
kingdom.
    Mr. Armitage. No, I got that.
    Mr. Wolf. We are looking, there is a large number of people 
from the Philippines who want to worship, there is a large 
number from others who would like to have the opportunity to 
worship. They are not out there causing problems and creating 
problems. Prince Bandar, who lives in my congressional 
district, can come to my church, he can go to the mosque, he 
can do whatever he wants to.
    That is just our system. It is a good system. It is one 
that has worked well for all these hundreds of years. And so if 
somebody is a Roman Catholic or a Protestant or Jewish or a 
Hindu or whatever and they want to worship, obviously in their 
own way.
    And if they cannot do that, then I think clearly they make 
the list. And I think it is important.
    Sometimes, you know, we do our best work when we identify 
with the poor and the oppressed and the persecuted. I think the 
Reagan administration did an outstanding job when we were 
trying to bring down the Berlin Wall.
    And when the secretaries of state would go to Russia, they 
would meet with the Jewish dissidents and they would identify 
with them. They would many times meet with them in the embassy.
    And the Soviets would sort of get confused. Here is the 
secretary of state, Shultz, meeting with this dissident in the 
embassy. But we were identifying, we were sharing their burden, 
if you will. And it sent a terrific message.
    I worry that we have not done that in Saudi Arabia. And I 
am very disturbed that a number of our American ambassadors who 
used to be our ambassador to Saudi Arabia, some are now on the 
payroll of the Saudi government.
    If they are not on the list, I will look for the 
justification and then we can look to see next year.
    In the department's performance and accountability report 
of 2002 the very lowest performance rating department-wide was 
for programs to gain worldwide acceptance of freedom of 
religion. Reported results were significantly below targets.
    Can you take a look at this and let us know what the 
department is going to do to improve the results? It could be a 
factor of what you are measuring?
    Rather than counting the number of conferences that take 
place, a better measurement of success would be actual 
improvements.
    You are already collecting country-specific data in the 
annual religious freedom report. Couldn't you simply tally how 
many countries brought about improvements in religious freedom 
over the past year versus how many went the other way?
    Mr. Armitage. Yes, I am thinking of China, frankly, and I 
am just kind of taking your statement and playing it against 
China. In one way you get a step forward and a step back. You 
get an acknowledgement by the leadership of China that, for 
instance, there are about 100 million, by their estimate, 
believers in China.
    It seems that to some extent, when there is no problem or 
much public manifestation of it, then these services, et 
cetera, are allowed to go on. On the other hand, if there is 
some public demonstration about it, then there is a clamp down 
or a stoppage of it.
    I am not sure in my own mind whether it is easy to 
catalogue as a plus or a minus, because I think it is a mixed 
bag.
    I know Ambassador Hanford, who has gone--I am thinking 
again of China. On several occasions, I think he would say it 
is a mixed bag, and we have to push on all fronts at the same 
time. I think we try to capture that in our religious freedom 
report.
    That is how I think I would respond.

                 COMPENSATION FOR VICTIMS OF TERRORISM

    Mr. Wolf. Okay. Well, we will keep trying.
    The believers, as you call them, those, that whether they 
be Catholic, Protestant or Buddhist in Tibet are of no threat 
to the Chinese government, none.
    The Buddhist in Tibet; I was in Tibet for a week with a 
Buddhist monk who spoke the language. I never heard any 
Buddhist monk that we spoke to--and obviously there were no 
Chinese handlers around--criticize the government. They were 
critical of the activity of putting Buddhist monks into prison 
and different things like that, but they were not calling for 
the overthrow of the government.
    So those who are people of faith generally are very 
supportive not of their government in the sense that they are 
out supporting the government, but they want to worship. And 
so, I think they are not a threat to the Chinese government.
    And let me cover another very tough issue, compensation for 
victims of terrorism. We really have to bring this issue to 
conclusion.
    Section 626 of the fiscal year 2002 bill called upon the 
president to submit a legislative proposal to establish a 
comprehensive program to ensure fair, equitable and prompt 
compensation for all U.S. victims of international terrorism, 
including those with hostage claims against foreign states. We, 
and more importantly the victims--forget us--the victims, and 
there are so many victims, are still waiting for such 
legislation.
    I had a constituent who was killed in Pakistan, AID 
employee, several years ago, thrown out of a plane where his 
legs were jammed up in his body. The victims with regard to all 
of the bombings--the Tanzania bombing, the Kenya bombing--and I 
know you are familiar with it. And we really need the State 
Department to advocate. I mean, the hostages with regard to 
Iran, now they have made a little progress up here, and I am 
supportive of them.
    But we really need a uniform policy, and we really need the 
State Department to work with the authorizing committees.
    I have a family in my district, another one who was 
involved in the Kenya bombing. And I think we need something 
that is fair. We cannot have the situation that if you get a 
couple powerful people who can represent and get a big law firm 
to sue for this category and the others who, perhaps are 
getting very old now and are not sure what is going on get 
something less.
    We really need a uniform policy with Justice that goes back 
really--terrorism is not new. How did we compensate the 
families that were killed in the Beruit bombing of theembassy 
in 1983?
    Nobody even talks about them anymore. It is like they were 
not just even around. And so when I look at all of these things 
that are taking place--and now we are beginning to be different 
groups who come up and hire this person who knows this person.
    I really think we need something equitable that covers the 
Iranian hostages, that--and does it in a way that does not 
complicate your ability to run foreign policy.
    There was an amendment over on the Senate side that I 
oppose. And I was criticized for opposing it. But I knew you 
were dealing with that country in case pilots were shot down. 
And so I felt to do that on a piecemeal basis was not right. We 
really do need the two of you and the Secretaries to come up 
and advocate some uniform policy that the authorizers can put 
into place.
    Victims are our citizens. Some are diplomats who are 
working overseas. God forbid and we hope it never, ever happens 
again. But to give confidence to anyone that is out there. We 
just have to bring a uniform policy. And it has been over at 
OMB. I am going to ask for the name of the person over at OMB. 
And then what I am going to do is give a five-minute on a 
special order and just say this is the person that is blocking 
this. And I do not know how to reach them or where they are, 
but just call the White House switchboard and ask for the 
person's name and just call.
    I have actually thought of going on a radio show on one of 
the Christian radio stations and just giving the person's name 
out and let them explain it.
    I cannot explain it any more. When the families come in to 
me, some are constituents, most are not. And I know public 
service is to serve the country. We just need a policy.
    And so I would like to ask you, will you just come up, work 
with the authorizers?
    I do not think this committee can fashion it. Get Mr. Hyde 
and Mr. Lantos and something that you all feel comfortable with 
and so we can treat these people fairly.
    Mr. Armitage. Look, you have me in a difficult position. In 
June of 2002, I sent a letter with OMB concurrence to the 
relevant Members explaining the principles on which we would 
like to move forward on this.
    Secretary Powell sent another letter on March 13 saying 
that we have to move on this. I do not want to point to a name. 
We can talk privately about it. Yes, it is increasingly 
difficult for the Administration to just sit back and not 
conform with the policy. That is all you have added, and it is 
perfectly sensible. People who have suffered have a right to 
redress.
    Mr. Wolf. Well, thank you. I knew you agreed with me, and I 
know that the department does, but I would hope this year we 
could bring the----
    Mr. Armitage. Say OMB agreed with it, and they cleared my 
letter. It is just--we have had difficulty fashioning it, so 
the Secretary went back to them on the 13th of March. I 
suspect, though, that they have been totally tied up in this 
emergency supplemental.
    Mr. Wolf. Could you provide that so we could put that in 
the record?
    Mr. Armitage. The letter? No.
    Mr. Wolf. Well, I am not here to get you in trouble.
    Mr. Armitage. I am making my statements, but for the 
record, sir, it is correspondence from the Secretary. I will be 
glad to show it to you, but I would not want it in the record. 
That is not appropriate.

                        BERLIN EMBASSY SECURITY

    Mr. Wolf. Okay, I respect that. But let's see if we can all 
resolve it by the end of this year because memories are short. 
We forget the names of the people. And many of them are not 
organized.
    They are not powerful people. They are scattered. And they 
just do not know what to do. Some are not even sure of where 
some of these activities are going on, and that if something 
happens, they do not even know that they will be participating 
in it. So I think that we can do that.
    The last one or two questions, the Berlin embassy. There is 
no place immune to terrorism today. Germany has certainly seen 
the disco bombing of the service men, the Munich bombing. Why 
is the Berlin project a higher priority than additional 
construction under the capital security replacement program, 
where the results will be facilities that meet security 
standards?
    Is your request for $128 million for the construction? It 
cannot be constructed on the proposed site in the manner that 
will meet the security standards. And the cost is going up. And 
so, at a time that we are really stressing embassy security, 
you are relaxing it somewhat for the embassy in Berlin.
    Mr. Green. What we are doing, sir, in Berlin, once the site 
was selected, which you have probably seen, if you have not 
heard about it certainly, is rather than the setback, they are 
using construction techniques--building thicker walls, if you 
will--to compensate for the lack of setback.
    Mr. Armitage. They have also been rerouting traffic.
    Mr. Green. Well, yes.
    Mr. Armitage. Yes, the rerouting as well.
    Mr. Green. Rerouting the traffic away from the embassy.
    Mr. Wolf. And General Williams is confident that that makes 
it----
    Mr. Green. Yes, the waiver has been signed by the Secretary 
for the security waiver.

                   COST SHARING FOR SECURE EMBASSIES

    Mr. Wolf. Well, okay, I guess, you know, we are being so 
strict in other areas, and you have had--actually you have had 
a couple of--I think Atta had lived in Germany for a period of 
time. You have a significant number of terrorist cells that 
have operated in Germany. I do not know.
    This goes back to the question that we were talking about, 
the cost. Your budget request for 2004 includes an increase of 
$129 for the first year across the starting and inter-agency 
cost-sharing program for secure embassy construction.
    The program, if implemented properly, will have two primary 
benefits. One, more funds will be available to construct secure 
embassies; also it will create a right sizing incentive where 
currently none exist for all agencies to keep their overseas 
presence to the minimum number necessary to serve critical and 
national interests.
    In 2004, money is only coming out of the State Department 
budget for this initiative. Can you ensure that this initiative 
develops--that other agencies will bear a fair and proportional 
share of a cost of the overall construction program. And, 
therefore, they will have the incentive to rationalize. 
Everyone ought to be prepared to pay their rent, square footage 
or whatever the case----
    Mr. Green. That is what our proposal is, sir.
    Mr. Wolf. But also, and your arguments were working a 
little bit against what the committee is trying to do. I have 
been urging--and we are going to fund the FBI to have those 
additional Legats. I think we need additional Legats in other 
places. I think the bureau ought to pay. We have asked the 
bureau to put a Legat in Lebanon--Hezbollah, Hamas, conflict 
diamonds.
    Mr. Green. Sure.
    Mr. Wolf. But they are telling us that they cannot find the 
space in the embassy in Lebanon, because there is no additional 
space. Well, shouldn't there be a mechanism--is the plant and 
agriculture office there? And maybe it is doing a great job.
    But maybe in these days of terrorism, they ought to come 
out. So there ought to be some way for agencies to both pay a 
fair share but also have their programs prioritized as to 
policy at the overall level.
    Mr. Green. Yes, sir.
    Mr. Wolf. But the----
    Mr. Green. Obviously, the difficulty is, as the world 
changes and priorities change, we are getting a lot of demands 
from other agencies that are not State-related necessarily. As 
you say, law enforcement, health, drugs, counter-terrorism and 
so forth.
    When we build a new embassy, we can get a reasonably good 
handle on what the requirements are, personnel-wise. But that 
still does not always hold by the time we--even under fast-
track construction, which we are doing now on our standard 
embassies from groundbreaking to cutting the ribbon, it is 
about two years.
    Those requirements, as you saw in Kabul, can change 
dramatically. The difficulty we have in a place like Lebanon 
is, we have an existing facility, but the demands continue to 
increase. We do not have a system that I am aware of that would 
do what you say. In other words, prioritize who is in that 
building and, you know, kick Ag out, and move Legat in, for 
example.
    I do not think we are there yet--not that it is not 
something we should not look at.
    Mr. Armitage. No, you are right. We do not have a system 
for it. But, in a way, we do. It is called an ambassador. There 
are some things that have gone on quite well in an embassy. 
Agriculture--we will pick on them, perhaps there for 15 years, 
but it is now no longer relevant. Or maybe that position ought 
not to go to that post, maybe it ought to go to another post 
and become a circuit rider.
    But I think you are right--there is no system. I think it 
is incumbent upon us to make sure the ambassadors are squeezing 
this out the right way to tell us who is----
    Mr. Wolf. Do you have a formal--do you have a formal--have 
you gone out to all your ambassadors saying, obviously, if an 
embassy did not have somebody in Africa for hunger, and now 
they do, obviously--that would be a priority over something 
else, maybe a law enforcement.
    But, are you--has there been an effort to have all the 
ambassadors to go out and do an inventory of what you have?
    Some of these agencies may very well like to come home--
maybe just osmosis--they have just kind of stay there, and it 
has always been, but now there is no longer a need.
    Mr. Green. I think that is what right-sizing under the OMB 
lead and the cost sharing will drive. Because we have agencies 
now, very frankly, that do not know how many folks they have 
overseas.
    Mr. Wolf. Is there an inventory now of all the embassies--
--
    Mr. Green. We have one.
    Mr. Wolf. You have one.
    Mr. Green. Sure.
    Mr. Wolf. You know how many DEA agents there are----
    Mr. Green. Sure.
    Mr. Wolf [continuing]. And how many FBI----
    Mr. Green. Sure.
    Mr. Armitage. We have part of what you want, Mr. Chairman, 
in the Mission Performance Plan. We make our embassies come up 
with their performance goals, which are about a handful. They 
have to measure themselves against it.
    This is helpful for us, when I go to your colleagues on the 
Foreign Ops Committee, that asks about money spent on religious 
freedom or for something else. If an embassy is performing 
their goals well, maybe we got about the right amount of money.
    If they are not getting it, we have to make a 
determination. Is it because we are not doing it right, or 
there needs to be more money?
    This is true, that some areas where Agriculture, for 
instance, has been historically present, but maybe it is no 
longer necessary. Maybe we are past that. That should show up, 
to some extent, in the Mission Performance Plan. But it is not 
something that shows up in one year. It takes two or three 
years--do not you think, Chris?--to get that to show up so we 
could actually grade ourselves.
    Mr. Wolf. Has every embassy submitted a Mission Performance 
Plan?
    Mr. Armitage. Yes.
    Mr. Wolf. So, if we were to call up the embassy in Eritrea, 
we would now see their mission plan, how many people they have 
to carry out that plan, how many FBI agents, how many Ag 
people, how many--I mean, that would all be there?
    Mr. Armitage. They grade themselves on how they are doing 
to achieve these various goals.
    Mr. Green. Then, those are rolled up into the geographical 
bureaus' plans, and come to the Deputy for allocation of 
resources.

                    AMERICANS ABROAD AS AMBASSADORS

    Mr. Wolf. Okay, well, hopefully you can get that resolved 
by next year, for both the reasons that Mr. Rogers have been 
talking about and that you are concerned about, which would 
give you additional resources, but also to make sure that the 
slots there are fitting into the overall program.
    The last question, I guess, and then I will make a, just a 
comment, is: We really should be using the Americans abroad 
more than we use them. There are a lot of Americans in France, 
in Germany, in all countries, who love America. And other than 
just sometimes being invited to the Fourth of July party, if 
they can get an invitation, that is their involvement with the 
American embassy. We are all ambassadors.
    And so, if you get an American with IBM or Motorola living 
in China or living in Europe, you are an ambassador for the 
United States. And I would love to see us--I mean, maybe there 
is a group of Americans living in a particular country that 
would adopt an orphanage.
    Maybe there is a group of Americans in a particular country 
that will periodically, you know, go clean up a road, or, I 
mean--you know, Americans--there is not the volunteer spirit in 
a lot of the world that there is in America. We are just a 
volunteering country.
    Mr. Armitage. Adoptions prove that.
    Mr. Wolf. Yes. Is there anyone in the department whose job 
is to work with Americans abroad and have them speak out, or 
have them do events?
    I do not mean political events, and I do not mean meetings. 
But I mean to have them adopt some orphanages or go paint 
something or go do something.
    And I am hearing from people saying, ``Boy, I would love to 
be involved. I live in Italy. I would love to be able to do 
that.''
    Politically, we ask them to vote. We like that. But should 
we not also invite them to participate and let them play a 
role?
    Mr. Armitage. I think what I am hearing from a former life 
of both of our is that you are making the correct point that 
Americans overseas are force multipliers.
    Mr. Wolf. We are.
    Mr. Armitage. If we properly approach them--primarily, I 
think, through public diplomacy--and get them to be the 
microphone and the megaphone for us--that is different from the 
volunteerism, which is a separate thing.
    I think in a way that is kind of individual. I know we have 
embassies which volunteer to do things, but it is a little 
different.
    We can encourage it. I see the force multiplier, but I am 
not sure the volunteerism can be fostered from an embassy. I 
think this is something that comes from within an individual 
and in a group.
    Mr. Wolf. I had a member of my family that was in Bulgaria, 
and they said one of the most hostile places was the American 
Embassy in Bulgaria.
    The person was out jogging and got attacked by a pack of 
dogs, and went to the American Embassy for a rabies thing, and 
the British Embassy gave him the rabies shot.
    I mean, I think sometimes we do, we really have----
    Mr. Armitage. How long ago was that?
    Mr. Wolf. Well, I can tell you. I mean, I do not want to 
say it now because I will tell you when, because it would 
identify, you know, who was the ambassador at that time.
    Mr. Armitage. That is what I wanted.
    Mr. Wolf. Well, it was not in this administration. And it 
was my son-in-law. But I really think the Americans abroad are 
a people who understand the culture over there and understand 
us and can be used, and if you thought it would be meritorious 
we would put some money in--whereby you could have a 
coordinator, if you will, to tell the American story abroad, 
whether it be in France, or whether it be in a Third World 
country.
    But--and I do not mean politically, writing letters to the 
editor. I am talking about doing constructive things to tell 
the story, to go into schools.
    Mr. Armitage. What occurs to me is it is not--I mean, money 
helps in anything, but it is not that. If we were to find at an 
embassy a group that was volunteering in whatever good program, 
and we were to send you a letter on it, and you were to put 
that in the Congressional Record, that is the kind of thing we 
can then send out to all our posts and have them pass it 
around.
    That is a way to get things moving. You have to spark the 
idea.
    Mr. Wolf. But I think the American ambassador, and I do not 
want to beat this too much, ought to reach out to the American 
community in those countries, probably difficult to do in 
England because there are so many; but probably not that 
difficult to do in Romania and Bulgaria and Kenya and Eritrea 
and Ethiopia.
    There probably are not more than 500 Americans in Ethiopia, 
but to reach out to them is important. Our people in the 
embassies do a good job of being part of the community. Like in 
Ethiopia, the Marines were raising money for the hunger 
program. So I think the embassy staff should reach out to the 
Americans that are in that country and almost like a service 
corps whereby they are participating.
    Maybe we can do something in language, or maybe we can give 
you some additional resources, or maybe you could put that in 
your memo to all the embassies, the ambassadors----
    Mr. Armitage. That is just what I am writing now.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 

    
                  Concluding Remarks of Chairman Wolf

    Mr. Wolf. That is all the questions we have, and no other 
Members are here. I just would urge you again on the issue of 
China, that sale to that Chinese company would just be, I 
think, wrong.
    So as this percolates up, I hope you get the DI briefings 
and the other intelligence briefings and look at that, because 
Global Crossing should not be sold to a Chinese company.
    The other is, if you let the Committee know what you are 
doing on the war crimes issue.
    Again, thanks for both of you for your testimony and for 
your service and the hearing is adjourned.
    Mr. Armitage. Thank you, sir.


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Armitage, Richard................................................    69
Green, Grant S., Jr..............................................    69
Powell, Hon. C. L................................................     1








                               I N D E X

                              ----------                              

                           Secretary of State

                                                                   Page
Administration of Iraq...........................................    38
Afghanistan and Iraq Compared....................................    39
Aid to Turkey....................................................    43
Concluding Remarks of Chairman Wolf..............................    65
Congress's Role Towards U.N......................................    35
Democracy in the Muslim World....................................    52
Diplomatic Readiness Initiative..................................    40
Economic Impact on Turkey from Persian Gulf War..................    47
Embassy in Baghdad Costs.........................................    26
Exchange Programs to Muslim Countries............................    48
Foreign Military Financing and Supplemental Request..............    61
Foreign Service Exam Process.....................................    41
Foreign Service Families at Posts................................    43
Future of Iraq...................................................    39
Future U.N. Resolutions and Iraq.................................    55
German Sales to Iraq.............................................    63
Humanitarian Aid and Iraq Oil....................................    43
Information Center in Iraq.......................................    31
Inman Report Recommendations.....................................    49
Iran and U.S. National Security..................................    36
Iraqi National Congress..........................................    62
Machine Readable Visas...........................................    63
North Korea and U.S. Relations...................................    57
North Korea, Iran and Nuclear Weapons............................    53
North Korean Refugees............................................    63
Opening Statement of Chairman Wolf...............................     1
Opening Statement of Ranking Member Serrano......................     3
Peacekeeping in Iraq.............................................    64
Public Diplomacy Commission......................................    27
Role of the U.N..................................................    60
Russian and French Technology to Iraq............................    58
Russian Sales to Iraq and Visas..................................    44
Russian Supplies to Iraq.........................................    56
Special Envoy for Famine and Hunger Relief.......................    28
Stability in Turkey..............................................    60
State Department Liaison Office..................................    49
Statement of Secretary of State Powell...........................    18
Student Exchanges and Visa Process...............................    45
Sudan and the U.N. Commission on Human Rights....................    31
Support for Turkey...............................................    59
Trans-Atlantic Relations.........................................    47
U.N. and U.S. Foreign Policy Objectives..........................    35
U.N. Role in Post-War Iraq.......................................    54
U.S. Aid to Turkey...............................................    37
U.S. and German Relations........................................    50
U.S. Troops in South Korea.......................................    53
Weapons of Mass Destruction......................................    51

 Deputy Secretary of State and Under Secretary of State for Management

Aid to Turkey....................................................   121
American Presence Posts..........................................   113
Americans Abroad as Ambassadors..................................   140
Berlin Embassy...................................................   114
Berlin Embassy Security..........................................   138
Compensation for Victims of Terrorism............................   136
Concluding Remarks of Chairman Wolf..............................   146
Cost Sharing for Secure Embassies................................   138
Criminal Aliens..................................................   125
Democracy in Iraq and Middle East................................   129
Deputy Secretary for Management..................................   105
Diplomacy Center.................................................   124
Diplomatic Readiness Initiative..................................   101
Embassy in Baghdad..............................................103,116
FBI Training at Foreign Service Institute........................    93
Foreign Service Exams............................................   105
High School Student Exchanges....................................   104
Interim Iraqi Authority..........................................   120
Machine Readable Visas...........................................   124
Management at State Department...................................   108
Military Involvement in Colombia.................................   106
Opening Statement of Chairman Wolf...............................    69
Opening Statement of Ranking Member Serrano......................    72
Public Diplomacy Funding.........................................   119
Religious Freedom................................................   131
Rightsizing at Posts.............................................   110
SARS and State Department Employees..............................   123
Special Envoys on Hunger Relief and Sudan........................    95
State Department Presence in China...............................   122
Statement of Deputy Secretary Armitage...........................    73
Statement of Under Secretary Green...............................    93
Sudan Cease-fire Violations......................................    98
TV in Iraq.......................................................   130
U.N. Reform......................................................   126
UNESCO and OECD..................................................   123
USAID Management and Department of State.........................   117
USIA Integration into State Department...........................   100
Visa Information Sharing.........................................   114
War Crimes in Iraq..............................................100,120

                                  <all>

</pre></body></html>
